<html>
<title> - RECREATIONAL ACCESS TO PUBLIC LANDS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  RECREATIONAL ACCESS TO PUBLIC LANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 23, 2001

                               __________

                           Serial No. 107-32

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
72-561                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 23, 2001.....................................     1

Statement of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, Prepared statement of.......................     6
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, Prepared statement of...............     6
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     4
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................     5

Statement of Witnesses:
    Bassett, Steve, President, United States Air Tour Association 
      (USATA)....................................................    44
        Prepared statement of....................................    46
    DeCou, Wesley, Flying Site Coordinator, Academy of Model 
      Aeronautics................................................   109
        Prepared statement of....................................   111
    Ehnes, Russell L., Testifying on behalf of Americans for 
      Responsible Recreational Access (ARRA).....................    23
        Prepared statement of....................................    25
    Hill, Alan T., Testifying on behalf of the American Horse 
      Council....................................................    14
        Prepared statement of....................................    16
    Kiernan, Tom, President, National Parks Conservation 
      Association................................................   112
        Prepared statement of....................................   114
    Knowles, Amy Krech, Representing the Florida Keys Fishing 
      Guides Association, et al..................................    86
        Prepared statement of....................................    87
    Laine, Russell, Private PWC User, Testifying on behalf of the 
      Personal Watercraft Industry Association...................    96
        Prepared statement of....................................    97
    Mackey, Craig, Public Policy Liaison, Outward Bound USA......    52
        Prepared statement of....................................    53
    Michael, Sarah, President, Winter Wildlands Alliance.........    27
        Prepared statement of....................................    29
    Nelson, Courtland, Director, Utah State Parks and Recreation.     8
        Prepared statement of....................................    11
    Pidgeon, Walter ``Bud'' P., Jr., President, Wildlife 
      Legislative Fund of America................................    21
        Prepared statement of....................................    22
    Smith, Vera, Conservation Director, Colorado Mountain Club...    68
        Prepared statement of....................................    70
    Ward, Bruce, Executive Director, Continental Divide Trail 
      Alliance, Inc..............................................    79
        Prepared statement of....................................    80
    Woodside, David, Vice Chairman, National Parks Hospitality 
      Association................................................   105
        Prepared statement of....................................   106



        OVERSIGHT HEARING ON RECREATIONAL ACCESS TO PUBLIC LANDS

                              ----------                              


                        Wednesday, May 23, 2001

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 10 a.m., in Room 
1324, Longworth House Office Building, Hon. James V. Hansen 
(Chairman of the Committee) presiding.

STATEMENT OF THE HONORABLE JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. I appreciate you folks being here with us 
today. We are grateful for those who are going to testify.
    As you know, members come dribbling in from time to time. 
We don't have a vote on the agenda, they tell me, so I think we 
are safe.
    I have an opening statement. I will turn to the gentleman 
from Colorado, Mr. Hefley, for an opening statement, and then 
we will proceed with our first panel.
    Mr. Rahall has a family problem and won't be able to be 
with us. We are hoping that some members from the other side 
will come in, as I am sure they will.
    The hearing will focus on recreational activities and 
access to our public lands. Since coming to Congress, it has 
become very evident that Federal land management agencies have 
been engaged in a systematic closure and restriction of a 
number of customary uses by people wanting to enjoy our public 
lands.
    This became especially clear during the Clinton 
administration, as agencies under his watch, in concert with a 
variety of the environmental groups, attempted to prohibit 
various types of uses and access to our national parks, along 
with our Federal lands, through rulemaking, policy 
interpretation, and management plan implementation.
    Although the agencies have premised these prohibitions and 
restrictions on the need for added resource protection, 
analysis of each situation indicates that the science simply 
does not support these measures.
    In effect, these agencies have needlessly closed access and 
have banned traditional use to the very people who they should 
be accommodating, the American public.
    Without question, unnecessarily restricting and prohibiting 
access to the public by the Federal Government is the wrong 
direction to move in and certainly does not serve the public's 
right to enjoy these lands and uses.
    Here are just a few examples, illustrating how Federal land 
management agencies have extended their hand, not to help, but 
shove people off and out of public lands:
    On April 22, 2000, then-Interior Assistant Secretary of 
Fish, Wildlife and Parks Don Barry announced out of the blue a 
complete ban on snowmobiling in all national parks. He did so 
without the benefit of any rulemaking process, public comment, 
or peer-reviewed science.
    One month earlier, on March 21, 2000, the National Park 
Service published a final rule prohibiting all personal 
watercraft, or PWCs, in all park units. Although this rule 
provided a 2-year grace period to form special regulations 
allowing for continued PWC use, five park units, including Cape 
Lookout National Seashore, decided to ban PWC use with just a 
year gone by and with very, very little specific science to 
support the prohibition.
    On January 12, 2001, the Clinton administration signed a 
record of decision, which effectively created almost 60 million 
acres of highly restricted wildness areas, purposely bypassing 
any congressional designation. And I am sure you folks all 
realize that the Constitution gives the public lands to 
Congress, not to the President.
    We know this is the Forest Service roadless area 
initiative, which was premised under the notion that these 
areas needed protecting. However, President Clinton never did 
explain what he was protecting these forest lands from.
    Clearly, this was just another way to keep people out and 
prohibit use of the public land.
    Last year, I became aware of a situation where the Park 
Service denied backcountry trail access to a Boy Scout troop 
for no apparent reason at one of our premier parks. I find it 
hard to believe that our park system has stooped to this new 
low by refusing to let Boy Scouts, a highly respected and good 
institution, in the national parks because here were a few too 
many Boy Scouts.
    Currently, the Park Service is attempting to eliminate 
recreational fishing in the Dry Tortugas National Park, 
restricting public access to historic sites at Curtiss Island, 
Georgia, and eliminate all vehicular traffic from the Grand 
Canyon by replacing it with a very costly transportation 
network, which may prove to be too expensive for visitors to 
pay.
    Finally, although it may not fit exactly in this hearing, 
it is a typical example of this attitude, exhibited by many 
Federal agencies. On April 5, a group of 50 high school 
students, winners of a national VFW contest on patriotism, 
while touring the Jefferson Memorial, when they spontaneously 
broke into singing the National Anthem, instead of waiting, a 
Park Service ranger took it upon herself to run out and tell 
them to shut down the singing immediately because they were 
violating regulations.
    Now, I can understand enforcement of rules, but I do 
believe this is going just a wee bit too far.
    In fact, I understand there were 10 Members of Congress who 
wanted to go over to the Jefferson Memorial and sing the 
National Anthem.
    [Laughter.]
    I would have gone with them if I could carry a tune.
    [Laughter.]
    But Mr. Hefley could have led that.
    [Laughter.]
    All of this clearly shows that the Federal Government has 
been moving to restrict activities and otherwise limit public 
access to our national parks and other public lands, especially 
under the Clinton administration.
    Customary use, such as snowmobiles, personal watercraft, 
hiking, boating, climbing, along with normal vehicular travel, 
have been restricted, as users sought to enjoy our public land, 
just like everybody else.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                               Resources

    Good morning everyone and welcome to the oversight hearing. We have 
many witnesses testifying today so my opening remarks will be brief.
    The hearing will focus on recreational activities and access to our 
public lands. Since coming to Congress, it has became very evident that 
Federal land management agencies have been engaged in the systematic 
closure and restriction of a number of customary uses by people wanting 
to enjoy our public lands. This became especially clear during the 
Clinton Administration as agencies under his watch, in concert with a 
variety of environmental groups, attempted to prohibit various types of 
uses and access to our national parks along with other Federal lands 
through rulemaking, policy interpretations, and management plan 
implementation. Although the agencies have premised these prohibitions 
and restrictions on the need for added resource protections, analysis 
of each situation indicates that the science simply does not support 
such draconian measures. In effect, these agencies have needlessly 
closed access and banned traditional uses to the very people who they 
should be accommodating - the American public. Without question, 
unnecessarily restricting and prohibiting access to the public by the 
Federal Government is the wrong direction to move in and certainly does 
not serve the public's right to enjoy these lands and uses.
    Here are just a few examples illustrating how Federal land 
management agencies are extending their hand not to help, but to shove 
people off and out of public lands:
          On April 27, 2000 then Interior Assistant Secretary for Fish, 
        Wildlife, and Parks, Don Barry, announced out-of-the-blue a 
        complete ban on snowmobiling in all national parks. He did so 
        without the benefit of any rulemaking process, public comment, 
        or peer-reviewed science.
          One month earlier, on March 21, 2000 the National Park 
        Service published a final rule prohibiting all personal 
        watercraft or PWCs in all the park units. Although this rule 
        provided a two-year grace period to form special regulations 
        allowing for continued PWC use, five park units, including Cape 
        Lookout National Seashore, decided to ban PWC use with just a 
        year gone by and with very little specific science to support 
        the prohibition.
          On January 12, 2001, the Clinton Administration signed a 
        Record of Decision which effectively created almost 60 million 
        acres of highly restrictive wilderness areas, purposely 
        bypassing any Congressional designation. We know this as the 
        Forest Service Roadless Area Initiative which was premised 
        under the notion that these areas needed protecting. However, 
        President Clinton never did explain what he was protecting 
        these forest lands from. Clearly, this was just another way to 
        keep people out and prohibit uses of Forest Service land.
          Last year I became aware of a situation whereby the Park 
        Service denied backcountry trail access to a Boy Scout Troop 
        for no apparent reason at one of our premiere parks. I find it 
        hard to believe that our park system has stooped to this new 
        low by refusing to let the Boy Scouts, a highly respected and 
        good institution into a national park because there were a few 
        too many Boy Scouts.
          Currently, the Park Service is attempting to eliminate 
        recreational fishing in the Dry Tortugas National Park, 
        restrict public access to historic sites at Cumberland Island, 
        Georgia, and eliminate all vehicular traffic from the Grand 
        Canyon by replacing it with a very costly transportation 
        network which may prove to be too expensive for visitors to 
        pay.
          Finally, although it may not fit exactly into this hearing it 
        is a typical example of the attitude exhibited by many of the 
        Federal agencies when dealing with the public they are there to 
        serve. On April 5th a group of 50 high-school students, winners 
        of a national VFW contest on patriotism, were touring the 
        Jefferson Memorial when they spontaneously broke out singing 
        the National Anthem. Instead of waiting, a park service ranger 
        took upon herself to run out and tell all of them to shut down 
        the singing immediately because they were violating 
        regulations! Now, I can understand enforcement of rules, but I 
        do believe that this is going just a little too far.
    All of this clearly shows that the Federal Government has been 
moving to restrict activities and otherwise limit public access to our 
national parks and other public lands, especially under the Clinton 
Administration. Customary uses such as snowmobiles, personal water 
craft, hiking, boating, climbing along with normal vehicular travel 
have been restricted as users have sought to enjoy our public lands, 
just like everybody else.
    I want to thank all the many witnesses for coming today, especially 
those who had long distances to travel and I look forward to their 
testimony.
                                 ______
                                 
    The Chairman. I want to thank all the witnesses who are 
here today, especially those who had to travel long distances 
for your testimony. Let me point out to all of you who testify, 
we have a long list of witnesses, a number of panels. And we 
hate to restrict you, but you were probably told if you could 
stay within the 5 minutes, we would really appreciate it.
    You will see in front of you something there, and it will 
say talk, and then it will say sum up, and then it says you 
better stop or somebody is going to gavel you down.
    [Laughter.]
    With that in mind, if you have to go over 20 or 30 seconds 
because you just have to say that, I won't say anything. Go 
much longer than that, we may have a wee bit of a problem. I do 
appreciate all of you being here.
    We now turn to the gentleman from Colorado, Mr. Hefley.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you, Mr. Chairman.
    Good morning to our witnesses, and we welcome you to 
Washington. And I look forward to your testimony on how this 
Committee might bring balance and common sense back to managing 
our public lands.
    As the Chairman pointed out, it is very clear, just from 
those examples, that the former administration, along with its 
extreme environmental allies, decided early on to restrict our 
nation's premier park system and vast public lands from--guess 
who? The recreating public.
    Instead of welcoming millions of Americans the freedom to 
explore these wonderful places through hiking, biking, camping, 
horseback riding, by snowmobile, or their own car, these 
beautiful and singularly American places of enjoyment and 
recreation have become more synonymous with unjustified 
limitations and restrictions.
    Frankly, to many Americans, more and more of our public 
lands are displaying a ``keep out'' sign rather than a welcome 
mat at the gate. This is ironic because in their 2001 
management policies guide, the National Park Service states, 
``National parks belong to all Americans, and all Americans 
should feel welcome to experience the parks.''
    While I appreciate the difficulty our Federal land managers 
face in balancing the need to preserve and protect these 
natural resources while promoting their enjoyment, simply 
shutting the gate on millions of law-abiding Americans without 
just cause or, more importantly, their input, is simply un-
American.
    At some point during the last 8 years, Federal land 
managers decided unilaterally and behind closed doors with the 
environmental community that they, rather than publicly elected 
officials in Congress or the public at large, knew what was 
best for our Federal lands.
    For many, the ultimate goal of these restrictive policies 
is to designate all public lands as wilderness, which begs the 
question: Who will be able to enjoy these public lands?
    Now, I love wilderness. I love getting on a horse and 
packing back into the high country where there aren't any 
mechanized vehicles. And I can do that, and I think that is 
wonderful. A lot of Americans can't do that and can't enjoy the 
wilderness.
    Let us not forget, these public lands belong to 270 million 
Americans. All Americans, specifically all users of our public 
lands, should participate in the development of each general 
management plan in the National Park Service or how the 
resources managed by the Bureau of Land Management, the Fish 
and Wildlife Service and the Forest Service should be used.
    I want to thank all the witnesses for coming today, and 
especially those who came a long distance, who traveled. And we 
do look forward to your testimony.
    And please don't assume because there are not very many 
Committee members here today that that indicates a lack of 
interest. There are a lot of other demands going on today, and 
we will have others in. But this is a subject that we are very, 
very interested in, and we seek your help in helping us to 
bring balance.
    Our two charges are to protect the resource and also to 
provide the opportunity for public enjoyment of the resource. 
So help us bring balance to that.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. McInnis follows:]

  Statement of the Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    Recreation is the fastest growing use on the National Forests and 
Grasslands today. Americans cherish these lands for many reasons 
ranging from relaxation to experiencing life in the great outdoors, 
firsthand. Recreation is the most important issue on the forests in my 
district and any decisions impacting them have far reaching effects on 
all the communities in western Colorado.
    The previous Administration gave lip service to recreation, but at 
every decision reduced recreational opportunities. Now is the time to 
give recreation the attention it deserves in the form of adequate 
funding and community involvement.
    The Subcommittee on Forests and Forest Health has held hearings 
before on recreation management. I look forward to working with all the 
various user groups, the Agency, and the Administration to evaluate 
alternative land use designations and options that impact recreation on 
the forests.
                                 ______
                                 
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                         from the State of Utah

    Thank you, Mr. Chairman, for holding this hearing. I was very 
pleased with the addition of Recreation to the name of the National 
Parks and Public Lands Subcommittee. It brings into focus one of the 
most important aspects of our responsibility over public lands 
management.
    When I speak to the people in my home state of Utah, they routinely 
talk of their love for the land. They tell of a traditional family trip 
into the BLM lands of Utah, or a new canyon they have discovered on 
their yearly trip to Lake Powell.
    Unfortunately, they also tell me of restrictions that they have 
encountered when trying to return to that favorite place.
    On Lake Powell, they worry that they won't be able to continue to 
use their personal watercraft to explore the narrow canyons. They worry 
that their aging parents will have to hike to the traditional Memorial 
Day picnic spot on the desert. They worry that they won't be able to 
show their children the beauty of Yellowstone National Park on a winter 
snowmobile trip.
    Mr. Chairman, there are always competing interests on our public 
lands. When weighing these interests, we must ensure that recreation is 
not the interest that gets lost. Access to our public lands is part of 
what makes them such an important piece of our heritage. Those of us 
who love our public lands want to make sure that we can continue to 
visit them with our children and grandchildren.
    I look forward to hearing the testimony of our witnesses today and 
hope that it will give this committee the information we need to make 
informed decisions about access to our public lands.
                                 ______
                                 
    [The prepared statement of Mr. Gilman follows:]

  Statement of The Honorable Benjamin A. Gilman, a Representative in 
                  Congress from the State of New York

    Permit me to take this opportunity to thank my friends and 
colleagues, Chairman Hansen and Ranking Member Rahall, for affording me 
the opportunity to provide testimony to the House Committee on 
Resources concerning Galeville Airfield in New York.
    Located in and around my district are the Wallkill River and 
Shawangunk Grasslands National Wildlife Refuges. Established in 1990 by 
Congress, the refuges are located in Sussex County, New Jersey and 
Orange County, New York. In the spring, fall, and winter, the Wallkill 
River floods extensively, offering broad flood plains of forested 
wetlands and wet meadows. Oak-covered limestone ridges parallel the 
river, sometimes coming right to the river's edge. Wetlands and forests 
yield to open farmlands and grasslands at the higher elevations.
    The region supports a diverse number of species, including 19 
species listed by New Jersey as threatened or endangered. These include 
the American bittern, barred owl, bobolink, Cooper's hawk, grasshopper 
sparrow, great blue heron, northern harrier, savannah sparrow, sedge 
wren, short-eared owl, upland sandpiper, vesper sparrow, and wood 
turtle. The bog turtle, proposed for listing as a threatened species 
under the Endangered Species Act, is found on the refuge. Black bear 
and bobcat also occur. A major grassland and wetland complex, habitat 
is provided for black ducks, wood ducks, green-winged teal and for 
shorebirds, songbirds and raptors. Waterfowl and shorebirds are common 
during migration, as are neotropical songbirds. Many species of 
songbirds also nest on the refuge, including chestnut-sided warblers 
and scarlet tanagers
    Mr. Chairman, overall, this area offers the citizens of our region 
a beautiful area to hike, hunt, and appreciate. However, within the 
Shawangunk Refuge Area, there is a site called ``Galeville,'' which has 
become the center of an ongoing debate between my constituents and the 
United States Fish and Wildlife Service.
    Galeville is a section of land, which was constructed as an 
alternative airstrip for Stewart International Airport during World War 
II. Due to its unique qualities, for over thirty years, members of the 
East Coast Free Flight Conference and aeromodelers from throughout the 
East Coast have enjoyed the use of Galeville for both practice and 
competitions. During that time, they maintained an excellent 
relationship with both the Town of Shawangunk officials and the 
community at large. Their use has always been largely recreational and 
they have always exercised extreme reverence with regard to the 
surrounding wildlife which have continued to flourish during their long 
utilization of the facility. However, in 1996, upon transfer of the 
site from the West Point Military Academy to the U.S. Fish and Wildlife 
Service (USFWS), the aeromodelers were prohibited from using the site.
    In an effort to remedy this situation, I communicated on numerous 
occasions with representatives of the USFWS. However, conversations 
with Fish and Wildlife personnel regarding the aeromodeler's continued 
use of Galeville for their competitions have been unsuccessful. There 
has been an unwillingness on the part of the USFWS to entertain any of 
the propositions put forth by both myself and members of the East Coast 
Free Flight Conference, who have tirelessly worked toward a compromise 
since being barred from use of the facility.
    In a meeting in my office on May 14, 1999, Mr. Daniel Ashe, 
Assistant Director of the Fish & Wildlife Service and Ms. Elizabeth 
Herland, Refuge Manager, Wallkill River National Wildlife Refuge, 
stated that compliance with the Service's mandate to preserve wildlife 
and maintain a ``wildlife first'' preserve in lands that fall under the 
jurisdiction of the Service is the basis for their refusal to allow the 
aeromodelers to continue to fly at Galeville. They contend that they 
are merely following their mandate, as stated in the National Wildlife 
System Improvement Act of 1997 (P.L. 105-57), which will not allow 
model airplane flying refuge because it is neither a ``priority wild-
life dependent public use,'' nor is it compatible with the mission of 
the Refuge System.
    However, in reviewing the legislation and discussing this situation 
with staff on the Fisheries Conservation, Wildlife and Oceans 
Subcommittee, I have been informed that ``wild-life dependent public 
use'' was supposed to be considered a priority activity, while other 
uses, such as rock climbing or aeromodeling, were not to be prohibited. 
However, the USFWS is misinterpreting the National Wildlife Refuge 
System Improvement Act of 1997 and refuses to find a cooperate solution 
to this situation.
    Additionally, when I inquired about the interest of the Town of 
Shawangunk in establishing a recreational facility on the airport 
grounds, Mr. Ashe and Ms. Herland stated that they are assisting the 
Town to find alternate sites for their facility. They added that if no 
alternate site is found, the facility would then be located at the 
airport on a separate section of land that would not fall under the 
auspices of the Service. When I inquired as to whether or not this same 
courtesy was extended to the aeromodelers, I was told it was not.
    Mr. Chairman, the members of the East Coast Free Flight Conference 
have taken exceptional steps to find an alternative site, address every 
concern and acquire public support.
    They made numerous efforts to purchase, lease or rent space to 
continue modeling competition activities in the Northeast. These 
efforts have fallen short of the criteria necessary for their hobby 
because either the size of the land was insufficient, was not flat 
enough, was only available in non-growing seasons or neighboring 
landowners would not allow overflights.
    The aeromodelers also contracted a private entity to study the site 
and prepare a site survey report. In this report, Northeast 
Environmental Management Systems, with special attention to the 
wildlife habitat and plant community, found, ``Continued use of the 
site for free-flight activities would pose no significant negative 
impacts to the flora and fauna of the site,'' and, ``impacts from the 
East Coast Free Flight Conference members is not likely to impact 
sensitive species.''
    Furthermore, the East Coast Free Flight Conference worked with 
local officials to acquire public support and organized a letter 
writing campaign. In the Refuge's Fall 1999 Planning Update, under the 
section entitled Planning Workbook Responses, Shawangunk citizens 
supported allowing model airplanes a few hours per week and, on 
November 19, 1999, the Town of Shawangunk unanimously passed a 
resolution in support of model airplane flying at Galeville.
    Although I understand the concerns and the ``wild-life first'' 
mission of the USFWS, I am sympathetic to the plight of the 
aeromodelers. I believe that in our effort to fight for the 
preservation of open space and endangered species, we have cast away 
those individuals who have worked diligently for many years to care for 
this land, its wildlife and use it for a simple and harmless activity. 
The Galeville site has an international and historical value to 
aeromodelers throughout the East Coast. Their efforts to work within 
the system should be rewarded with our utmost consideration, attention 
and assistance.
    I am supportive of efforts to preserve open space, wildlife 
habitat, and environmentally sensitive areas throughout our nation and 
believe that it is important to look at public use on a case by case 
basis. Moreover, I believe that we must weigh the impact of public 
activities, the need for those activities, and the availability of 
space for the enjoyment of non-destructive activities when considering 
whether or not public access should be allowed in areas that were 
designated for the purpose of protecting habitat. Galeville is one case 
where USFWS failed to take these circumstances into consideration.
    I would like to once again thank Chairman Hansen and Ranking Member 
Rahall for affording me the opportunity to participate today, and hope 
that the Members on the Committee will take this unfortunate and 
incredulous situation into consideration as they review our policies 
towards public use on our nation's lands.
                                 ______
                                 
    The Chairman. I thank the gentleman.
    Our first panel is Courtland Nelson, Director of Utah State 
Parks and Recreation; Alan T. Hill, testifying on behalf of the 
American Horse Council; Walter ``Bud'' Pidgeon, President of 
the Wildlife Legislative Fund of America; Russell L. Ehnes, 
Americans for Responsible Recreation Access; and Sarah Michael, 
President of the Winter Wildlands Alliance.
    We will start with you, Mr. Nelson. You know the rules, and 
we appreciate you being here. And the time is yours, sir.

 STATEMENT OF COURTLAND NELSON, DIRECTOR, UTAH STATE PARKS AND 
                           RECREATION

    Mr. Nelson. Thank you, Mr. Chairman, Members. I appreciate 
the opportunity to speak to you today.
    We are fortunate in the intermountain West and Utah to have 
an abundance of public lands that provides outstanding 
recreational and scenic opportunities. But to take advantage of 
the opportunities, citizens must have access to these lands.
    This is just not an issue for Utah. Thousands and thousands 
of visitors from all parts of the world come to the 
intermountain west to experience our world-class landscapes.
    On behalf of the Utah Department of Natural Resources, 
thank you for the opportunity to submit comments on the theme 
of public recreation and access to the Federal lands.
    I would want to state, Mr. Chairman, we have a long history 
of working with Federal agencies, local communities, and others 
for the development of motorized and nonmotorized trail 
opportunities, recreational facilities, as well as partnering 
on our lakes, reservoirs, and waterways.
    Mr. Chairman, our work over the last decade has been 
primarily with multiple-use agencies of the Forest Service and 
BLM, and I will concentrate my comments on that today, and, to 
a lesser degree, specific park units of the National Park 
Service and U.S. Fish and Wildlife Service.
    It is important to underscore our positive and healthy 
relationship with a variety of Federal representatives. These 
land managers have applied for both motorized and nonmotorized 
trails grants as well as boating grants in our state and in 
Arizona, where I was previously.
    They have worked with us on education endeavors, both on 
the ground and in the classroom, to further ensure safe 
recreation. For Utah citizens, we have developed land 
management plans and feel very, very positive about that 
aspect.
    However, for the U.S. Forest Service, I would have some 
comments about, particularly, the roadless inventory and 
closure that has been discussed previously.
    This would have a significant impact on opportunities for 
the recreating public. The prohibition against new construction 
or reconstruction of roads will eliminate that which we will 
need for future demand for outdoor recreation.
    This will create additional pressures to expand or develop 
these kinds of sites on remaining lands, including those of 
state parks and other recreation providers. It is not known 
whether there are lands within the inventoried roadless areas 
that are suitable for this kind or recreational use, but we 
assume there are.
    In any case, total acreage affected would likely be very 
small compared to the total roadless inventory. It would not 
significantly detract from the purposes of the initiatives. 
These lands could play a vital role in meeting this future 
need. Eliminating this seems short-sighted.
    There are almost 34 million acres of national forests in 
the lower 48 States designated as wilderness, wilderness study 
area, wild and scenic rivers, and national monuments. There are 
an additional 8.3 million acres in Alaska for a total of 42 
million acres.
    Both building and reconstruction are prohibited in the vast 
majority of these acres. If we add the 54 million of 
inventoried roadless, the total is 96 million acres or nearly 
one-half of the Forest Service land.
    There seems to be an inappropriate prohibition of lands 
allocated for dispersed recreation, most of which will 
ultimately be nonmotorized. This is a significant change for a 
system of national forests originally reserved for the public 
domain to produce timber and water, a change under the 
multiple-use concept.
    For the Bureau of Land Management, as I mentioned 
previously, we have a long, successful partnership with the BLM 
in Utah and in Arizona. We currently manage or co-manage 
several park sites around the State of Utah.
    Some of these areas have involved complex management due to 
the presence of endangered species, rangeland management 
issues, and the development of recreational facilities on BLM 
property staffed and managed by Utah State Parks. We have, I 
believe, successfully worked through these various projects to 
the satisfaction of a majority of Utahans.
    Currently, we are working the BLM office in St. George and 
the Washington County Conservancy District for the creation of 
a new state park facility that we believe will emphasize this 
partnership for motorized and nonmotorized trail users, as well 
as creating camping and boating opportunities.
    The key to this effort is the opportunity for dispersed 
recreation on BLM lands.
    I would be very concerned if there were any future 
decisions that would allow significant restrictions without 
specific management or scientific rationale. For decades, these 
lands have been available to the recreating public.
    And as you are all well aware, in the St. George-Las Vegas 
area, there is a tremendous increase in population. And these 
folks will need a place for their recreation.
    Our future partnership to a degree hinges on the 
availability of recreational opportunities on this land. At the 
root of many of those conflicts are issues involving 
restrictions to lands that have traditionally been open for 
reasonable use and access.
    There is a carrying capacity issue here that is endemic in 
much of my comments about the Forest Service and BLM, and I 
think that has to do with closure in one area, which means 
overuse in other areas, as opposed to the general, broad, 
dispersed use.
    The future. I am very concerned about the impacts in the 
intermountain west from the increase in population. I think we 
have four of the five fastest growing states in the country.
    These people are moving to our area of the country for a 
variety of reasons. But for most of them, it is a chance to 
enjoy the natural resources which we have. My experience has 
been that reasonable rules and regulations and reasonable fees 
are not a deterrent to access to public lands. The key is 
``reasonable,'' and the key is also that we work together for 
the settlement and resolving of certain issues.
    I do believe that it would be a benefit, particularly in 
Utah, Mr. Chairman, if the wilderness issue on BLM lands could 
be settled. Then we can put in the appropriate administrative 
rules that benefit a majority of Utahans and our visitors.
    For the future, as I mentioned, the population growth and 
the impacts of tourism are tremendous. I would encourage all of 
our partners to work together on local and regional resource 
plans so that we can create the management scheme that will 
benefit the most.
    We all agree that certain areas should be wilderness and be 
managed under very restrictive access methods. We all agree 
that other areas are open and available for dispersed 
recreation.
    The tough task is to make the decision with regard to broad 
closures of large tracks of Federal land, which may benefit 
that area for some by keeping citizens out, at least from some 
perspectives. But it may have the net effect of greatly 
concentrating other users in areas that will no doubt have much 
more significant resources impacts.
    I would also add to that that the sale of recreational 
toys, recreational products, is increasing dramatically all 
over the West, and we must prepare for the future impact of 
that.
    Finally, I have some comments that are in my document, 
which you all have, regarding NEPA issues.
    I would just finally conclude, Mr. Chairman, by saying that 
like a congressional district, I have to represent rural and 
urban needs, I have to represent different age groups, I have 
to represent different individuals who have different 
backgrounds and values.
    As I have said at home in our legislative session, I serve 
the chronically mentally healthy, and it is a difficult task at 
best to try and provide the best service. I would hope to work 
with the Federal land agencies and the local partners in the 
private sector to improve the recreational estate in Utah and 
the intermountain west.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Nelson follows:]

     Statement of Courtland Nelson, Director, Utah State Parks and 
                               Recreation

    We are fortunate in Utah to have an abundance of public lands that 
provide outstanding recreational opportunities. From rivers, to 
redrock, to desert, to high elevation mountains; we have it all. But, 
to take advantage of these opportunities, we must have access to these 
lands. This is not just an issue for the citizens of Utah. Thousands of 
visitors from all parts of the world come here to see and experience 
our world-class landscapes.
    On behalf of the Utah Department of Natural Resources, thank you 
for the opportunity to submit comments on the themes of public 
recreation and associated public access to the Federal lands. We have a 
long history of working with the Federal agencies, and local 
communities in the development of motorized and non-motorized 
recreation opportunities, as well as partnering on our nation's lakes, 
reservoirs and waterways for safe boating. Over the years, we have been 
very pleased with many accomplishments in our cooperative efforts with 
the Bureau of Land Management, the U.S. Forest Service, the U.S. Fish 
and Wildlife Service and the National Park Service. Mr. Chairman, our 
work over the last decade has been primarily with the multiple use 
agencies (BLM and Forest Service) and to a lesser degree, specific park 
units of the National Park Service. It is important to underscore our 
positive and healthy relationship with a variety of Federal 
representatives. These land managers have applied for both motorized 
and non-motorized grants as part of our statewide programs. They have 
worked with us on education endeavors, both on the ground and in the 
classroom, to further ensure the safe recreation for Utah citizens. We 
have been very pleased with our improved regional planning as it 
relates to the opportunities that are in place for the trail users and 
the visitors to State Parks in Utah.
    I have been involved in Utah and Arizona for twenty years with 
program management and other joint activities with the Federal agencies 
and feel as though there are many positive accomplishments over the 
years. I assume, however, that much of the interest in today's meeting 
focuses on some aspects of Federal land management that are not working 
as well for the recreating public and those interested in resource 
conservation and protection.
U.S. Forest Service
    Recent Forest Service actions have created quite a stir here in 
Washington, D.C. and on the ground. For instance, the proposed roadless 
inventory and closure for the Forest Service would have a significant 
effect on opportunities for the recreating public. The prohibition 
against new construction or reconstruction of roads will eliminate the 
use of these lands to meet future demand for developed site recreation 
such as camping and picnicking. This will create additional pressures 
to expand or develop these kind of sites on the remaining lands of all 
ownership including State Parks. It is not known whether there are 
lands within the inventoried roadless area suitable for this use, but 
if there are, the total acreage affected would probably be very small 
in comparison to the total area of roadless inventory and would not 
significantly detract from the purpose of the initiative. These lands 
could play a vital role in meeting this future need. Eliminating this 
possibility seems short-sided.
    There are already almost 34,000,000 acres of National Forest in the 
lower 48 states designated as Wilderness, Wilderness Study Areas, Wild 
and Scenic Rivers and National Monuments. There are an additional 
8,353,000 acres in Alaska for a total of 42,000,000 plus acres. Both 
building and reconstruction are prohibited on the vast majority of 
these acres. If we add the 54,000,000 acres of inventoried roadless 
acres, the total is 96,000,000 acres or nearly one-half of all National 
Forest land. This seems to be an inappropriate prohibition of lands 
allocated for dispersed recreation, most of which will ultimately be 
non-motorized. This is a significant change for a system of National 
Forest originally reserved from the public domain to produce timber and 
water and later changed to manage under multiple use concept.
    The effects of future road building do not significantly impact the 
total acreage. The Draft Environmental Impact Statement states ``that 
under the no action alternative there will be approximately 300 miles 
of new roads built in the inventoried roadless areas over the next five 
years.'' If we assume that each mile would affect 5,000 acres this 
would mean 25,000 acres would be affected during this period. This is 
less than one percent of the 54,000,000 acres inventoried. The 
maintenance costs for these new roads also seems insignificant. If they 
build 60 miles per year and the maintenance costs were $1,500 per mile, 
the total cost would be $90,000. This is less than two-tenths of one 
percent of the total annual Forest Service's road maintenance budget of 
$656,000,000.
    There is an assumption built into this analysis that all roads are 
bad, based on some problems caused by the current road system. Many of 
the old roads built during the last 50 years do not cause resource 
problems as measured by today's standards. However, with today's 
science and stringent requirements of NEPA it is doubtful that any such 
road would be built in the future. Therefore, the projected impacts of 
new road construction are exaggerated.
    The number of grant applications from Forest Service Districts in 
Utah for our motorized and non-motorized matching grants have leveled 
off or declined (in the case of motorized grants) due in part to 
district confusion regarding Forest Service support and commitment to 
trail programs for their users. The attached data suggests that both 
the Forest Service and BLM are the major providers of trail-based 
recreation in Utah. The demand continues to rise while construction and 
maintenance are lagging behind.
Bureau of Land Management
    As I mentioned previously, we have a long and successful 
partnership with the Bureau of Land Management in Utah. We currently 
manage or co-manage several park sites and recreation facilities around 
the state of Utah in a very successful manner. Some of these areas 
involve complex management due to the presence of endangered species, 
range land management issues and the development of recreation 
facilities on BLM properties staffed and managed by State Parks. We 
have, I believe, successfully worked through these various projects to 
the satisfaction of a majority of Utahns. Currently we are working with 
the Bureau of Land Management office in St. George and the Washington 
County Water Conservancy District for the creation of a new state park 
facility that will meet both motorized and non-motorized trail user 
needs, as well as create a boating and camping opportunity on a large 
reservoir. The key to this effort is the opportunity for dispersed 
recreation on the BLM lands. I would be very concerned if there were 
any future decisions that would allow any significant restrictions 
without specific scientific rationale as this partnership is put 
together. For decades these lands have been available to the recreating 
public. With the recent creation of the Habitat Conservation Plan for 
the Desert Tortoise in this region, there is less Federal property 
available for motorized and non-motorized trail activities. Our future 
partnership, to a degree, hinges on the availability of recreation 
opportunities on those lands. Any additional restrictions spill over 
into other properties regardless of their ownership. My field rangers 
are constantly asked to resolve disputes between public land owners and 
recreation users. At the root of many of those conflicts are issues 
involving restrictions to lands that have traditionally been opened for 
reasonable use and access.
    We find, for instance, in managing boating facilities that often 
have closures or restrictions, while having a benefit for one specific 
lake or reservoir, make situations worst in adjacent bodies of water. 
There is considerable data from social science research that would 
indicate that closures merely increase environmental degradation in 
other areas and do little to improve overall habitat protection or 
recreational opportunity.
    Congress should settle the Wilderness issue for BLM lands 
administered in Utah. Failure to act is creating an enormous and ever 
growing burden on local administrators as they work to preserve the 
wilderness character of millions of acres of land while trying to meet 
ever increasing user demands. This is an untenable position which must 
be resolved at the earliest possible date. The American public would be 
much better served if the resources used to cope with this problem were 
available to provide goods and services from their public lands.
The Future
    There is little that most of us at the local level can do to affect 
the work of Congress and the Administration in making laws and policies 
that will determine the broad land use allocation questions. However, 
within the state of Utah, government agencies at all levels are 
developing structured and harmonious working relationships that will 
enable them to cope with the existing situation and to meet the needs 
of the public when the broad land use issues are settled. We know each 
other. We trust each other. We are committed to working together 
despite our various missions and circumstances.
    As an example, over the past decade the use of off-highway vehicles 
on public lands has become an issue of crisis proportions. While 
recognized as a legitimate use of public lands, all of the land 
managing agencies were becoming overwhelmed with the scope and 
dimension of this use. As a result a group of agency heads called the 
Natural Resources Coordination Council decided to take this on as an 
interagency project. A Memorandum of Understanding was signed and a 
steering team was formed. Subteams were organized and chartered and the 
work began. The goal was to bring to bear the collective resources of 
all the participating agencies to protect natural resources while at 
the same time providing and preserving the outstanding off-highway 
vehicle recreation riding opportunities in the state.
    Some of the results of this interagency effort have been the 
development of a communications campaign, the identification of high 
use areas, organization of local interagency teams to deal with the 
highest priority areas, organization of interagency law enforcement 
teams, development of uniform trail signing standards and much more. 
While all of these results have been significant achievements, the 
greatest achievement has been the working relationships established 
that will facilitate the resolution of future issues.
    In addition, a tremendous partnership is taking root between the 
user groups and the agencies. There is full recognition that no 
recreation program on public lands can be successful without the 
participation and commitment of those most directly affected by it. 
Where agencies are finding it difficult to deal with on-the-ground 
problems, the organized users are stepping in and doing their part. 
They realize the importance of their contributions to the long-term 
viability of their recreation pursuits.
    It would be our hope that reasonable decisions could be made about 
the future closures and access restrictions. Let me be more specific. 
In the cases of Utah and Nevada, you are all aware that we are having 
tremendous population increases. People moving to this part of the 
country reasonably expect to have ample opportunities to use their 
public lands. We all agree that certain areas should be wilderness and 
be managed under very restrictive access methods. We all agree that 
other areas are open and available for dispersed recreation 
opportunities. The tough task is to make the decisions with regards to 
broad closures of large tracks of Federal land which may benefit that 
area by keeping citizens out at least from some perspectives, but it 
may have the net effect of greatly concentrating other users in areas 
that will no doubt have much more significant resource impacts.
    As you have seen in both personal watercraft situations and 
snowmobiling at Yellowstone, industries have been built upon the 
opportunity to access Federal lands and waters. The trend line in Utah, 
and I believe most western states, is continuing to go up dramatically 
for the sale of motorized vehicles and mountain bikes. I do not see, 
from my personal experience and observation, any change in this trend 
line. All one has to do in Salt Lake City is go to an OHV shop or bike 
shop on a Saturday morning from January to March to observe the 
dramatic interest in purchasing these types of vehicles. Exactly the 
same situation exists for mountain bikes and other four-wheel drives or 
other mechanical methods of travel. Whether it is a result of a 
sustained good economy, a land mass that awaits recreational use or 
other factors, there are going to be tremendous expectations for 
reasonable opportunities to access Federal lands. We in Utah would hope 
to be a helpful part of that solution in reaching decisions that we can 
live with.
    Land management planning, travel planning and project planning on 
public lands is increasingly complex and expensive with uncertain 
outcomes. Law, regulations and case law born out of litigation has 
created a process that is almost impossible to complete without some 
flaw. As a result, when some faction does not agree with the decision 
reached, appeals and lawsuits can postpone many projects indefinitely. 
This can occur even when most would agree that the process was fair, 
reasoned and within the agencies discretionary prerogatives. The cost 
of pursuing these cases to a conclusion is staggering. Most agency 
local units will not take on more than a few projects in a year which 
require a NEPA process because they do not have the resources to do so. 
This sometimes includes even the smallest projects. In some cases the 
result of this quagmire is that they cannot complete the necessary 
planning and project approvals in a timely manner to take advantage of 
state and other grant opportunities which significantly increase on-
the-ground accomplishments. Planning process management is the primary 
activity of many agencies, not land management. To those of us outside 
these agencies, it seems unfortunate that so much of an agencies 
resources must be used to complete even the smallest of projects when 
they could be used to do so much for the users of the public lands. 
Securing access for many recreation uses is certainly in this category. 
Perhaps it is time for Congress to review the impacts of the laws which 
have far outgrown any outcome envisioned by those who first enacted 
them.
    Thank you for the opportunity to participate in this important 
dialogue. I hope my comments have been helpful.
                                 ______
                                 
    The Chairman. I thank the gentleman for his comments.
    Let me point out that all of your entire statements will be 
in the record. If you want to summarize, speak off the cuff, 
that is up to you.
    Mr. Hill, we turn to you, sir.

       STATEMENT OF ALAN T. HILL, AMERICAN HORSE COUNCIL

    Mr. Hill. Thank you, Mr. Chairman. Thank you for the 
opportunity to offer testimony on behalf of the recreation 
committee of the American Horse Council.
    According to the Barents study, the equine industry 
involves 2.9 million horses, 4.3 million participants, has a 
total economic impact in the U.S. of $23.8 billion, and 
supports 317,000 full-time jobs.
    We would like to discuss with you today perhaps what should 
be introduced as a broad overview of the state and condition of 
public access and associated recreation issues from the 
perspective of the recreational stock user.
    The use of recreational stock on Federal lands is a vitally 
important issue to the entire equestrian community and is a 
rapidly growing segment of the recreating public.
    First, it is important to take note of the enormous and 
significant contributions made by volunteer equestrian 
organizations, who spend a tremendous number of hours and hard-
dollar contributions each year. A few examples I have listed 
include providing educational programs, written documents, 
pamphlets and brochures to inform and educate the public on the 
wise and sustainable use of public lands, and providing 
volunteer service.
    For example, my organization, Backcountry Horsemen of 
America, is a volunteer service organization that has 
contributed over 600,000 man hours and livestock equipment 
valued in excess of $10 million from the years 1995 to 2000. 
This volunteer service contribution should supplement not 
supplant the Federal budget for these matters.
    We believe that responsible public land management should 
be based on good scientific studies with blind peer review.
    To this end, the equestrian community has encouraged, 
participated in, and assisted in funding scientific studies 
which demonstrate, for example, that our recreational riding 
horses are NOT a significant source of cryptosporidium, 
giardia, salmonella or pathogenic E. coli on our public lands 
or watersheds.
    We have formed partnerships with various partners to 
maximize and leverage our contributions and labor and hard-
dollar commitments.
    Through these and many other programs, we have contributed 
many ways to support our passion to retain the historic and 
traditional rights for pack and saddle stock use of public 
lands.
    We have become alarmed as we have witnessed during the last 
decade the continued decline and condition of our trail 
systems. We have also noted a pervasive trend throughout the 
country of increasing restrictions directed specifically at 
recreation pack and saddle stock use on the Federal lands, 
including the wilderness areas, national forests, national 
parks, national monuments, backcountry, and front country.
    During this same period, we have observed a shift in 
emphasis of the Federal agencies from one of managing our 
natural resources and wilderness system for the multiple 
purposes originally intended by Congress to the singular 
objective of restoring and sustaining pristine ecological 
conditions.
    Consequently, we have identified three major concerns that 
desperately need attention if we are to restore a proper 
balance between preservation, access, enjoyment, and use of our 
resources by the recreation user.
    Access: National policy needs to reaffirm that recreation 
and historic uses, such as equestrian uses, be recognized as an 
appropriate and acceptable use on Federal lands and that the 
management of our public lands is for the use and the enjoyment 
of the American people.
    It has been our experience that special designations--such 
as monuments, wilderness, roadless--seldom if ever expands 
recreational opportunities for horsemen. In practice, the 
designations often result in a loss of access and recreation 
opportunities.
    Funding: In spite of the public support for a strong 
recreation agenda advocated by Congress, the previous 
administration, and Federal land management agencies, the level 
of funding for annual trail maintenance and reconstruction has 
been abysmally low. Even though congressional appropriations 
have showed a slight increase over the last few years, almost 
without exception, these dollars do not get to the ground.
    Trail systems built over the last 100 years with taxpayer 
dollars have been left to deteriorate, been abandoned or simply 
left off of the trail system maps, often at the sole discretion 
of an overworked seasonal trail worker.
    We have provided as an attachment to written testimony an 
example of a documented case of a forest in northern California 
that shows that the forest supervisor budgeted in fiscal year 
2000 $1.091 million for ``wilderness and recreation.'' By the 
time the forest supervisor deducted ``$369,000 for cost 
pools,'' ``$169,000 for the supervisor's office,'' ``recreation 
staff $500,000 for the five districts,'' a minimal $49,200 was 
left for total trail budget for the maintenance of 1,000 miles 
of trails encompassing two wilderness areas and five ranger 
districts on one of the most remote, high-altitude areas in 
northern California and southern Oregon that is subject to 
heavy annual storm damage.
    That is less than $5 per mile, and is an unconscionable 
amount of money for that effort.
    Accountability. Accountability from the Federal land 
managers must be demanded by Congress and public if issues of 
access, funding, and management policy are to be implemented in 
accordance with the law of the land.
    Specific examples can be offered where the intent of 
Congress had to be reaffirmed by the courts before 
implementation and consistency with the law could exist.
    One example occurred when the intent was affirmed in 1998 
court case, Wilderness Watch v. Dale Robertson, that resulted 
in the conclusion that directed the Forest Service to 
administer the wilderness with an eye not only toward strict 
conservation but also to assure the use and enjoyment of the 
American people. It states the resource will be devoted ``to 
the public purposes of recreational, scenic, educational, 
conservation, and historical use.''
    The emphasis of land managers to place a higher emphasis on 
restoring pristine conditions are the result of a misguided 
preservation purity bias. The purity doctrine was addressed by 
Congress during the 1970's in two important pieces of 
legislation, one of which was the Endangered American 
Wilderness bill, Report 95-540, July 27, 1977, that 
specifically directed the managing agencies to abandon the 
purity approach.
    Congress clearly expected the wilderness would accommodate 
a wide spectrum of Americans who desire wilderness-type 
recreational experiences of a nature that were established at 
the time the law was passed. The intent of Congress, emphasized 
throughout the Congressional Record, was to preserve existing 
conditions while providing for existing and future uses.
    Nowhere does the Wilderness Act require restoring 
wilderness to a condition more pristine than that which existed 
prior to designation.
    As a result of the unwillingness of the Federal agencies to 
use the flexibilities authorized by Congress, we are seeing a 
decline in the extent of the trail systems. House Report 95-540 
directed the agencies to ``maximize efforts to construct, 
maintain, and improve trail systems in wilderness areas, to 
facilitate access and recreational use.''
    I would also point out that the report also instructed the 
agency in its maintenance and construction efforts to include 
the use of mechanical equipment where appropriate or necessary, 
and under the minimal-tool analysis concept, to consider 
prudent use of mechanical equipment as has been advocated to 
accomplish and manage the wilderness in accordance with section 
4(b) of the Wilderness Act until tremendous backlog of 
wilderness trail maintenance and reconstruction is eliminated.
    I want to thank you for this opportunity to respond to your 
request for this testimony on this subject that we feel so 
passionately about.
    Thank you.
    [The prepared statement of Mr. Hill follows:]

   Statement of Alan T. Hill on behalf of the American Horse Council

INTRODUCTION
    I appreciate the opportunity to present this testimony on behalf of 
the American Horse Council (AHC). My name is Alan T. Hill. I am Public 
Liaison Chair of the Backcountry Horsemen of America and a member of 
the AHC's Recreation Committee. We appreciate the Committee conducting 
this important oversight hearing on recreational access to public 
lands. We hope that by identifying what we believe are existing 
problems regarding access and discussing the proper balance between the 
preservation of natural resources and the enjoyment of these resources 
by recreational horseback riders, our testimony will help the Committee 
as it examines the broad national themes of public recreation and 
access to Federal lands.
    The AHC represents 190 equine organizations in Washington, DC 
before Congress and the Federal regulatory agencies. These 
organizations include breed registries, national and state breeders 
associations, state horse councils, recreational associations, 
organizations representing race tracks, horsemen, horse shows, 
veterinarians, rodeos and numerous other equine related stakeholders. 
These organizations include several hundred thousand individual horse 
owners of all breeds and disciplines and industry service providers 
involved in virtually every facet of the horse world.
    We appreciate this opportunity to give you a broad overview of the 
condition of public access and associated recreation issues from the 
perspective of the recreational rider and stock user. The use of horses 
and recreational stock on Federal lands is a rapidly growing segment of 
the recreating public and is a vitally important issue to the entire 
equestrian industry.

ECONOMIC IMPACT OF THE HORSE INDUSTRY
    According to the study of The Economic Impact of the Horse Industry 
in the United States done by Barents Group, LLC, the U.S. horse 
industry, including recreation, showing, racing and other segments, 
involves more than 7 million participants and includes nearly 2 million 
horse owners. The median income of horse-owning families is around 
$60,000 with 38% of households earning under $50,000 and 21% over 
$100,000.
    The industry as a whole has an annual impact on the U.S. economy of 
$112 billion and supports 1.4 million full-time jobs with approximately 
$1.9 million paid in taxes at each level. Thousands of breeding and 
training farms breed, train and care for the horses that provide the 
foundation upon which the industry is built. In many cases, these 
facilities provide open envelopes of ``green space'' in otherwise 
heavily-urbanized areas.

Economic Impact of the Equine Recreation Industry
    The largest and fastest growing segment of the horse industry in 
terms of participation by Americans is the recreational segment. 
According to the Barents Study, the equine recreation industry involves 
2.9 million horses, 4.3 million participants, has a total economic 
impact in the U.S. of $23.8 billion and supports 317,000 full-time 
jobs. This important part of the horse industry provides a great 
recreational, sporting, competitive and healthy experience to 
additional millions of Americans, young and old.
    The positive economic impact of recreational trail riding is 
present in all fifty states. For example, in California it involves 
278,000 horses, has a $2.8 billion economic effect and supports 23,000 
full-time jobs; in Colorado it involves 57,000 horses, has a $500 
million economic effect and supports 5,200 full-time jobs; in Florida 
it involves 109,700 horses, has a $6 million economic effect and 
supports 5,300 full-time jobs; in Maryland it involves 47,200 horses, 
has a $242 million economic effect and supports 2,300 full-time jobs; 
and in Texas it involves 180,000 horses, has a $995 million economic 
effect and supports 14,000 full-time jobs.
    Many individuals ride and compete horses when they are young and 
millions continue this form of recreation as they mature into 
adulthood. We expect, however, that as the so-called ``baby boomers'' 
approach and enter retirement or semi-retirement more will find 
themselves in good shape physically and financially and be ready to 
return to one of the sports in which they can participate late into 
life--Riding! While this re-entry into the riding community will 
increase the economic impact of the recreational riding industry, it 
will also put an even greater burden on our nation's trails and 
recreational resources.

GENERAL CONCERNS
    The recreational riding community recognizes its responsibilities 
to treat our nation's public lands with respect. Recreational riders 
have a deep commitment to outdoor recreation and believe that 
recreation is a legitimate use of our country's public lands. Whether 
we are owners, breeders, trail riders, competitive riders, stock 
companies, or service providers we recognize that we have a vital 
interest in the responsible use and wise management of our natural 
resources. Our organizational and individual members recognize that we 
must protect our historical heritage and traditions and that not all 
forms of outdoor recreation are suitable for all sites.
    The recreational riding community is very concerned about the 
recent direction of our nation's approach to recreation and a number of 
policy initiatives that seem to intend to deny public access to 
millions of acres of public land. We are concerned that if this 
direction is not changed, it will prevent Americans from participating 
in recreational activities, including horseback riding, in areas that 
have long sustained such activities. Some such initiatives include the 
U.S. Forest Service rulemaking on the expansion of ``roadless'' areas; 
the designation of millions of acres of land as ``national monuments;'' 
and the seeming absence of a national Federal policy on recreation and 
public lands that is considered at the state and local level. In fact, 
it often seems as if the riding public is excluded when decisions are 
made on access.
    We have become alarmed as we have witnessed during the last decade 
the continued decline in the condition and extent of our trail systems 
and a pervasive trend throughout the country of increasing restrictions 
directed specifically at recreation, pack and saddle stock use on our 
Federal lands including wilderness areas, national forests, national 
parks, national monuments, backcountry and front country. During this 
same period, we have observed a shift in emphasis of the Federal 
agencies from one of managing our national wilderness preservation 
system for the multiple purposes intended by Congress, i.e. 
recreational, scenic, scientific, educational, conservation and 
historical use, to the singular objective of restoring and sustaining 
pristine ecological conditions.
    Consequently we have identified several major concerns that 
desperately need attention if we are to restore a proper balance 
between preservation and access, enjoyment and use of our resources by 
the recreational user.
    We would like to focus our comments on the importance of access for 
riders to Federal lands, the need for additional funding that is 
actually used on trails maintenance, the need for a national recreation 
policy, the necessity of a partnership between riders and the Federal 
agencies to build and maintain trails and the importance of good 
science in making any decisions in this area.

ACCESS
    Perhaps the most important issue facing the recreational segment of 
the horse industry is access to public lands, both Federal and state. 
While the industry is losing its access to public lands, urban areas 
encroach on open green space. In fact, Horse and Rider magazine polled 
its readers in late 1999 regarding their ``top problem or concern'' and 
loss of riding trails was the number one concern, ranked first by 42% 
of those who responded.
    National policy needs to reaffirm that recreational and historical 
uses--such as equestrian uses--be recognized as an appropriate and 
acceptable use on Federal lands such as wilderness areas, national 
forests, parks and monuments, and that management of our public lands 
is for the use and enjoyment of the American people. It has been our 
experience that special designations, i.e., monuments, wilderness, 
roadless areas, seldom if ever expands recreational opportunities for 
horsemen. In practice these designations often result in a loss of 
access and recreational opportunities.
    Restrictions and prohibitions imposed on recreational equine use 
and incidental grazing, should be the exception rather than the rule 
and be determined by site-specific analysis based on use, land 
characteristics and science. It should not be subjective or based on 
the social preferences of other users.
    The ability of the Forest Service or any other Federal land agency 
to unilaterally close a trail or trail head with no notice or public 
process must be stopped. De facto restrictions on access or the 
limitation through onerous regulations must be eliminated. For example, 
the ``number of heart beats'' test on a trail at any one time in a 
national monument is unsound policy. A grandfather could not take his 
extended family on a trail ride because the number of people in the 
family would exceed the heart beat rule. Such de facto restrictions 
must be reconsidered.

FUNDING
    Federal funding for the construction, repair and maintenance of 
trails is obviously an important element to the recreational horse 
industry and trail riders. The horse industry is very concerned about 
the level of funding for the National Park Service trail systems in 
National Parks and the U.S. Forest Service trails programs for trails 
maintenance and reconstruction. The Forest Service is the largest 
recreation provider in the U.S. and is responsible for more than 
133,000 miles of trails in some of the most scenic and yet rough 
country in the Nation. This increasing responsibility of the Forest 
Service for recreation has not, however, been supported with an 
accompanying increase in trail maintenance and reconstruction funding.
    The horse industry was actively involved in passing the Symms 
National Recreational Trails Trust Fund Act in 1991 and continues to be 
involved in supporting its funding. Our industry worked with Congress 
and other trails groups to ensure the continued Federal funding of the 
Recreational Trails Program of $50 million from 2000 through 2003.
    These funds are divided among states and each state provides funds 
to individual organizations for trail development and maintenance. Once 
appropriated by the Federal Government it is important for state 
organizations to be involved in the allocation process so horseback 
riders get their fair share.
    To assist Congress in the appropriations process the AHC and other 
trails groups developed a database of projects funded by the 
Recreational Trails Program. This database demonstrates the scope and 
importance of the Recreational Trails Program and should be reviewed by 
this Committee and others to ensure that funding for trails programs 
continues. Such funds to build and maintain trails will be critical to 
recreational riders in the future.
    In spite of the public support for a strong recreation agenda 
advocated by Congress, the previous administration and the Federal land 
management agencies, the level of funding for annual trail maintenance 
and reconstruction has been lower than what is needed. Although 
Congressional appropriations have showed a slight increase over the 
last few years, it must be increased to keep pace with the increase in 
the costs of maintaining trails. We hope that Congress will increase 
Federal funding to build and maintain trails.
    Moreover, even the wishes of Congress as expressed by its 
appropriating funds for building and maintaining trails is sometimes 
thwarted by the bureaucratic process. In too many cases the funds 
appropriated do not get to the trails! Trail systems built over the 
last 150 years with taxpayers' dollars have been left to deteriorate, 
been abandoned, or simply left off trail system maps--often at the sole 
discretion of an overworked seasonal trail worker.
    For example, a documented case on a forest in Northern California 
is all too typical of many areas of our country. The brief details are 
as follows. The Klamath NF Forest Supervisor budgeted in fiscal year 
2000, $1.1 million for ``Wilderness and Recreation.'' By the time the 
forest supervisor deducted $369,100 for ``Cost Pools, $168,600 for 
Supervisor's Office Recreation Starr, and $504,100 for the 5 
Districts,'' $49,200 was left for the total trail budget for 
maintenance of 1000 miles of trails encompassing two wilderness areas 
and five ranger districts in one of the most remote, high altitude 
areas of Northern California and Southern Oregon that is subject to 
heavy annual storm damage. Less than $5 per mile!
    Sometimes it appears that much of the money earmarked for trail 
maintenance is going for environmental studies to determine if the 
trail should be saved! That money would be better spent on the trail.

NATIONAL RECREATION POLICY AND ACCOUNTABILITY
    Congress and the Federal agencies must have one national recreation 
policy. Congress must express the will of the people and the Federal 
agencies must carry out the will of Congress pursuant to the Federal 
laws. We believe that too often we have seen Federal land managers 
ignore or misinterpret Congress' intent. Accountability from the 
Federal land managers must be demanded by Congress and the public if 
issues of access, funding and management policies are to be implemented 
in accordance with the law of the land.
    Consistent with Forest Service's new emphasis to establish 
ecosystem sustainability as its first priority--an emphasis that we 
believe is derived without the benefit of Congressional sanction--many 
wilderness managers are interpreting the primary intent of wilderness 
designation as that of restoring wilderness to a pre-European 
settlement or pre-Colombian condition. We fear that this agenda is, and 
will be, accomplished at the expense of traditional and historical uses 
that were established as acceptable when the law was passed.
    We are seeing a pervasive trend throughout much of the West, for 
example, of increasing restrictions directed specifically at 
recreational opportunities permitted in the Wilderness Act.
    Moreover, even if horses are allowed in wilderness areas, the 
``roadless initiative'' has caused a problem because it has closed 
trail heads and areas that can allow the vanning in of horses to such 
areas. Fully 50% of people who own horses transport them off-property 
to another area for enjoyment. This requires horse vans and trucks to 
pull trailers. If such vans cannot get to trail heads, then horses are 
de facto prevented entry to roadless areas.
    We support Congress' intent as expressed in the Wilderness Act ``to 
secure for the American people the benefits of an enduring resource of 
wilderness'' (Section 2(a) of P.L. 88-577) which will be ``devoted to 
the public purposes of recreational, scenic, scientific, educational, 
conservation, and historical use.'' (Section 4(b) of P.L. 88-577)
    This intent of Congress was affirmed in the 1998 court case of 
Wilderness Watch v. Dale Robertson, Civ. No. 92-740, August 31, 1998. 
In this decision the District Court for the District of Columbia 
concluded that the statute directs the Forest Service to administer the 
wilderness with an eye not only toward strict conservation, but also to 
``ensure the use and enjoyment of the American people.
    The efforts of land managers to place a higher emphasis on 
restoring pristine conditions are the result of a misguided 
preservation/purity bias. The purity doctrine was addressed by Congress 
during the 1970's in two important pieces of legislation. One was the 
endangered American Wilderness Bill (Report 95-540, July 27, 1977) that 
specifically directed the managing agencies to abandon the purity 
approach. Congress clearly expected that wilderness would accommodate a 
wide spectrum of Americans who desired wilderness-type recreation 
experiences of a nature that were established at the time the law was 
passed. The intent of Congress (emphasized throughout the Congressional 
Record) was to preserve existing conditions while providing for 
existing and future uses. Nowhere does the Wilderness Act require 
restoring wilderness to a condition more pristine than that which 
existed prior to designation.
    As a result of the unwillingness of the Federal agencies to use the 
flexibility authorized by Congress, we are seeing a decline in the 
extent of the trail systems. House Report 95-540 directed the agencies 
to ``maximize efforts to construct, maintain and improve trails systems 
in wilderness areas so as to facilitate access and recreational use, as 
well as to increase opportunities for a high quality wilderness 
experience for the visiting public.'' The report also instructed the 
agency in its maintenance and construction efforts to ``include the use 
of mechanical equipment where appropriate and/or necessary.'' We have 
urged the use of the minimum tool analysis concept to consider the 
prudent use of mechanical equipment to accomplish the wilderness 
purposes in SEC. 4(b) of the Wilderness Act until the tremendous 
backlog of wilderness trail maintenance and reconstruction is 
eliminated.

GOOD SCIENCE
    We believe that responsible public land use and management should 
be based on good scientific studies with blind peer review. As with all 
users of recreational trails and lands, concerns have been raised 
regarding the impact of horses on trails and the environment. We 
recognize that we must be involved in answering these concerns. To this 
end the equestrian community has encouraged and assisted in funding 
scientific studies which demonstrate the effect of horses on the 
environment.
    In some cases these concerns have been unfounded. For example, 
several years ago concerns were raised regarding whether our 
recreational riding horses were a significant source of cryptosporidium 
parvum or giardia being introduced into public land watersheds. 
Although these assumptions were made without sufficient scientific 
information, they resulted in restrictions being placed on equestrian 
use on one California watershed.
    Studies were performed at the Center for Equine Health at 
University of California Davis to determine if recreational pack and 
saddle stock were a significant source of cryptosporidium and giardia. 
At the conclusion of these studies, the answer was a resounding ``No!''
    The horse industry believes that decisions to restrict the use of 
horses on any Federal, or state, lands for environmental concerns 
should only be made after full scientific review by competent 
veterinarians and scientists.

RIDERS' RESPONSIBILITIES AND THE FEDERAL GOVERNMENT
    Recreational riders, their organizations and service providers, 
recognize their responsibilities in building and maintaining trails. 
First, it is important to take note of the enormous and significant 
contributions made by volunteer equestrian organizations that spend a 
tremendous number of hours and hard dollar contributions each year in 
diverse and important activities. A few of those activities are:
    <bullet> LProviding educational programs, written documents, 
pamphlets and brochures to inform and educate horsemen and women and 
the public on the wise and sustainable use of public lands.
    <bullet> LProviding volunteer service. For example, my 
organization, the BCHA, is a volunteer service organization consisting 
of more than 14,000 members who have contributed in excess of 557,200 
man hours, $10,210,900 days of livestock use and equipment from 1995 to 
2000 clearing trails, building trailhead facilities, and packing 
supplies, tools and equipment for trail maintenance crews and similar 
projects that benefit all trail users across the country. We recognize 
that this volunteer service contribution should supplement, not 
supplant, the Federal budget.
    <bullet> LForming partnerships with various Federal and state 
partners such as Conservation Corps, Department of Fish and Game, 
Continental Divide Trails Alliance, Pacific Crest Trails and others to 
maximize contributions in kind, labor and hard dollar commitments.
    There must be more emphasis and willingness on the part of the 
Federal agencies to use our equine volunteers. There are many riders 
who want to help, but can't convince forest supervisors that we are 
serious. The problem seems to be work load. We fear that the more 
trails that deteriorate and are then closed, the less work that has to 
be done in the field.
    Through these and many other programs we contribute in many 
different ways to support our passion to retain the historic and 
traditional rights for riders, pack and saddle stock to use our Federal 
lands for recreation purposes.

CONCLUSION
    Recreational riders consider themselves both horsemen and women and 
environmentalists. We are concerned that our lands and resources are 
suffering from neglect, either by an administering agency or by an 
uninformed public. Our challenge and the challenge of all trail users, 
Congress and the responsible Federal agencies is to ensure that Federal 
lands are managed to meet all of the intents and purposes of the law, 
the people who use the land and, of course, the land itself. The new 
paradigm is about seeking common ground and understanding the needs of 
all users. We look forward to the challenge of collaborative efforts 
involving the Federal agencies and other interested stakeholders as we 
work to preserve our lands, our access and the common good.
    Thank you for this opportunity to testify on this subject that we 
feel so passionately about.
                                 ______
                                 
    The Chairman. Thank you, Mr. Hill.
    Mr. Pidgeon?

   STATEMENT OF WALTER ``BUD'' PIDGEON, PRESIDENT, WILDLIFE 
                  LEGISLATIVE FUND OF AMERICA

    Mr. Pidgeon. Thank you, Mr. Chairman.
    I, too, appreciate, the opportunity to testify before this 
Committee on behalf of the Wildlife Legislative Fund of 
America, or the WLFA.
    We have been organized since 1977 as a volunteer sportsman-
based organization to protect our American heritage to hunt, 
fish, and trap, and to support the vital role of scientific 
wildlife management. We pursue these objectives at the Federal, 
state, and local level for over 1.5 million members and our 
affiliates.
    Public land really provides us with a critical base for 
hunters and fishermen around the country. A national survey of 
fishing and hunting and wildlife-associated recreational 
activities indicate that over 4 million Americans hunted on our 
public lands last year. And of these citizens, about half of 
them, hunt on a full-time basis on public land, and it is 
critical for them to have that access.
    Hunting and fishing are important recreational activities 
occurring on public lands. All the public land masses--national 
forests, the Bureau of Land Management, national wildlife 
refuges and preserves, the national park systems--are very 
important to us.
    Each of these systems individually provide access for 
hundreds of thousands of hunters and anglers. On BLM land, for 
example, a half million hunters were on those lands this last 
year. And the National Forest Service is comparable to this.
    But it really doesn't tell the story. Those of you who hunt 
or fish know, if you want elk hunting access to forest lands in 
the West, it would have to be by other kinds of access than 
walking.
    Try to hunt the wild turkey in the Appalachians--the 
forests of Virginia and West Virginia, and you have the same 
problem. In my home State of Ohio, I hunt primarily on public 
land myself.
    Units of national park system preserves provide another 
example. And South Florida's Big Cypress Preserve is a great 
example where access issues are coming forth as we speak.
    Last year, nearly 20,000 man days of hunting were affected 
there last year. And I can't imagine, if you were a urban 
southern Florida person, how you could have any other hunting 
experience other than in that particular area.
    Within the national wild refuge system, over 500 units were 
acquired through hundreds of thousands of dollars hunters 
provided through duck stamps over the last 60 years. And half 
of the refuge system, thank goodness, are provided to hunters 
for hunting opportunities.
    Access to public land has an array of recreational 
activities that are important as well. Public health comes to 
mind, for just being out in the outdoors. There is something 
about that. Human beings have to be out there once in a while.
    Management of these areas are important but many other 
things are as well, for example, the economic base of rural 
areas depend a lot of times on hunters and fishermen coming 
into those areas.
    Unfortunately, as it was mentioned a couple of minutes ago, 
we did not have the welcome sign out over the past several 
years, due to the last administration and others.
    And it is unfortunate because hunters, in particular, have 
constantly battled for access to public lands. In 1997, the 
enactment of the National Wildlife Refuge System Improvement 
Act is a great case in point where we were able to come to 
Congress to be able to seek access, and we really do appreciate 
that.
    This particular bill, I think, adds a thought to what could 
happen for the future. It could be a model for us to use to 
create a bill to recognize public access on all public lands. 
This act obviously resulted in the agency responding positively 
to hunters being on-site.
    And lawsuits from animal rights extremists have been 
outlawed and that is really exciting news.
    I would welcome the opportunity for our organization to 
work with you, to model future legislation that would provide 
public access for hunting throughout the public lands system.
    Thank you.
    [The prepared statement of Mr. Pidgeon follows:]

 Statement of Walter ``Bud'' P. Pidgeon, Jr., President, The Wildlife 
                   Legislative Fund of America (WLFA)

    Mr. Chairman:
    I appreciate the opportunity to testify today on behalf of the 
Wildlife Legislative Fund of America (WLFA) regarding the importance of 
recreational access to public lands. WLFA was organized in 1977 to 
protect the American heritage to hunt, fish, and trap and support 
scientific wildlife management. We pursue these objectives at the 
Federal, state, and local level on behalf of over 1.5 million members 
and affiliates.
    America's public lands provide critically important fishing and 
hunting opportunities to hunters and anglers across the nation. The 
latest National Survey of Fishing, Hunting and Wildlife Associated 
Recreation indicates that over 4 million Americans hunted on our public 
lands. Over half of these citizens hunt exclusively on public lands. 
Limitations on hunting access to public lands would have catastrophic 
effects on this large segment of the sporting community.
    Hunting and fishing are important recreational activities occurring 
on public lands and access to those lands is crucial to maintaining 
hunting opportunities for millions of Americans. Four major public 
lands systems provide hunting (and fishing) opportunities: National 
Forests (192 million acres), Bureau of Land Management (264 million 
acres), National Wildlife Refuges (92 million acres) and Preserves 
within the National Park System (20 million acres).
    Each of these systems individually provide access for hundreds of 
thousands of hunters and anglers. BLM estimates over half a million 
hunted on lands under its management. Forest Service numbers are 
comparable, but barely tell the whole story. Try to imagine elk hunting 
without access to Forest lands in the west. Trying to imagine the 
pursuit of wild turkeys in the Appalachians without access to the 
Forests of Virginia and West Virginia.
    And even units of the National Park System--the Preserves--provide 
critical access for hunters. For example, in South Florida's Big 
Cypress Preserve (established as the first Preserve in 1974) there are 
nearly 20,000 man-days of hunting effort each year. In urban South 
Florida, our hunting tradition would be eliminated without Big Cypress.
    The National Wildlife Refuge System is a special case where many of 
its over 500 units were acquired with hunters' dollars. Monies raised 
annually for over 60 years from he sale of Duck Stamps. Now over half 
of the units are open to hunting providing an array of opportunities 
from duck hunting in Atlantic salt marshes to brown bear hunting on 
Alaska's Kodiak Island.
    Access to public lands for an array of recreational activities is 
critical to assuring public health, maintaining public support for land 
conservation and management, and providing a stable economic base for 
many rural communities. Unfortunately, many recreational users--
including hunters and anglers--felt less than welcome on their lands in 
recent years. The hanging out of a ``not welcome'' sign on our public 
lands was clearly contrary to our laws and Congressional intent. And it 
cut off much of the citizen support for conservation of the important 
habitats and resources on these lands.
    Hunters in particular have constantly battled for access to public 
lands and have needed Congress to assure that traditional access. The 
1997 enactment of National Wildlife Refuge System Improvement Act is a 
case in point. Facing threats to hunting, fishing and other forms of 
wildlife recreation from a disinterested Administration and hostile 
animal rights radicals, the sporting community asked Congress for help. 
It responded by legislatively designating wildlife dependent recreation 
including hunting and fishing as priority public uses of refuges. 
Congress expressly recognized the legitimacy of these traditional 
activities on refuge lands and further provided that if found to be 
compatible, these uses are to be ``facilitated'' on refuges.
    The 1997 Act may provide a model for recognizing and securing 
public access for hunting (and other recreation) on public lands. 
Express legislative recognition of these activities and a direction to 
facilitate such uses have assured hunting use of refuge units. The 
agency has responded to Congressional direction. Threats of lawsuits to 
close Refuges to hunting from animal rights extremists have been 
extinguished by the law. Passage of similar legislation for other 
public lands systems should be strongly considered. WLFA would welcome 
the opportunity to work with the Committee to fashion an appropriate 
legislative measure.
    Thank you again for the opportunity to appear today. WLFA 
appreciates the Committees consideration of the importance of 
recreation on the public lands and looks forward to working with the 
Committee to further ensure continued access to recreational 
opportunities.
                                 ______
                                 
    The Chairman. Thank you, Mr. Pidgeon.
    Mr. Ehnes?

   STATEMENT OF RUSSELL L. EHNES, AMERICANS FOR RESPONSIBLE 
                      RECREATIONAL ACCESS

    Mr. Ehnes. Thank you, Mr. Chairman. My name is Russ Ehnes, 
and I am testifying today on behalf of Americans for 
Responsible Recreational Access.
    ARRA was founded almost a year ago because of growing 
concerns that fewer and fewer opportunities were available for 
recreational activities on public lands and waterways. A series 
of steps taken by the previous administration to limit access 
to public lands caused considerable concern among our members 
and many recreational enthusiasts.
    Our members recognize the critical importance of protecting 
our environment; we also recognize that not all forms of 
outdoor recreation are suitable for all sites. We also believe 
it is the role of government and its citizens to actively 
discuss ways outdoor recreation activities can be made 
available to all citizens, regardless of age or physical well-
being.
    During the last 5 years, the Federal Government has erred 
on the side of closing access to public lands rather than 
managing access. We have called this the crisis of closure. Let 
me mention three examples.
    First, when the National Park Service announced its 
intention to ban snowmobile from national parks despite the 
fact that cleaner and quieter snowmobiles will be soon 
introduced to the marketplace.
    Second, when the Forest Service promulgated a rule changing 
the management of approximately 60 million acres of forests, 
inventoried roadless forests lands.
    Third, when President Clinton created and expanded many 
national monument areas without regard to the impact to local 
communities and recreational activities.
    Some have suggested that all of these actions were 
necessary because of the abuse on the part of a few. When 
someone breaks our traffic laws, society's response is not to 
ban all traffic on our highways. Rather, we increase 
enforcement and we prosecute lawbreakers. The same should hold 
true for activities on Federal lands and waterways.
    We know land managers have a tough job, made even tougher 
because much of what they do is challenged in the court of law. 
Increased administrative burdens and legal fees siphon off 
funds for needed work at the district level.
    We say this is not fair to these civil servants or the 
American people. Access is also being denied because of a lack 
of funds for maintenance and management.
    As our urban centers become more congested, more must be 
done to make our Federal lands accessible to all Americans. 
Making sure the money reaches the ground at the district level 
is critical, and we encourage this Committee to exercise its 
oversight to ensure this happens.
    Maintaining our parks and forests should not rest solely on 
the Federal Government. The private sector, along with 
volunteers, can also play an active role in the stewardship of 
public lands.
    Let me give this Committee an example from my own 
experience. Since 1986, the Great Falls Trail Bike Riders 
Association in Great Falls, Montana, has worked closely with 
the U.S. Forest Service in the Lewis and Clark National Forest.
    Our club has committed to maintain over 400 miles of trail 
each year. We have literally rebuilt more than 10 miles of 
trail and have cleared countless miles of trail for use by all 
recreationists.
    We have also made a 15-year commitment to hand pull a 
serious noxious weed infestation that is more than a half mile 
from the nearest trail.
    All of these things are done by volunteers.
    Hundreds of recreational clubs throughout the U.S. have 
undertaken similar activities to assist the government in 
providing stewardship of our public lands. But these clubs do 
more than just trail conservation. They sponsor and run 
educational programs to teach people to use Federal lands 
safely, respectively, and responsibly.
    We don't pretend to have all the answers to the challenges 
of managing Federal lands. From our standpoint, one thing is 
clear: Posting ``do not enter'' signs or ``keep out'' signs 
does nothing to foster civic pride or respect for the 
government.
    As I have said, our members recognize the critical 
importance of protecting our environment, and we recognize that 
not all forms of recreation are suitable for all sites. We also 
believe that the consultative process of determining what is 
and what is not appropriate must be done in an open forum, as 
is the case of this Committee hearing.
    We stand ready to do our share in terms of participating in 
these policymaking discussions. We are encouraged that the 
current administration seems intent on seeking the opinion of 
local government officials and citizens prior to promulgating 
Federal policies governing our lands.
    In terms of what we believe this Committee should and can 
do during the 107th Congress, we have these thoughts:
    First, rigorously exercise your oversight responsibility of 
the executive branch. The Federal bureaucracy needs to be 
reminded that maintaining access to Federal lands and waterways 
for recreational purposes is a national priority.
    Second, explore whether a new designation recognizing 
recreational access is worthy of congressional action, a 
concept similar to wilderness designation but less restrictive 
and more receptive to appropriate recreational access. This is 
a new century and new thinking is warranted for this area of 
public policy.
    Thank you for the opportunity to comment to the Committee.
    [The prepared statement of Mr. Ehnes follows:]

    Statement of Russ Ehnes on Behalf of Americans for Responsible 
                       Recreational Access (ARRA)

    Mr. Chairman:
    My name is Russ Ehnes, and I am testifying today on behalf of 
Americans for Responsible Recreational Access (ARRA). We appreciate 
having this opportunity to participate in this important hearing.
    ARRA was founded in June of last year because of a growing concern 
that fewer and fewer opportunities were available for recreational 
activities on public lands and waterways. ARRA is comprised of the 
following organizations: The American Horse Council, the Motorcycle 
Industry Council, the Specialty Vehicle Institute of America, the 
American Council of Snowmobile Associations, the National Marine 
Manufacturers Association, the American Motorcyclist Association, the 
Personal Watercraft Industry Association and the National Off-Highway 
Vehicle Conservation Council. In addition, a number of state and 
regional user organizations have affiliated with ARRA.
    Our members recognize the critical importance of protecting our 
environment. We also recognize that not all forms of outdoor recreation 
are suitable for all sites. We believe it should be the role of 
government and its citizens to actively discuss ways in which outdoor 
recreational activities can be made available to all citizens 
regardless of age or physical well-being.
    Unfortunately, many of the policies pursued by the Federal 
Government over the past five years served to limit opportunities for 
recreational access. ARRA members have been concerned with the general 
attitude of closing off public lands to Americans. We have called this 
the ``Crisis of Closure.'' We witnessed this when the National Park 
Service announced its intention to limit snowmobile access to many of 
our National Parks without regard to the fact that newer, cleaner and 
quieter snowmobiles are on the verge of being introduced to the 
marketplace.
    We witnessed this again when the U.S. Forest Service promulgated a 
rule that would change the management of approximately 60 million acres 
of inventoried roadless areas in our national forests without regard to 
the impact such major shifts in land use management would have on local 
economies adjacent to the affected national forests. It goes without 
saying that we were pleased when Judge Lodge issued a preliminary 
injunction temporarily halting the roadless rule because the Forest 
Service failed to abide by the consultative process as defined in the 
National Environmental Policy Act (NEPA). And, we witnessed this many 
times when President Clinton arbitrarily placed ``off limits'' millions 
of acres of Federal land to recreational activities when he established 
or expanded numerous national monument areas.
    We do not deny that there are problems associated with managing and 
using our public lands. The solution to such problems should not be, 
however, the simple response of denying access to these lands. Too 
often some interest groups push agencies to cut off access to these 
lands to only but a select few. Automatically restricting access is the 
easy way out and is too punitive to millions of law-abiding citizens 
who care about the environment.
    When someone violates a traffic law on our highways, the response 
of our law enforcement agencies and society as a whole is not to close 
the highways to all travelers. Nor should this be the response when 
careless individuals improperly use a National Forest, a National Park 
or BLM land. Rather, violators should be prosecuted to the fullest 
extent permissible under the law. And if the penalties associated with 
such violations prove to be ineffective in stemming inappropriate 
behavior, then we would support strengthening these laws and the 
penalties. I might add that a major part of our outreach program is 
dedicated to working cooperatively with the agencies to develop and 
implement effective educational programs to provide recreation 
enthusiasts with the information they need to make the right choices 
when using Federal lands.
    ARRA is sympathetic to the job that the personnel of the National 
Park Service, the Bureau of Land Management and the U.S. Forest Service 
have in managing and protecting our national treasures. We know it's a 
tough job, made even tougher because of numerous lawsuits filed on 
every little decision managers make on land use policies. 
Unfortunately, because of these lawsuits, money that should go for work 
on the ground is siphoned off to pay for increased administrative 
burdens and legal fees. This is not fair to the people charged with the 
responsibility to protect these properties and it is not fair to the 
American people. At a time when our urban areas are becoming even more 
congested, more resources must be devoted to the proper maintenance of 
these Federal properties so more Americans can use and enjoy them for 
recreational activities. While we are encouraged by the fact that the 
Bush Administration has said that it intends to devote more funds 
towards these needs, we must understand that the problems of neglect 
have existed for years. Even what has been proposed will not solve the 
problems identified until the money reaches the ground at the district 
levels.
    Having said that let me be clear that ARRA does not believe that 
the entire responsibility should fall on the shoulders of the Federal 
Government. The private sector and volunteers can also play an active 
role in concert with Federal agencies in properly maintaining and 
caring for our natural resources. Let me share with this committee just 
one example of how local citizens are working with the Federal 
Government in protecting the environment.
    Since 1986, I have been associated with the Great Falls Trail Bike 
Riders Association. Our group has worked closely with the U. S. Forest 
Service particularly in the Lewis and Clark National Forest. We have 
committed to the U. S. Forest Service that we will maintain over 400 
miles of trails in this national forest. We cut bush, clear trails of 
fallen trees, and have worked on water diversion projects. We have 
literally reconstructed more than 10 miles of trails in this national 
forest alone. And, we have been actively involved in assisting the 
Forest Service in eradicating noxious weeds. In fact, we made a 
fifteen-year commitment to hand pull a noxious weed infestation that is 
more than a 1/2 mile from the closest trail. Year after year, many 
people devote weekends to pulling noxious weeds from this area in order 
to restore the area to its natural habitat. All of these efforts are 
done entirely with volunteer labor.
    Even though we are proud of our civic contributions, it is 
important to note that what the Great Falls Trail Bike Riders 
Association is doing is not unusual. There are hundreds of similar off-
highway vehicle organizations throughout the country working to improve 
the environment on our national forests and public lands.
    However, these organizations do far more than just trail 
maintenance. These groups actively support educational programs for all 
ages of riders on the proper use of trails for both motorized and non-
motorized recreational activities. These programs teach and encourage 
people to use their Federal lands safely, respectfully and responsibly. 
These education programs are just as important as our trail maintenance 
programs because they contribute towards protecting the environment of 
our country.
    Mr. Chairman, we don't pretend to have all the answers to solving 
the challenges confronting the usage of public lands. But from ARRA's 
standpoint one thing is clear, posting DO NOT ENTER signs or KEEP OUT 
signs does not foster civic pride or respect for our government. ARRA 
members are active in fostering a better appreciation of what our 
country has to offer its citizens in terms of recreational 
opportunities and the fact that as individuals, we have an obligation 
to do our best to protect these resources for future generations to 
enjoy. ARRA has confidence that our society can do just that by 
ensuring there is a healthy and active dialogue among all interested 
parties who care about public lands.
    As I said in my opening remarks, ARRA members recognize the 
critical importance of protecting our environment. We also recognize 
that not all forms of outdoor recreation are suitable for all sites. We 
also feel just as strongly that coming to the conclusion of what is and 
what is not appropriate recreational use should be done with all 
participants active in the policymaking. We stand ready to do our 
share.
    Much has been written lately about where the new Administration 
stands on environmental issues. While I can't speak for the 
Administration, I would like to make this observation. One of our 
frustrations with the Clinton Administration's roadless rule was the 
fact that the policy seemed to be preordained and that only certain 
sectors of our society were really involved in the formation of the 
policy. I am encouraged that the Bush Administration has said that it 
intends to seek the opinions of local government officials and citizens 
prior to promulgating Federal policies that affect areas adjacent to 
these communities. We welcome the opportunity to have our views invited 
and considered. We will be less worried about the ramifications of such 
policies relative to recreational access when we know that this promise 
of participation is honored.
    Finally, let me say just a few words about what we hope this 
committee will do during the 107th Congress. First, rigorously exercise 
your oversight responsibility of those Federal agencies having 
responsibilities for the management of our Federal properties. Even 
though there is a new Administration, old habits are difficult to break 
and we believe that this committee will need to continue to remind the 
Federal bureaucracy that access to Federal lands for recreational 
purposes is of national importance. ARRA will remain vigilant on the 
access issue, but we hope this committee will as well.
    Second, there seems to be great conflict among various parties over 
the extent Federal lands should be classified as either wilderness or 
roadless. Clearly the Congress has jurisdiction over wilderness 
designation and the Administration has jurisdiction over the roadless 
designation. Perhaps a new classification of protection that falls 
somewhere between wilderness designation and multiple use designation 
and that permits recreational activities might be appropriate for 
consideration by this committee. ARRA is aware that there are several 
proposals suggesting such a new classification. We believe this issue 
merits this committee careful and thoughtful consideration.
    We thank this committee for its commitment to the interests of all 
recreational enthusiasts and its commitment in sharing this great land 
with as many of its citizens as is appropriately possible.
    Mr. Chairman, I would be pleased to respond to any questions you or 
members of your committee would like to ask. Thank you.
                                 ______
                                 
    The Chairman. Thank you, Mr. Ehnes.
    Sarah Michael, the time is yours.

    STATEMENT OF SARAH MICHAEL, PRESIDENT, WINTER WILDLANDS 
                            ALLIANCE

    Ms. Michael. Thank you. My name is Sarah Michael, and I am 
President of the Winter Wildlands Association. It is a national 
organization of cross-country skiers, snowshoers, and others 
who are dedicated to promoting and preserving winter wildlands 
and a quality nonmotorized recreation experience in winter.
    I am also an elected Blaine County commissioner from Sun 
Valley, Idaho, Mr. Otter's state. And prior to my election, I 
have been involved with the Chamber of Commerce there, so I 
know how important public land access is to winter economics 
and economies in rural resort communities.
    Winter Wildlands was formed last year. The founding members 
are state organizations from Colorado, California, Idaho, and 
Nevada. In addition, we have worked with ski groups all over 
the West and the country.
    According to the National Sporting Goods Association, there 
are an estimated 5 million human-powered recreation users. An 
estimated 225,000 people bought snowshoes in the 1999-2000 
winter. And 3 million people tried this sport last year.
    Today, I think you are going to hear from a number of 
witnesses being concerned about losing access to public land. 
We share those same concerns but for different reasons, because 
throughout snow country, cross-country skiers and snowshoers 
and others enjoying the untrampled winter wilderness are 
finding that their favorite places are being dominated by 
snowmobiles and motorized access.
    And the changes occurred over just the last 5 years where 
the technology improvements and then increased use have enabled 
the snow machines to go just about anywhere on public lands. 
And with more and more users competing for the same terrain, 
there is definitely an issue of conflicts as well safety 
issues. When you have people that are going at walking pace and 
snowmobiles going very fast, there is definitely some issues of 
safety.
    There is also another issue where development on private 
lands have transformed popular backcountry ski areas into ski 
lift commercial cross-country ski resorts or snowmobile areas.
    Now, we are not saying that we are against snowmobiles or 
that snowmobiles do not have a right on public lands or that we 
are against ski resort development. But we have created an 
organization because we were concerned about that we are losing 
our recreation on public lands, and we needed to organize to 
preserve the sport that we love.
    Fortunately, we think there are some common-sense solutions 
to solving winter recreation conflicts. We are seeing those 
throughout the West.
    One is to create separate use areas. That has been tried 
and had positive results in places like Vail and Rabbit Ear 
Passes in Colorado, Teton Pass in Wyoming. Sun Valley, through 
collaboration, developed a separate-use plan so that both 
groups could have a wonderful opportunity to recreate.
    But unfortunately, there has been no consistent leadership, 
and I think you will hear that today, as far as public land 
managers dealing with those conflicts.
    I think, obviously, one reason is that public land managers 
are not social scientists; they are foresters or biologists. 
Having to deal with user conflicts is not generally within 
their job description.
    But I think you as a policy Committee are going to be 
hearing more from recreational groups saying we need to 
separate uses so that both groups can have a quality 
experience.
    We feel that there is also a need to have more monitoring 
and an evaluation of all increased recreation use in the winter 
on the resource and wintering wildlife. We agree that we have 
impacts on wintering wildlife. And I think the public land 
managers should move in that direction, to monitor and make 
sure that they are not impacted.
    We feel that balancing the needs of different recreation on 
public lands is essential to the development of rural resort 
economies. Experience in winter tourism shows that to be 
competitive, winter resorts such as Sun Valley and elsewhere 
need to offer a variety of recreational activities. So we hope 
that there will be more public policy that will look at the 
needs of the nonmotorized winter recreational community as well 
as the motorized to ensure that everyone has an opportunity to 
enjoy public lands.
    So I appreciate the opportunity to speak today, and I look 
forward to hearing any questions.
    [The prepared statement of Ms. Michael follows:]

    Statement of Sarah Michael, President, Winter Wildlands Alliance

    My name is Sarah Michael. I am here today as President and Co-
founder of Winter Wildlands Alliance, a national organization of cross-
country skiers, snowshoers and others who are dedicated to promoting 
and preserving winter wildlands and a quality human-powered winter 
sports experience on public lands.
    I am also an elected Blaine County Commissioner, home of world 
famous Sun Valley, Idaho ski resort. Before my election, I worked as 
manager of the Sun Valley Chamber of Commerce, and more recently, 
served on its Board of Directors. With this background, I am very 
familiar with the economics of winter recreation and the important 
contribution of public lands to rural resort communities. In Sun 
Valley, access to public lands is essential to our county's economic 
vitality.
    In addition, I have had extensive experience in the regulatory and 
legislative arena. In the 1970's, I served on the staff of California 
State Legislature, in the early 1980's I managed Energy Programs for 
the California Energy Commission, and subsequently joined the private 
sector as a lobbyist for clients such as IBM, American Express, Hughes 
Aircraft and Bechtel Corporation. This background provides an excellent 
basis for understanding public policy, Federal legislation and 
regulations.
Background on Winter Wildlands Alliance
    Winter Wildlands was formed in the winter of 2000. The founding 
members of our group are state organizations from Colorado, California, 
Idaho and Nevada. In addition, we have worked with groups in many other 
states, including Alaska, Montana, Oregon, South Dakota, Washington, 
Wisconsin, and Wyoming. According to the National Sporting Goods 
Association, there are an estimated 5 million human powered winter 
recreation users. An estimated 225,000 snowshoes were sold in the 
winter of 1999/2000 and approximately 3 million people tried this sport 
that winter (Tubbs Snowshoe).
    I am testifying today to share the perspective of cross-country 
skiers and snowshoers regarding winter access to public lands. I will 
discuss the need for upholding current public land management policies, 
initiating policies to address increasing conflicts between winter 
recreation groups and better stewardship practices that protect natural 
resources including wintering wildlife. In addition, I will talk about 
the importance of a diversified winter recreation economy to the future 
of rural communities.
Losing Access to Public Lands
    Many of today's witnesses expressed concerns about being shut-off 
public lands or waterways. Cross-country skiers and snowshoers are also 
afraid that we will lose access to public land, but for different 
reasons. Our fear arises from two sources, but especially with the 
increasing proliferation of snowmobiles on public lands. Significant 
technology improvements coupled with lack of management have allowed 
them access to almost all Forest Service and Bureau of Land Management 
lands. Secondarily, the encroachment of private development on public 
lands can eliminate terrain or the quality recreation experience 
enjoyed historically by cross country skiers and snowshoers. This 
occurs when popular off-trail winter recreation spots become ski lifts, 
groomed private cross-country ski resorts, and/or snowmobile trails.
    Throughout snow country, cross-country skiers and snowshoers are 
finding their favorite trails or slopes becoming increasingly dominated 
by snowmobiles or in some cases, being proposed for commercial 
development. Very simply, it seems that our vast open spaces are 
experiencing too many people seeking the same areas in which to 
recreate or private interests desiring to use public land for 
commercial development.
    Don't misunderstand this statement. Winter Wildlands Alliance was 
not organized because of some abstract ethic or value that snowmobiles 
don't have a right to be on public lands or that cross-country skiers 
and snowshoers are against ski resorts or private enterprise. We 
created an organization because human powered snowsports enthusiasts 
across the country were losing a quality recreation experience, and we 
realized that we needed to organize to preserve the winter sports that 
we love. In addition, we felt that a group was needed to focus on all 
of the impacts of increased recreation use on winter wildlands, whether 
non-motorized or motorized, to ensure that the resource and wintering 
wildlife were adequately protected.
    Fortunately, there are some common sense solutions to solving 
winter recreation conflicts.
Create Separate Use Areas for Non-Motorized Snow Sports
    In areas of increasing user conflict, we propose that separate use 
areas for non-motorized and motorized winter sports be created. In 
places where this idea has been implemented, the results have been 
positive. Vail Pass and Rabbit Ear Pass in Colorado have created 
separate areas, and an odd-even year approach to snowmobiling in the 
Twentymile River valley on the Chugach National Forest in Alaska has 
worked to eliminate conflicts. In Sun Valley, Idaho, six years of 
conflict and debate ended last winter when skiers and snowmobilers 
agreed to create separate use areas and work together to see that the 
agreement was followed. While this approach worked after six long years 
of hard work, it will not work everywhere. It is incumbent upon the 
land management agencies to implement current policies and regulations. 
One strategy is a national policy on both Forest Service and BLM lands 
to designate routes as ``closed unless posted open.
    Creating separate use areas and establishing limits to the number 
of people that can access particular areas are not new concepts. For 
example, everyone accepts that there are only so many trailhead permits 
to Yosemite's backcountry or Utah's Grand Gulch issued in a day. On 
most public lands, separate recreation areas are available to hikers 
and mountain bikers who enjoy miles of non-motorized trails without 
competition from motorcycles or all terrain vehicles. For the same 
reason that local government passed zoning laws as their population 
grew, zoning of separate recreation areas is an effective tool to use 
that can enable different recreational groups to preserve and enhance 
their enjoyment of public lands.
Stronger Public Land Management Practices
    There are many reasonable resolutions that can be applied to 
resolve winter use conflicts. Yet, we have found that there is little 
willingness to apply them at the local level, and there is no 
consistent national directive or management mandate to motivate local 
public land managers towards working with conflicting recreation groups 
to develop equitable solutions.
    Current policies require public land managers to deal with resource 
and wildlife impacts and to manage off-road vehicles, including 
snowmobiles, so that ``areas and trails shall be located to minimize 
conflicts between off-road vehicle use and other existing or proposed 
recreation uses of the same or neighboring public lands''. (36 Code of 
Federal Regulations, Section 295.2). One of the reasons that these 
regulations are not being followed is that conflict resolution is 
perceived as the role of the social scientist, not a forester. It will 
be this role, however, that public land managers will be forced to take 
on a regular basis. Congress can help by adopting policies that will 
direct land managers to deal with these conflicts and to increase 
Congressional appropriations to fund conflict resolution programs. This 
would go a long way towards achieving more collaboration and solutions 
at the local level.
    With increasing numbers of users demanding the same terrain, new 
leadership and Federal policies that direct public land managers to 
provide a quality recreation experience for all users are required. 
Surveys confirm that outdoor recreation enthusiasts want non-motorized 
trails and backcountry outside of wilderness. This is particularly true 
in the winter because most wilderness areas are beyond the reach of 
most cross country skiers and snowshoers.
    In 1999, the Colorado State Parks Trails Program conducted a 
statewide poll that showed that the public believes that motorized and 
non-motorized activities on our public lands are incompatible. In a 
1995 survey of visitors to Yellowstone and Grand Teton National Parks, 
noise, pollution and the number of snowmobiles were frequently cited as 
what they least liked about their experience. (University of Idaho 
Cooperative Park Studies Unit, Project Reports 74&75) In 1994, the 
Montana Trail Users study found that non-motorized recreationists 
(hikers, backpackers, horseback riders, mountain bikers) rated 
motorized trail use high on the incompatibility scale. However, the 
majority of off-road motorcyclists, ATV riders and snowmobilers were 
less likely to rate non-motorized activities as incompatible. (McCool 
and Harris, 1994) Until there are more non-motorized opportunities for 
cross-country skiers and snowshoers, Federal land managers will not be 
providing a quality recreation experience for this group of winter 
recreationists.
Monitor and Minimize Impacts on Wintering Wildlife and the Resource
    All Federal land management agencies need to begin enforcing the 
policies and regulations that are already in place for protecting 
wildlife and other natural resources. Under 43 CFR 8341.2, the BLM is 
directed to close areas to OHV use when the agency determines that such 
use is causing or will cause ``considerable adverse effects upon soil, 
vegetation, wildlife, wildlife habitat, cultural resources, historical 
resources, threatened or endangered species, wilderness suitability, 
other authorized uses, or other resources.'' The Forest Service is 
guided by similar regulations and the National Park Service is guided 
by an even higher mandate to protect natural resources.
    Wintering wildlife is particularly vulnerable to disturbance from 
all recreationists. Winter Wildlands believes that there are some areas 
that should be closed to everyone in the winter and we support 
management decisions to achieve this. What we do not support, however, 
is inconsistency in wildlife protection decisions. The most glaring 
example is the proposed rule that limits winter access to public lands 
in order to protect the Canadian Lynx. Compacted snow from ski tracks 
or groomed trails apparently put the Lynx at a disadvantage with its 
predator competitors so that the permitting of new backcountry 
overnight ski huts and new groomed ski trails may be discouraged by 
Federal land managers. At the same, there is no discussion about 
unrestricted access to the same areas by snowmobile users who, in a 
matter of minutes, can create multiple trails and many miles of 
compacted trails. If the Lynx is threatened and compacted snow is an 
issue, then we believe that access should be limited to both groups.
    There are other impacts caused by snowmobiles. According to a 1991 
Environmental Protection Agency study, the antiquated two-stroke engine 
found in snowmobiles dump about 30 percent of their fuel, unburned, 
into the land. Noise and air pollution from these machines can dominate 
the peaceful winter landscape as anyone who has been to Old Faithful in 
Yellowstone can attest. Regulations are also need to require at least 
one foot of snow cover on the ground or hillside before an area is open 
to snowmobile use. Permanent scarring of the landscape occurs without 
adequate snow. In order to measure, manage and mitigate these impacts, 
Federal land management agencies require additional funds and direction 
to make this a priority.

Diverse Winter Recreation Opportunities Create a Vital Rural Resort 
        Economy
    Now I would like to address the importance to rural areas of having 
a diverse winter recreation economy to attract visitors. Experience in 
winter tourism shows that in order to be competitive, winter resorts 
need to offer a wide spectrum of recreational opportunities. Sun 
Valley, Idaho, for example, no longer relies solely on our downhill ski 
mountain to attract winter visitors. Visitors want variety. Regardless 
of downhill skiing conditions, our local economy is vibrant because of 
opportunities to cross country ski, snowshoe, ice skate, take 
snowmobile tours, helicopter ski, overnight at backcountry ski huts, to 
try dog sledding or to simply enjoy the peace and quiet of winter 
wildlands. All of these recreational opportunities are needed to 
compete and sustain a resort economy.
    I make this point because statements have been made about the 
economic impact of the proposed ban on snowmobiles in Yellowstone. 
According to the Park's Final Winter Use DEIS, only 4% to 5% of the 
annual visitation to Yellowstone National Parks occurs in the winter 
season (December through March) and the direct expenditures represent 
only .5% of the total economic output of the Greater Yellowstone Area 
(DEIS, Ch. 3, page 89). With over four hundred miles of groomed 
snowmobile trails on National Forest land near West Yellowstone as 
compared to 200 miles in the Park, snowmobiling will continue to play a 
part in West Yellowstone's economy. The ban on snowmobiles will, 
however, create a more diverse, sustainable economy for West 
Yellowstone and attract new winter visitors, once it is not dominated 
by one recreation that prevents others from experiencing Yellowstone 
with its natural quiet, clean air, and pristine beauty. These qualities 
are expected in our National Parks and this is reflected in editorials 
across the country supporting this ban.
    Improved recreational opportunities for cross country skiers, 
snowshoers and other human powered winter recreationists will add to 
creating sustainable rural economies throughout snow country. 
Development of new snowmobile facilities and private development in 
mountain areas can negatively impact or eliminate opportunities to 
enjoy cross-country skiing or snowshoeing. Federal land managers should 
be directed to follow their multiple use mandates and provide places on 
public lands where people can continue to find untracked snow, silence 
and solitude. Balancing commercial recreational development with 
preserving winter wildlands will ensure long-term competitiveness and 
the economic health of rural resort communities.

Education and Collaboration
    Winter Wildlands Alliance is working hard to get our message to 
public land managers. For the past two winters, we have participated in 
the Forest Service's national meeting of winter sports specialists from 
around the country to discuss tools that they can use to reduce 
conflicts between motorized and non-motorized recreation groups. Many 
resource managers state that their number one winter recreation problem 
is the increasing friction between motorized and non-motorized sport 
enthusiasts and they welcomed learning about what is working elsewhere 
to reduce this conflict.
    We meet with snowmobile clubs and ski clubs to help resolve 
conflicts through mediation and collaboration. We meet regularly with 
the Forest Service and BLM managers to educate them about the need for 
better management of public lands in winter, the need for separate use 
areas, and how it can be a win-win situation if all parties work 
together and decide how to create separate zones.
Conclusion
    Without more proactive Federal land management to resolve winter 
user conflicts, protect wildlands and wildlife, a new group of 
activists will be visiting your offices each year: for example, myself, 
a retired corporate lobbyist and county official; a math professor from 
Reno fighting to save 4 square miles of meadows above Lake Tahoe; a 
retired engineer who has worked hard with volunteer members of his ski 
club to create a cross country ski and snowshoe trail system that is 
now being threatened by the desire of a ski resort developer to 
establish a commercial snowmobile concession on the same small 6 square 
mile patch of ground.
    Improving management, protecting natural resources, and developing 
strategies to deal with user conflicts are approaches that Federal land 
management agencies must adopt in order to vastly improve every 
visitors recreation experience on public lands.
    We appreciate the opportunity to be here today and talk about our 
concerns about access to public lands.
                                 ______
                                 
    The Chairman. I thank you for your testimony. I thank all 
of the panel for their excellent testimony.
    If you will submit to questions, we will ask our members to 
please stay within their time limit, which is 5 minutes.
    The gentleman from Colorado, the Chairman of the 
Subcommittee of Public Lands, Recreation, and Parks, Mr. 
Hefley.
    Mr. Hefley. Thank you, Mr. Chairman. I will try to be 
brief, because we do have a lot of work today.
    First to Mr. Nelson. Mr. Nelson, is there anything in Utah 
that anyone would want to come and see?
    [Laughter.]
    Pardon me, Mr. Chairman.
    Mr. Nelson, you don't have to answer that.
    [Laughter.]
    Yes, he wants to know.
    Regarding the Forest Service proposed roadless rule, you 
noted that it would result in over half of the forest lands 
being placed under highly restrictive management. As one who 
deals with these lands on a daily basis, as well as with the 
Federal personnel responsible for these lands, what are the 
environmental ramifications associated with placing such harsh 
restrictions on so many lands?
    Mr. Nelson. Mr. Chairman, Representative, my next trip to 
Moab, I will make sure and tell all those Coloradans that you 
were interested in having them remain home in Colorado and 
recreating, and that we are really not that pretty a place.
    [Laughter.]
    Mr. Hefley. Spend their dollars in Colorado instead of 
Utah.
    Mr. Nelson. To that issue, Representative, my 
recommendation would be an evolution of certain components of 
the NEPA process that tend to drag out and lengthen what are 
relatively simple decisions at other levels of government that 
at the Federal level of government seem to take months and 
years for the simplest of resolution.
    Also, I believe that we are going to need to work with the 
Federal agencies to find a way to put more field staff on the 
ground, whether it is for the analysis aspects of science, 
whether it is maintenance issues, or enforcement, or education, 
which may be the most important component of all.
    It is very typical in the Western United States, as you 
know, sir, to have an extremely small staff responsible for an 
extremely large area. And some of us are able to pick up that 
lack of staff in various ways, but I don't think it is uniform. 
And I see it as a very critical problem.
    Also, the other issue that I mentioned, which I think is 
extremely important, the net effect of degradation of resources 
outside areas of closure. When you have more people 
concentrating on smaller areas, you are going to have more 
negative impacts than may be there if people were allowed to 
experience recreation and other activities on a broader area.
    And there are many social science as well as biological 
examples of that degradation, whether you are talking about 
rivers or community parks or other areas of natural resources.
    Those would probably be my three areas of emphasis.
    Mr. Hefley. You manage Utah parks and recreation. With the 
state park system and public lands system, are you able to 
balance the two charges that we have for our national parks--
and one is to protect the resource, and that is a very 
important charge; at the same time, provide for the enjoyment 
of the public. Are you able to do that on the state parks, do 
you believe?
    Mr. Nelson. Mr. Chairman, Representative, I believe we have 
done that at a very successful level. It is always a challenge. 
In the last 8 years, we have completed a number of resource 
management plans for all of our parks and are receiving 
responses from our visitors as well as our citizens.
    The net effect, I believe, of this is that we have local 
involvement, we have individuals who have a vested interest in 
the management of that facility involved in those management 
issues.
    We also are able to work better with the special interest 
groups as well as the business community to create that type of 
experience and the welcoming effect that was referred to by one 
of my fellow panelists, and feel quite successful at that.
    That is not to say we don't have, occasionally, very 
serious battles regarding transportation and some trail 
restrictions and the lack of certain amenities in certain 
areas. Like all park systems, we deal in the unmet needs versus 
the limited resources, whether its human or financial. And we 
all struggle with that.
    But as a simple answer to your question, I do believe we 
have done well at that and would be more than willing to share 
that with members of the panel and the Committee.
    Mr. Hefley. So it is not incompatible? The two aren't 
incompatible if you work at it? And it can be done at the 
Federal level as well as the state level?
    Mr. Nelson. Mr. Chairman, Representative, I think it can be 
done well at any level of government.
    Mr. Hefley. Thank you very much.
    The Chairman. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    Since I have some legislation dealing with this issue, I 
did want to make a few comments; I realize that particular 
legislation is not the specific subject today.
    As you know, the National Park Service did suggest a plan 
that would be applied to 43 parks where snowmobile uses occur. 
And under the plan, snowmobile use would be unchanged in 21 
parks, would continue on a limited basis in 10 parks, and would 
end in 12 parks.
    This discussion really goes back several decades to the 
Nixon administration, when the Administration said that 
snowmobile use would continue in the National Park Service only 
if it did not adversely affect the parks' natural aesthetic or 
scenic values.
    But it is interesting that the Park Service didn't monitor 
these effects until it was sued and required to do so. In one 
particular park, where snowmobile is particularly heavy, 
Yellowstone, there are about 80,000 snowmobile trips per 
winter, now that that Park Service is keeping information on 
this.
    These 80,000 snowmobiles, it is reported, produce more air 
pollution than the cars and trucks that bring the other 3 
million visitors each year. The snowmobiles emit somewhere 
between two-thirds and 90 percent of the motor vehicle 
hydrocarbon emissions, and between a third and two-thirds of 
the carbon monoxide emissions, and the noise of snowmobiles is 
audible 95 percent of the time during daylight hours at Old 
Faithful and during very high percentages of the time at other 
major areas in the park.
    I have just a couple of quick questions. First of all, for 
Mr. Hill, I mean, I know that horses on occasion emit some 
methane--
    [Laughter.]
    --but I was wondering whether you have some measurements of 
the sound level in decibels for a horse at 50 yards.
    [Laughter.]
    Mr. Hill. No, sir, I don't.
    Mr. Holt. Or carbon monoxide emissions?
    Mr. Hill. No, again, I don't.
    [Laughter.]
    Sorry about that.
    Mr. Holt. Mr. Ehnes, do you have any information on the 
sound level in decibels for a canoeist or a kayaker at 50 
yards?
    Mr. Ehnes. No, sir.
    Mr. Holt. Okay.
    And, Ms. Michael, for a snowshoer, do you have a sound 
level measurement of a snowshoers at 50 yards?
    Ms. Michael. No, we have never measured.
    Mr. Holt. Okay. Thank you very much.
    Ms. Michael. Unmeasurable.
    Mr. Holt. Thank you.
    The Chairman. Excuse me, gentleman, you finished your 
questions?
    Mr. Holt. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Holt. I yield back my time.
    The Chairman. The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    I would have been interested in some of those answers.
    [Laughter.]
    Mr. Nelson, because of the long-term process that we 
generally find when trying to get some use or some 
consideration for a strategy or a management plan with most of 
the Federal agencies, would the state parks national 
association, which I assume that there is such an association, 
would they be interested in providing a strategy whereby the 
state parks comes up with a management plan, comes up with a 
use plan and strategy, and submits it to the Federal Government 
agency, and says, okay, either approve or disapprove of it, 
instead of waiting on the Federal agency to provide the plan? 
Do you understand where I am going with this?
    Mr. Nelson. Mr. Chairman, Representative, could you give me 
a little more clarity on the specific question that you have?
    Mr. Otter. Well, I am abundantly familiar--I was lieutenant 
governor of Idaho for 14 years before this, and I saw a lot of 
these problems, not just with the Forest Service or BLM.
    But with most Federal agencies, when you request a permit 
to do something, generally you go through a long process where 
they have hearings and then they build a plan. My question goes 
to, wouldn't your organization be enthusiastic about a notion 
that you build the plan, you submit a plan to the Forest 
Service and say, ``Okay, this is what we want to do on this 
area. This is where we want to recreate. This is how we want to 
recreate. This is the scope of our activities. Now, you either 
accept or deny our strategy,'' rather than waiting on them to 
build a strategy?
    Mr. Nelson. Mr. Chairman, Representative, I think that is 
often the case, particularly with trails issues in the Western 
States, which I am most familiar with, and we do promulgate 
plans and proposals that go to the BLM district office or the 
state office, or in the case of the forests, the forest 
supervisor.
    It also works the other way. All of us, including the State 
of Idaho, have grant programs, and that is a matching grant 
program, and that speaks to the issue of that local-Federal 
agency applying for matching grant opportunities to create 
recreational opportunities.
    Idaho, in particular, is quite famous for your RV grant 
program, where literally millions of dollars are put into the 
forests and BLM properties during the year.
    I think the key issue, Representative, would be the 
timeliness of how that proposal would come and being able to 
work more specifically at the local level on recreational 
management plans.
    There are cycles that the Federal Government must follow, 
and from my reading, which may be inaccurate, both the BLM and 
the Forest Service have not been able to keep up with the 
routine reviews of their forest and land management programs. 
So the need to have input on that program may not coincide with 
the opportunity that the Federal Government can provide through 
those agencies.
    Mr. Otter. If we were to provide, say, some legislative 
relief in that direction, what kind of time period do you think 
would be applicable in this case?
    We do that, you know, the Federal agencies, ``You have 30 
days to respond.'' In fact, they do that to us all the time. 
They take 4 years to put together a FEMA program and give us 
maybe 30 days to respond to a whole new direction of wetlands 
or a whole new direction of flood shed.
    What do you think would be a responsible period of time to 
assess the process that needs to take place for the permitting 
activities on BLM or Forest Service lands?
    Mr. Nelson. Mr. Chairman, Representative, my observation 
would be anything less than 6 months would be a wonderful 
improvement and would create an opportunity for dialogue within 
a calendar year.
    And that is important at the state level, sir, as you know, 
because of the annual legislative process. Our budget times are 
shorter. We don't generally have that long budgetary process 
that the Federal agencies go through, and most things come down 
to money and personnel.
    A shorter timeframe, around 6 months in the off session, I 
would think would be a laudable goal.
    Mr. Otter. Thank you very much.
    Ms. Michael, isn't the Forest Service and BLM required to 
obey local planning and zoning laws?
    Ms. Michael. We would like them to be, yes.
    Mr. Otter. Aren't they required to restrict themselves to 
the local planning and zoning laws, within the impact areas?
    Ms. Michael. In most cases.
    Mr. Otter. Has Blaine County sought to use their local 
planning and zoning laws in order to provide for specific use 
or restricted use for public access, whether it be cross-
country skiers or snowshoers or a snowmobiler?
    Ms. Michael. No, that is really something that--travel 
management is something that is under the requirements of the 
Forest Service and BLM, so that what we control through our 
zoning ordinances is access through private lands. So if 
someone is subdividing private lands next to public lands, then 
our ordinances require that that subdivision provide access to 
public lands.
    But as far as management of travel on forest or BLM lands, 
they have specific regulations that require them, actually, to 
minimize user conflicts.
    They have regulations on the books currently that require 
them to minimize user conflict, but because of not having any 
national direction, they are not following those regulations, 
essentially.
    Mr. Otter. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Mark Udall, the gentleman from Colorado.
    Mr. Udall. Thank you, Mr. Chairman.
    I want to welcome the panel and thank you for your 
interesting and enlightening testimony.
    If I might, I would like to make a couple of comments and 
then direct a question to Mr. Ehnes.
    I had the good fortune for many years to serve as the 
executive director of the Colorado Outward Bound school based 
in Denver. I think there is going to be testimony from a 
representative of Outward Bound on the next panel.
    But at one point, we were the largest outfitter in the 
Rocky Mountain West, so I am very familiar with the issues of 
access and how you find the balance point between human 
activity on public lands and when it starts to become 
detrimental to the quality of those lands and the experience of 
other people there.
    And I think that this hearing, for that reason, is very 
important, as we try and grapple with these issues.
    Ms. Michael, you may be familiar with what has been going 
on at Vail Pass in Colorado, where we have segregated some 
winter uses. And I think it has worked reasonably well. I think 
the problem is that land is finite, and as more humans move to 
the West, for all of the good reasons that us westerners know, 
it has become a challenge. But I think what you suggest has 
been very workable in Colorado.
    I don't know if you would like to make any other comments 
at this point, in that regard?
    Ms. Michael. I think that the regulations are clearly 
written, and I think it is a matter of Federal leadership.
    For instance, in Sun Valley, we have been in negotiation 
and collaboration with the snowmobile club for 6 years, and we 
have reached a stalemate. And it wasn't until the forest 
supervisor said to both groups that, ``If you don't come up a 
negotiated agreement, I will come up with one for you.'' And so 
it was that threat that got the two groups off of a stalemate.
    Because as the supervisor said, when one group--in this 
case, it was the snowmobile community--had access to all of the 
land, they benefited from stalemate. And it was his leadership, 
then, that made the two groups get together and negotiate and 
finally settle on an agreement.
    So I think that the tools are there. It is just that the 
leadership isn't.
    Mr. Udall. That provides an opening maybe for me to respond 
to a couple of comments Mr. Nelson made, and also speak to the 
Chairman.
    I think we need that mediator to bring us together to work 
on Utah wilderness. I noted that Mr. Nelson suggested, if we 
could resolve the wilderness issues in Utah, it would help a 
lot of the land managers who find themselves betwixt and 
between with the status that the lands in Utah have.
    I also just want to compliment you on your acknowledgment 
that we need to put more people on the ground to help manage 
and protect the resources, but, in the end, to educate. I know 
that users across the spectrum understand the more we educate 
users about Leave No Trace principles and other ways of moving 
lightly on the land, that the capacity probably increases. And 
we also leave the land in better condition for our children.
    That might lead me to Mr. Ehnes. You mentioned on page 3 of 
your statement that if penalties for violating regulations for 
vehicle use aren't enough to stem inappropriate behavior, your 
group would support strengthening them.
    As it happens, I have actually introduced a bill that would 
do that, and I would love to at least have you take a look at 
it and critique it, and perhaps we could work together. This 
bill applies particularly to people who take off-road vehicles 
off designated roads and destroy wetlands and cause real 
problems. And we have had some high-profile incidents in 
Colorado.
    And I am certainly not looking to penalize the good guys. 
As you know, the large percentage of the users are good guys.
    But it is that small group of people that give everybody 
else a bad name and, in the process, sometimes wreak real 
damage on the public resources.
    So I would like to get that legislation in your hands and 
have you take a look at it.
    Mr. Ehnes. Thank you, Mr. Chairman, Mr. Representative. We 
would welcome the opportunity to have a conversation with you 
on that matter.
    Mr. Udall. Thank you very much.
    Mr. Chairman, I yield back the measly time I have left.
    The Chairman. I thank the gentleman. We look forward to you 
as one of the sponsors on the Utah wilderness bill that we are 
introducing. In fact, I would like your name right under mine, 
if that would be all right.
    [Laughter.]
    Mr. Udall. I'll sign onto yours if you sign onto mine.
    [Laughter.]
    The Chairman. You've got a deal--
    [Laughter.]
    --1.2 million acres.
    The gentleman from Maryland, Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. And I thank you for 
this hearing.
    The exchange of information that we are having here this 
morning I think is helpful to all of us to understand the 
nature of this issue. And to some extent, we have a 
fundamental, philosophical difference of opinion amongst the 
people in the room and certainly amongst the members.
    And the hearing I think will help us sort out and 
understand the other person's philosophy. And the philosophy 
is: access to public land and what are the best ways to access 
public land; why is there public land; for what purpose is it 
be used for habitat for wildlife, for recreation for human 
beings, or can there be a mixture of both so that human beings 
can responsibly recreate and there can be what we now 
understand is certainly a dwindling amount of habitat for 
wildlife--especially if you are somebody like me who is from 
Maryland and we don't often look at east of the Mississippi 
River as habitat for wildlife in the same we look at west of 
the Mississippi for habitat for wildlife.
    And we back here like to see bald eagles and osprey and 
blue heron and dear and fox just as much as anybody else. So 
when we talk about habitat for wildlife, an easterner wants to 
protect all of it because we don't have much left back here, 
and we know that if you don't do the same thing out there, in 
another 100 or so years, you might have what we have here, and 
that wouldn't be so good, at least from my perspective.
    Most public land could not facilitate responsible human 
activity without the private sector volunteering to help with 
trails and a whole range of other things.
    So, Mr. Ehnes, you said the number of things that your 
group does, and I think we ought to appreciate that and 
certainly how valuable that is.
    I think we also need to understand that in a true sense, 
regardless of your philosophy toward access, we as responsible 
adults need to be stewards of the land. And we need to have 
respect for the bison in the middle of winter in a harsh 
environment, in certain circumstances barely able to survive.
    And do they need to be gawked at by thousands of 
snowmobilers, with the noise and the pollution? Is there a 
difference to the buffalo with that than there is someone 
silently careening through the area on cross-country skies? Is 
there a different experience for the recreational person? I 
would suggest there certainly is a different experience for the 
bison.
    So my question is--whoever wants to answer this, I suppose. 
We have groups that want to open up public access to every 
manmade device. And we have groups that want to close public 
access to every manmade device.
    I like horses. And I have two legs and two arms, and I like 
to walk. And I like the silence and the quiet.
    But can we, as responsible adults, pursue--and it was 
suggested here a number of times today--a balance between 
motorized access by the lower decibel of a kayak or a canoe to 
our public lands?
    Mr. Nelson?
    Mr. Nelson. Mr. Chairman, Representative, I think there are 
many examples of success being achieved in finding that 
balance. I referred and inferred earlier to opportunities that 
have to be evaluated based on impacts to the natural resources.
    Mr. Gilchrest. Could you give us specific examples of that, 
so we can sort of take that information and see if we can 
replicate it on the Federal level.
    Mr. Nelson. Mr. Chairman, Representative, I will give you a 
couple.
    I just came from visiting some Maryland state parks this 
weekend, and you have some small pieces of property that were 
purchased with public money and managed by private or nonprofit 
groups where, other than trail systems, it is generally and 
strongly supported that no more facilities be added to those 
properties. They are meant to be protected areas for habitat 
for a variety of critters, as I understand it, and also 
watershed protection.
    Along the Colorado River in the Colorado plateau, within 
the national park system, at Canyon Lands National Park, there 
are canyons that are totally restricted not only because they 
are inaccessible, which is true, but also there are such rare 
natural and archaeological sites that there cannot be the 
opportunity for those to be impacted or destroyed.
    Outside of those restricted areas, you have other areas 
that are open for many, many kinds of recreation.
    Outside of the national park, you have the Bureau of Land 
Management that has multiple-use agenda. And there are few 
restrictions, currently, on those lands that are around them.
    So I think you have a cascading down of experiences from 
the protected and the most precious down to the multiple-use 
categories of some agencies. And I think there are many 
examples that could be used to isolate those most protected and 
move out to those areas that have greater opportunities.
    The Chairman. The time of the gentleman has expired.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    The Chairman. The gentlelady from California?
    Ms. Solis. Thank you, Mr. Chairman. I apologize for coming 
in a little late.
    But this subject matter is very near and dear to many in 
California. In my district alone, we don't have many public 
open areas where many of my constituents can truly enjoy some 
of these very pristine areas that are found throughout the 
State of California.
    But in my district, we do have the Angeles National Forest. 
And I do see a lot of public usage there these days. It is 
affordable. It is easy to get to. We see a number of my 
constituents spending weekends and summers there over the past 
few years.
    And it is increasing, partly because of the population and 
the density and the fact that that is one of the few areas that 
is still somewhat open. And there is a real interest on the 
part of our community, which is largely working-class families 
with young children who want to enjoy what little is left in 
urban America.
    The district that I represent roughly contains anywhere 
from 3 to 2 million people that live up and around the 
foothills in the San Gabriel Valley.
    One of the issues that I have is that folks in our area 
really do want to see some effort to really provide more 
support for land management, for restoration, and things of 
that nature.
    There are many children in our district who have never seen 
live wildlife, animals, deer, fisheries, things of that nature. 
And I know that it is very important to continue the process of 
education and funding for these kinds of efforts.
    So while in my district we may not have as many folks that 
own snowmobiles or are able to kayak, many of them do enjoy the 
trails, they do enjoy the fact that they can go out and have a 
nice outing on the weekend.
    And it is a priority for many people, not only in my 
district, but in other parts of the country, who want to 
continue to see that efforts are made by the Federal Government 
in an effort where we can cooperate with both the public and 
the private sector to see that these areas are continually open 
to them, accessible, but also maintained. And that requires a 
commitment on the part of the Federal Government.
    And right now, alone, in my district, the city of Asuza, 
which is the door to the Angeles National Forest, we are in 
dire need of support there. We have some very important issues 
there at hand.
    And some of cities are trying to tackle some of these 
issues. They are looking to us for relief so that they can 
maintain access, one that is controllable, one that is 
manageable.
    And I would really look forward to working with the 
Committee to see how we can continue those kinds of 
collaborative efforts in a bipartisan manner.
    So I am very happy that this issue is being brought before 
us. This is one that is very sensitive, believe it or not, for 
people in my district who don't get a chance, an opportunity, 
to go out on snowmobiles and kayaking, but whose only recourse 
is to go to trails, camp, rock climb, and maybe fish a little 
bit. And that is what we have in my district.
    So I look forward to working with you, Mr. Chair and 
members of the Committee, and obviously with the various 
Federal departments and public organizations that are 
interested in this issue as well.
    Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Washington, Mr. Inslee.
    Mr. Inslee. Thank you.
    Mr. Ehnes, I am sorry, I missed how to pronounce your name. 
I'm sorry.
    Mr. Ehnes. Ehnes.
    Mr. Inslee. Mr. Ehnes, thank you very much.
    It sounded like you had a successful experience with the 
trail bike association you are involved in. What contributed to 
that success? Why did it work?
    Mr. Ehnes. Mr. Chairman, Mr. Representative, that is an 
effort that was successful because of collaboration with a 
number of groups and agencies. And it was a matter of having an 
open dialogue and expressing what our desired conditions for 
the future would be and figuring out how that meshed with the 
agencies and spending time together and building a 
relationship.
    It has been a 10-year process to build a relationship that 
we all feel very comfortable with, but it has been well-worth 
all the effort. It is very easy to duplicate.
    Mr. Inslee. Great.
    I am sorry I didn't get to hear your testimony, but I read 
your written testimony and you made reference, saying that 
certain sectors of our society were really not involved in the 
foundation of the roadless policy of the past administration, 
and you expressed a concern about that.
    We had Mr. Bosworth testifying the other day in another 
Subcommittee about their plans for amending this rule or going 
through the rulemaking process again.
    I, frankly, have been flummoxed to understand why people 
did not understand they had an opportunity to have input in 
this last rulemaking process. There were 600 meetings. There 
were 1.6 million responses received by the Forest Service.
    We had meetings in every town that had a stoplight in the 
State of Washington, I think. You know, Morton, Colville, 
places you have never heard of.
    Yet, people still come and tell us they didn't have input.
    What do you think the service should do now that they are 
going through another rulemaking process? What would you 
encourage them to do? Should they have 1,200 meetings instead 
of 600? What should they do to try to increase that 
opportunity?
    Mr. Ehnes. Mr. Chairman, Mr. Representative, first, from my 
perspective, the original rulemaking process did not include a 
broad spectrum of groups in the initial processes when the idea 
was being first formulated.
    After that, when we did get to the process of having formal 
meetings, I did attend in my home town as well. And I will tell 
you that it was a PowerPoint demonstration put on by one of the 
staff folks, who had a very difficult time answering any 
questions that the audience had.
    And the PowerPoint presentation, to me, demonstrated what 
the changes would be. And when we asked questions about our 
opportunities to be involved or how we could affect the 
changes, the staff people really had no ability to answer those 
questions.
    As far as another process to start over, I would say the 
most important thing is to get all groups involved in the 
process early, both the environmental community and the 
recreational community. And try to find common ground right off 
the bat, and then base our course of action from there.
    Mr. Inslee. In general, could you describe what you think 
should be in the amended plan, if there is an amendment?
    Mr. Ehnes. My personal opinion is that amended plan should 
rely heavily on the opinion of local foresters, district 
rangers, and supervisor offices to do the right things. And 
also, involve the communities heavily, both in the planning and 
the implementation.
    Mr. Inslee. I am really struggling, honestly, to try to 
figure out what you are referring to by this ``more 
participation.''
    Are you saying that the Forest Service should not do 
anything until they have full public meetings? I mean, should 
they have the 600 meetings first, before anybody puts a 
proposal on the table, because you don't want to be left out of 
the first meeting? I am really trying to figure out what they 
should do.
    Mr. Ehnes. No, I would suggest that the meetings that the 
Washington-level folks had first involved the environmental 
community last time, and the folks in the multiple-use 
communities or recreation communities didn't know anything 
about the proposed rulemaking process until a preliminary plan 
had really been formed.
    And I would say that at that level, at the Washington 
level, if there is going to be an amended plan, that all those 
parties should be involved at that level first.
    Mr. Inslee. Okay.
    I understand that the snowmobiling group is involved in 
your association; is that right?
    Mr. Ehnes. Yes.
    Mr. Inslee. Yes.
    Just one more question, Mr. Chair, if I can.
    As for as the snowmobile, are you asking to have a full 
rulemaking process with concomitant hearings before there is a 
change in the snowmobile policy? Or are you suggesting that the 
Administration just sort of agree to some consent decree in 
this litigation that is now ongoing?
    Mr. Ehnes. I don't have an accurate answer for that 
question at this point.
    Mr. Inslee. Thank you, and thanks for your work on the 
mountain bike trails, too.
    Mr. Ehnes. Thank you.
    The Chairman. I think the gentleman.
    I appreciate the testimony from the panel. Let me point out 
that many of the questions were very interesting and food for 
thought.
    The questions from Mr. Holt from New Jersey regarding 
snowmobiling, I think that many of those things are ready to be 
resolved as the industry is now going to a four-stroke engine, 
as far as pollution and noise. They have committed to do that 
over a period of time, which in their opinion and the opinion 
of most people who have analyzed it, would probably answer most 
of the questions.
    Mr. Hill, you represent the horse industry, and, of course, 
horses are allowed under the 1964 Wilderness Act. You can take 
horses into the backcountry area.
    The Committee has received a lot of requests from people 
regarding mountain bikes, which are not allowed because they 
are mechanized.
    A lot of people misinterpret the 1964 bill; it doesn't say 
motorized, it says mechanized. And the Forest Service and BLM 
has had quite a quandary in trying to figure out, well, what is 
mechanized, what can you take in? Is a camp stove mechanized?
    We had a big argument 1 day on oar locks; are they 
mechanized?
    What would be your reaction if they allowed mountain bikes 
into wilderness areas, say the law was changed to allow that, 
as some people, I understand, are going to propose this year?
    Mr. Hill. Mr. Chairman, I am not totally familiar with all 
the consequences that would be involved. I am aware of what the 
Wilderness Act intent was, and I referred to some of it in my 
testimony.
    I will have to say that in our experience, in areas outside 
wilderness boundaries, many of the equestrian users, as 
identified by the testimony from the other folks here, have had 
an opportunity to work with mountain bike community and have 
reached agreement about how the trails can be used in a 
compatible manner by the equestrian community and the mountain 
bikers.
    That is not the case inside the wilderness boundaries 
because it has not been a topic of discussion, principally, I 
think, because of the ``Wilderness Designation'' and most areas 
that we are familiar with are very rough terrain and are not 
accessible easily by wheeled vehicles.
    But I think that there has been an opportunity to continue 
a dialogue with users with some success in some of those areas 
in the West where there is an opportunity for more compatible 
use of wheeled vehicles.
    The Chairman. It is very interesting that Moab, Utah, seems 
to be the headquarters of mountain biking in the United States 
now. And what I find ironic is that many of the mountain bikers 
have signed petitions for that area to be put into wilderness, 
and yet they are avid mountain bikers.
    And so when it has been pointed out to them that they would 
also prohibit themselves, it has put a lot of anguish among 
some of the mountain bikers in that area.
    There are literally thousands in Grand County, or Moab, 
Utah, so they have an ironic situation and a real paradox. They 
signed this petition that in effect ended the mountain biking. 
Of course, a lot of them, I don't think, understand that or 
what the thing is.
    But you may recall, during the Americans with Disabilities 
Act, I put in an amendment that allowed wheelchairs into 
wilderness areas, and I feel that was a justifiable thing. I 
mean, these guys are on their own, if they have courage enough 
to do it.
    Specifically, a Vietnam veteran had his legs blown off, who 
can challenge anybody on this community to a tennis match or a 
basketball match or a road race, and no one took the offer 
because he would have probably wiped us out.
    But anyway, it got down to the idea that maybe sometimes we 
could look at some of those things.
    The gentleman from Washington brought up this issue about 
selective questioning. That seems to be the problem. Whether it 
is right or not I guess is debatable. But it seems to be the 
problem that many people have talked about.
    Mr. Ehnes, you brought up that a lot of people outside of 
the environmental community felt that they were not given their 
right to have any input on that. Whether that is true or not--
some have sent me stacks of letters regarding that.
    But I think when we start getting into this idea of public 
comment, it should be public comment for everybody. And we 
would hope that would be the case regardless of what political 
party happens to run the Congress or the White House.
    With that, let me thank you all of you for your excellent 
testimony and putting up with our questions. And we will excuse 
this panel and go to our next panel.
    Our next panel is Mr. Steve Bassett, President of the 
United States Air Tour Association; Mr. Craig Mackey, Public 
Policy Liaison, Outward Bound; Vera Smith, Conservation 
Director of Colorado Mountain Club; Bruce Ward, Executive 
Director of the Continental Divide Trail Alliance; and Amy 
Knowles, testifying on behalf of the Florida Keys Fishing 
Guides Association.
    We appreciate you folks being with us today. I know you 
understand the rules. If you could stay within your allotted 
time, it would help us out. We have one more panel following 
this one.
    And we will start with you, Mr. Bassett.

 STATEMENT OF STEVE BASSETT, PRESIDENT, UNITED STATES AIR TOUR 
                          ASSOCIATION

    Mr. Bassett. Thank you, Mr. Chairman. We appreciate the 
opportunity to be here today. And we also sincerely appreciate 
your personal involvement in this issue over the years and your 
leadership in seeking to help preserve air touring as a 
legitimate way to view America's national parks.
    The National Park Service and the Federal Aviation 
Administration are getting pretty creative and pretty sneaky 
when it comes to finding ways to deny access to our national 
parks and public lands.
    As Chairman Hefley commented in his opening statement, the 
NPS management guides of 2001 states: ``National parks belong 
to all Americans and all Americans should feel welcome to 
experience the parks.'' Really?
    The Rocky Mountain National Park recreational visitor 
access is being denied via a ban on air tours.
    At Yellowstone National Park, recreational visitor access 
could be denied due to legislation which has been offered which 
would ban air tours.
    At other national parks, recreational visitor access could 
be denied under the provisions of the Air Tour Management Act 
of 2000, which provides the FAA and the NPS with the authority 
to ban aircraft.
    And at the Grand Canyon, recreational visitor access is 
being denied to thousands of potential visitors by artificially 
limiting flights, imposing unreasonable curfews, instituting 
unrealistic and unscientifically contrived sound limits, and 
failing to implement quiet technology standards.
    One million, seven hundred thousand. That is how many 
visitors will be denied recreational access to the Grand Canyon 
during the next decade based on government restrictions on air 
tours. And that will cost the Grand Canyon air tour industry, 
conservatively, $25 million a year or $250 million over the 
next 10 years.
    Of the Grand Canyon, Teddy Roosevelt said: ``Keep it for 
your children, your children's children, and for all who come 
after you, as the one great sight that every American should 
see.''
    But many won't. Sixty percent of the Grand Canyon's air 
tour visitors are retirement age, disabled, or in poor health. 
And for them, air touring is the only way for them to see the 
Grand Canyon. But in the next 10 years, many of them won't be 
able to.
    Already, two air tour operators serving the Grand Canyon, 
Grand Canyon Airlines and Kenia Helicopters, report that 
draconian flight caps imposed by the FAA last year will drive 
them out of business by this fall.
    As you will recall, Mr. Chairman, you previously learned 
that air tour sound data in the Grand Canyon had been 
manipulated by the Park Service. You also learned that the Park 
Service was making a significant policy shift by establishing 
in director's order 47 a sound threshold at an unjustifiable 8 
decibels below natural ambient sound, and artificially shifting 
from a noticeability to a detectability standard as the 
criteria for determining acceptable levels of sound.
    Noticeability is the level at which a person thinking about 
something other than aircraft would first notice aircraft 
sound. Detectability is the threshold at which a person 
intently listening for a sound of known character, such an 
aircraft, would first detect it.
    According to acoustical experts who testified before you 
previously, abandoning the noticeability standard in favor of a 
detectability standard is neither appropriate nor conforming 
with accepted industry standards.
    But this is the Park Service's trump card, its back door, 
underhanded, arbitrary, mischievous way to justify banning all 
motorized recreational vehicles on the ground or in the air 
from all national parks. But there are alternatives, 
alternatives which we have sought to discuss with the FAA and 
Park Service, but which seem to fall on deaf ears.
    No. 1, implement quiet technology standards and incentives 
as the FAA encouraged and as Congress mandated. Our industry 
took the lead in developing quieter aircraft.
    As just a few examples of many, Papillon Grand Canyon 
Helicopters invested 8 years and $14 million of its own money 
redesigning the Sikorsky S-55 into a quieter air tour platform. 
Their efforts cut the sound generated by this aircraft by 50 
percent.
    Grand Canyon Airlines spent $1.5 million back in 1984, 
converting its fleet to the larger Dehavilland Twin Otters, 
flying the same number of passengers with 70 percent fewer 
flights and then, 2 years later, converted those aircraft to 
the quieter VistaLiners, through a wide variety of 
modifications, reducing the sound generated by those aircraft 
by 66 percent.
    Scenic Airlines spent more than $35 million converting the 
quiet VistaLiners and reducing its fleet by 60 percent.
    Air Vegas Airlines spent $12 million of its own money, 
converting its entire fleet to larger, quieter Beechcraft C-99 
aircraft, reducing the number of flights it took to serve the 
same number of passengers by 65 percent.
    The efforts of each of these companies and their sizable 
investments have bought them absolutely nothing from the 
Federal Government except more and more onerous regulations.
    No. 2, fairly apply cap limits based on recommendations by 
the National Park Overflights Working Group and apply no caps 
or curfews to operators using quiet technology.
    No. 3, link morning and evening curfews to actual hours of 
sunrise and sunset, as the original NPRM proposed.
    And finally, stop monkeying with the routes in the Grand 
Canyon. The last of the scenic routes from Las Vegas to the 
Grand Canyon have already been stripped away, and it is only a 
matter of time before the rest of them are eliminated.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bassett follows:]

     Statement of Steve Bassett, President, United States Air Tour 
                          Association (USATA)

    Thank you, Chairman Hansen, for inviting the United States Air Tour 
Association (USATA) to testify before the House Resources Committee 
today. We appreciate the opportunity to offer our views on the issue of 
denial of recreational access to America's national parks. We also 
sincerely appreciate your leadership in seeking to preserve air touring 
as a legitimate way to view the spectacular sights of America's 
national parks.
    1.7 million. That's how many visitors will be denied recreational 
access to the Grand Canyon during the next decade based on government 
restrictions--caps--on air tours created under the Clinton/Gore 
Administration.
    1.7 million. And, that's just at the Grand Canyon. No telling how 
many more will also be denied access based on the provisions of the 
National Park Air Tour Management Act of 2000.
    Who are these people who take air tours and why do they do it? 
Grand Canyon air tour visitors take air tours for many reasons.
    Many are elderly or disabled and for them air touring is the only 
way for them to see our national parks.
    Some are in poor health and unable to hike the trails, backpack in 
the wilderness, or even get out of a bus and walk to a scenic overlook. 
Air touring is the only alternative they have.
    Some are on family vacations and have only limited time. Without 
the opportunity of taking an air tour, they would be unable to enjoy 
the breathtaking scenery our national parks offer.
    And some find seeing a national park from the air better and more 
enjoyable than seeing it any other way.
    Each and every one of these segments of society is impacted when 
the Federal Government creates a regulatory environment limiting 
recreational access to our national parks.
    Nearly all of our members' customers are time-constrained to one 
degree or another. Of those flying to the Grand Canyon from Las Vegas, 
100 percent of them are time-constrained. The only way for them to see 
the Grand Canyon is by air. They will not see the Grand Canyon except 
by air tour because their travel plans do not include a trip to 
Arizona.
    Sixty percent of the Grand Canyon customers are retirement ago or 
older, disabled, have health problems or are too young to see the Grand 
Canyon any way other than air tour.
    Ninety-five percent of the Grand Canyon customers are from 
international destinations. Most of those are from Japan, Korea and 
China with the UK, Germany and France representing the next largest 
group.
    In addressing the issue of the disabled, the NPS 2001 Management 
Policies Guide says specifically ``All reasonable efforts will be made 
to make NPS facilities, programs, and services accessible to and usable 
by all people, including those with disabilities . . . One primary 
tenet of disability rights requirements is that, to the highest degree 
reasonable, people with disabilities should be able to participate in 
the same programs and activities available to everyone else.
    When more than 40 percent of air tour passengers are either 
disabled or have health related problems which preclude them from 
visiting the Grand Canyon any other way, NPS/FAA regulations are 
clearly inconsistent with the Park Services stated policy on this 
issue.
    And, make no mistake. Contrary to proclamations by the Federal 
agencies of jurisdiction, denying air access to our national parks does 
have a significant impact on foreign trade and is contrary to the 
provisions of the Trade Agreement Act (TAA) of 1979 which specifically 
prohibits Federal agencies from engaging in any standards or related 
activities that create unnecessary obstacles to the foreign commerce of 
the United States.
    At the Grand Canyon alone, more than 60 percent of air tour park 
visitors flying either from Las Vegas or from the Grand Canyon National 
Park Airport are from foreign countries. To say, as the Federal 
Aviation Administration does, that flight caps, curfews and other 
access-limiting regulations do not impact foreign trade is simply 
incorrect.
    Specifically, the fact is that the overall demand for air tour 
flights at the Grand Canyon has not significantly increased over the 
last half dozen years. Rather the number of companies providing air 
tour services out of Las Vegas has decreased some 60% since 1995. 
Problem is that limiting or capping flights based on the baseline of 
1997-1998, due to worldwide economics, is not reflective of numbers of 
fights needed to accommodate the 1995-1996 time frame, let alone allow 
for any moderate growth. Additionally, with the economic demise of so 
many operators since 1995, there has not been an accurate 
redistribution of flight allotments to the remaining operators. 
Competitively speaking, an unfair advantage or disadvantage exists 
between current operators concerning their growth capabilities. As 
stated previously, overall industry growth is relatively small year to 
year, if at all. But expansion and contraction between competitors for 
market share is at issue each season.
    Mr. Chairman, let me continue to quote directly from the 2001 NPS 
Management Policies Guide:
    ``National parks belong to all Americans, and all Americans should 
feel welcome to experience the parks . . . Providing opportunities for 
appropriate public enjoyment is an important part of the Service's 
mission . . . Enjoyment of park resources and values by the people of 
the United States is part of the fundamental purpose of all parks . . . 
The Service is committed to providing appropriate, high quality 
opportunities for visitors to enjoy the parks, and will maintain within 
the parks an atmosphere that is open, inviting, and accessible to every 
segment of American society . . . The fact that a park use may have an 
impact does not necessarily mean it will impair park resources or 
values for the enjoyment of future generations.''
    Mr. Chairman, I'm not making this stuff up. It's clear as can be 
and right here in black and white. Yet, recent actions by the Park 
Service and the Federal Aviation Administration regarding air touring 
are not even remotely consistent with this stated policy.
    There are many ways the government can deny visitors access to our 
national parks.
    At Rocky Mountain National Park recreational visitor access is 
denied via a ban on air tours.
    At Yellowstone National Park recreational visitor access could be 
denied due to legislation which has been offered which would ban air 
tours.
    At other national parks, recreational visitor access can be denied 
under the provisions of the Air Tour Management Act of 2000 and 
codifying regulations which provides the Federal Aviation 
Administration and National Park Service with the authority to ban air 
tour aircraft.
    And, at the Grand Canyon, recreational visitor access is being or 
will be denied to thousands of potential visitors by (2) artificially 
limiting flights, (2) imposing unreasonable curfews, (3) instituting 
unrealistic and scientifically contrived sound limits, and (4) 
artificially creating a barrier to trade such that many of the air tour 
companies currently offering Grand Canyon air tours will eventually be 
forced out of business--the ultimate denial of access.
    But, it gets worse!
    In a not-so-veiled attempt to try and justify its actions and the 
actions of the FAA with bogus sound data, the Park Service implemented 
on December 1st of last year new draconian rules in Director's Order 47 
which guarantee the eventual elimination of all air tours at the Grand 
Canyon.
    As you will recall Mr. Chairman, as chairman of the former National 
Parks and Public Lands subcommittee, you previously learned through 
expert testimony and admissions from NPS officials that noise 
monitoring computer modeling in the Grand Canyon both had been 
manipulated and had not undergone scientific validation or peer review.
    In a subsequent hearing, you learned that the Park Service was 
making a significant policy shift proposing in Director's Order 47 to 
set the acceptable noise level in one backcountry zone of the Grand 
Canyon at 8 decibels below natural ambient sound--about the same level 
of noise blood makes going through my veins.
    Then perhaps even more onerous and more a frightening for air 
touring and all other forms of mechanized recreational park users, the 
new Park Service policy arbitrarily abandons the longstanding 
``noticeability'' standard in favor of a ``detectability'' standard as 
the criteria for determining acceptable levels of sound.
    Originally the Park Service had a sound threshold for achieving 
substantial restoration of natural quiet in the Grand Canyon of 3dB(A) 
above ambient sound using the threshold of ``noticeability --the level 
at which a person thinking about something other that aircraft would 
first notice aircraft sound.
    The Park Service then changed that policy to better suit its 
purposes and proposed a new methodology for determining sound based on 
a standard of audibility or ``detectability''--the threshold at which a 
person intently listening for a sound of known character such as an 
aircraft would first detect it.
    In Director's Order 47, the Park Service claimed to have stationed 
human ``listeners'' at various locations around the Grand Canyon and 
asked them to take note of when they heard an aircraft. The Park 
Service claimed that those trained ``listeners'' heard or ``detected'' 
aircraft noise at between 8 and 12 decibels below the average ambient 
sound levels thus justifying their proposal to set minimum acceptable 
sound levels at 8dB below natural ambient sound--based on the new 
``detectability'' standard.
    First--according to acoustical experts familiar with this issue--
J.R. Engineering of Seattle, Washington--abandoning the noticeability 
standard in favor of a detectability standard is neither appropriate 
nor in conformance with accepted industry standards. Ground visitors 
don't just stand out in the wilderness trying to hear aircraft. If they 
are doing what we are led to believe the Park Service is trying to 
protect, they're listening to the birds, smelling the flowers, and 
watching the little bunnies hop along the trails.
    Second--based on J.R.'s review of engineering reports of Harris, 
Miller, Miller and Hanson--the Park Services noise consultant--there 
were no new noise studies conducted for the NPS prior to this action. 
There were no measurements or human observations, only some new 
arithmetic performed on two year old measurements and studies. In fact, 
at no time did any observer actually detect any aircraft sounds at 
anything close to the levels indicated in the NPS Public Notice either 
in the Grand Canyon or anywhere else.
    This is the Park Services back door, underhanded, arbitrary, 
mischievous way to justify banning all motorized recreational 
vehicles--on the ground and in the air--from our national parks. The 
precedent this has established guarantees the eventual elimination from 
national park lands of air tours, snowmobiles, jet skis, four-wheelers, 
busses, cars and anything else with an engine. It is the Park Services 
answer to access denial.

Flight Caps
    If not an outright ban, the second easiest way to deny access to 
air tours or other forms of recreational activity is to establish 
activity limits. In the case of air tours it takes the form of caps on 
the number of flights which can be conducted over a national park. 
Using voodoo scientific methodology and partial flight data, the Park 
Service and FAA did just that with its cap rule in the Grand Canyon. 
The results are devastating.
    Flight caps have imposed massive, unrecoverable economic losses on 
a number of air tour providers which, by this fall, will force some 
operators out of business.
    Here's is a sampling:
    In 1999, Grand Canyon Airlines flew 3,085 flights at the Grand 
Canyon. Keep in mind, that number is already 70 percent fewer flights 
than the company flew before because it voluntarily spent millions of 
dollars converting it's fleet to larger quieter aircraft. This year, 
flight cap restrictions will cost GCA more than $650,000. GCA reports 
without immediate relief the company cannot possibly survive as a 
business and the Grand Canyon's first air tour operator soon will 
become simply an historical reference.
    Kenai Helicopters will run out of flight allocations the middle of 
September this year. Their economic losses will exceed $600,000 and 
they report that they will be forced to close up shop by October.
    Air Vegas Airlines will exhaust it's flight allotments in October 
of this year. This will result in a revenue loss for 2001 or $1.3 
million. Based on similar loss projections in the future, Air Vegas 
reports that the cap rule will eventually force them out of business.
    Other operators are reporting similar economic losses as a result 
of the flight cap rule, are bleeding to death, and closure is only a 
matter of time.

Quiet Technology
    Whether its modifying engines on jet skis and snowmobiles or 
reconfiguring rotor blades on helicopters, manufacturers and operators 
have, for years, been working to make machines quieter. Certainly in 
aviation, the results of many hours and many millions of dollars of 
work and investment have paid off. This was all done in good faith as 
the FAA consistently led the air tour industry to believe that quieter 
aircraft and Park access were synonymous. But, like a good NFL running 
back who baits a defender by showing him a leg then pulls it back at 
the last second avoiding a tackle, the FAA baited us by promoting the 
use of quiet technology aircraft then yanked it away leaving our 
industry holding the bag.
    Title VIII of the Wendell H. Ford Aviation Investment and Reform 
Act for the 21st Century (Public Law 106-181) known as the National 
Parks Air Tour Management Act of 2000 states that within 12 months 
after the date of the enactment of this Act (by April 5, 2001), the 
[FAA] Administrator (1) shall designate reasonably achievable 
requirements for fixed-wing and helicopter aircraft necessary for such 
aircraft to be considered as employing quiet aircraft technology and 
(2) shall establish a quiet technology advisory group.
    The Act further states that, in consultation with the [NPS] 
Director and the advisory group, the Administrator shall establish, by 
rule, routes or corridors for commercial air tour operations by fixed-
wing and helicopter aircraft that employ quiet aircraft technology for 
(1) tours of the Grand Canyon originating in Clark County, Nevada; and 
(2) ``local loop'' tours originating at the Grand Canyon National Park 
Airport, in Tusayan, Arizona.
    The Act goes on to provide that for commercial air tour operations 
by any fixed-wing or helicopter aircraft that employs quiet aircraft 
technology and that replaces an existing aircraft shall not be subject 
to the operational flight allocations that apply to other commercial 
air tour operations of the Grand Canyon, provided that the cumulative 
impact of such operations does not increase noise at the Grand Canyon.
    Finally, the Act says that if the ``. . . [FAA] Administrator 
determines that the Administrator will not be able to make such 
designation before the last day of such 12-month period, the 
Administrator shall transmit to Congress a report on the reasons for 
not meeting such time period and the expected date of such 
designation.''
    The April 5, 2001 deadline has come and gone and the FAA has 
neither designated ``reasonably achievable requirements'' for quiet 
technology in the Grand Canyon nor sent a report to Congress explaining 
why the agency has failed to do so.
    Since passage of the Overflights Act of 1987, quiet technology has 
been recognized as a key to achieving the substantial restoration of 
natural quiet in the Grand Canyon. The Act itself spoke directly to the 
issue. The 1994 NPS Report to Congress spoke to the issue. The FAA 
clearly envisioned in a 1996 Advanced Notice of Proposed Rulemaking 
(ANPRM) which accompanied the imposition of caps, curfews and other 
onerous restrictions on Grand Canyon air tour operators the need for 
incentives for operators transitioning to quieter aircraft which 
included preferential routes and relief from flight caps.
    The FAA was very specific in the ANPRM when it said,--. . . the FAA 
agrees that the use of quieter aircraft will, in the long run, provide 
the most benefit toward restoring natural quiet [to the Grand Canyon] . 
. . the FAA and NPS are working together to develop a long-term 
comprehensive noise management plan that will address . . . provision 
of appropriate incentives for [operators] investing in quieter 
aircraft, and appropriate treatment for operators that have already 
made such investments.'' The message contained in the ANPRM was clear--
Grand Canyon air tour operators utilizing quieter aircraft would not be 
subject to caps on flights and would be provided incentive routing. 
That has not occurred.
    Previously, the FAA, in withdrawing the ANPRM, commented to 
operators that it could not move forward on quiet technology because it 
could not define what a quiet aircraft is. Then in the April 9th FAA 
response letter to Senators Reid and Ensign, the agency commented that 
this is the most expensive piece of the three-legged stool and should 
be delayed until the results of the other two steps in the process are 
in. That, of course, would be a self-fulfilling prophecy. Caps and 
unscenic routing will wreak such havoc in the industry as the year goes 
on that it may be far too late for any quiet technology incentives to 
provide the relief needed for operators to maintain viability.
    Already, Grand Canyon air tour operators have invested millions of 
dollars and years of effort designing or obtaining ``quieter'' 
aircraft. Here are some examples:

Papillon Grand Canyon Helicopters
    Papillon Grand Canyon Helicopters--one of the oldest and most 
successful air tour operators serving the Grand Canyon--spent eight 
years and $14 million modifying a Sikorsky S-55 into a quieter air tour 
platform. That included redesigning the main rotor, replacing the 
three-bladed rotor with five blades, reducing the RPMs and adding a new 
exhaust system to the machine. They did this (1) because it is the 
right thing to do and (2) in anticipation that the FAA would keep its 
word and move on the development of quiet technology incentives. The 
new S-55 WhisperJet produces less than one half of the sound generated 
by many other rotorcraft.
    Three are in service now. Papillon can produce a new WhisperJet 
about every 90 days. Their objective is to produce about 100 of them 
and they intend to replace their fleet of Bell JetRangers with the new 
modified S-55 at the Grand Canyon.
    But, as the president of the company told me recently, what's the 
use if it doesn't get us anything?

Grand Canyon Airlines
    In 1984, GCA began its conversion to larger aircraft, reducing its 
fleet from six (6) Cessna 207s to only two (2) Dehavilland Twin Otters, 
each of which has seating capacity for 19 individuals. This voluntary 
aircraft upgrade cost GCA $1,550,000 (1981 dollars), but allowed GCA to 
reduce the number of flights it flew by two thirds, with a 
corresponding reduction in aircraft sound generated by GCA operations 
in the Grand Canyon.
    In 1986 GCA again established itself as the leader of the ``quiet 
technology'' revolution when it developed quiet aircraft technology 
that could be applied to the Twin Otter. The result is the 
``VistaLiner,'' which remains the industry standard for ``quiet 
aircraft technology.'' Scientific testing conducted by the FAA proves 
that the VistaLiner is an incredible 66 percent quieter than the Twin 
Otter. Additionally, only one other air tour aircraft is quieter than 
the VistaLiner in absolute terms and that aircraft, the Cessna Caravan, 
requires twice as many flights to carry the same number of passengers 
as the VistaLiner. Thus, no aircraft can carry as many passengers as 
quietly as the VistaLiner. Inexplicably, the FAA has refused to give 
GCA any credit whatsoever for voluntarily switching from small 
conventional aircraft to the larger and quieter VistaLiner, or for 
reducing, from over 10,000 to less than 3,200, the number of flights 
GCA flies around the Grand Canyon each year.

Scenic Airlines
    In recent years, and at a cost of over $35,500,000, Scenic reduced 
its fleet by 60 percent, replacing 41 conventional aircraft with 20 
VistaLiners, the same state-of-the-art quiet aircraft technology that 
Grand Canyon Airlines uses, and with five (5) Fokker F-27 aircraft, 
which are also quiet technology aircraft by any definition of that 
term. Scenic reduced its fleet and made these huge investments based on 
the FAA's representations that it would soon implement ``quiet 
technology'' incentive routes at the Grand Canyon. According to the 
FAA, these incentive routes were absolutely required in order to comply 
with the Overflights Act, which was enacted in 1987, fourteen years 
ago.
    Other manufacturers and air tour operators also are voluntarily 
working toward quieter machines yet they receive no credit for their 
efforts and have no incentives to continue those efforts.
    Of the Grand Canyon, Teddy Roosevelt said: ``Keep it for your 
children, your children's children, and for all who come after you . . 
. as the one great site that every American should see.''
    Current NPS/FAA practices guarantee that not every American can see 
the Grand Canyon--that many are denied access to the Park.
    By our testimony, we are not suggesting that there should not be 
come controls on air touring. We are not suggesting that air tours 
should be permitted to go wherever they choose, whenever they choose. 
What we are saying is that regulations which are arbitrary and which 
are purposely designed to put up a big stop sign that says ``NO 
ENTRANCE PERMITTED'' is not in conformance with the basic tenants of 
the 1916 Organic Act which among other things, vests in the Park 
Service the responsibility to--. . . promote the use of national parks 
. . . and to provide for the enjoyment of the same . . . ``
    But, there are alternatives--alternatives we have sought to discuss 
with the governing Federal agencies often but which seem to fall on 
deaf ears:
    Do what Congress mandated in the National Parks Air Tour Management 
Act of 2000 which directs the FAA to designate reasonably achievable 
requirements for fixed-wing and helicopter aircraft necessary for such 
aircraft to be considered as employing quiet aircraft technology and 
provide incentive routes and corridors, relief from caps and curfews, 
and other relief for Grand Canyon operators using quiet technology 
aircraft. Many of the most scenic routes that have been eliminated by 
NPS/FAA regulations could easily be used by quiet technology aircraft.
    Recalculate the base year for flights to determine a fair and 
equitable baseline of operations. Rather than using the 1997-1998 time 
frame which was the worst year in modern-day Grand Canyon air tour 
history, adopt the same formula as recommended by the National Park 
Overflights Working Group (NPOWG) and which is contained in the same 
Act referenced above which is:
    The average number of flights used by an operator within the 
previous 12-month period; or,
    The average number of flights per 12-month period within the 
previous 36-month period.
    A third alternative which has been discussed would be the average 
number of flights per company of the three highest years as calculated 
during the previous ten years.
    Link morning and evening flight curfews to the actual hours of 
sunrise and sunset throughout the year as the original NPRM proposed. 
The curfews which were implemented have no direct correlation to actual 
sunrise and sunset and have cost operators upwards of 20 percent of 
their customers.
    Go back to the drawing board and rework the routes from Las Vegas 
to the Grand Canyon and ``loop'' routes flown by operators based at the 
GCNP Airport.
    In 1987, then Assistant Interior Secretary Bill Horn, in 
interpreting the original Overflights Act, said ``Congress intended to 
provide for the use of sightseeing aircraft . . . seeing the [Grand 
Canyon National] Park from the air is enjoyed by many Park visitors . . 
. The recommendations allow for air tours of 30 minutes or more that 
encompass spectacular portions of the Canyon.
    The current re-routing of air tours in the Grand Canyon, 
particularly those flying from southern Nevada, reduce actual flying 
time over the Grand Canyon to anywhere from two to 10 minutes and the 
most scenic portions of the Canyon--the ``spectacular portions'' 
referred to by Mr. Horn--are no longer even visible to air tour 
visitors.
    Already the Bush Administration has stepped into the issue of the 
snowmobile ban in Yellowstone by agreeing to negotiate a settlement on 
a lawsuit and issuing new proposed regulations. They also have weighed 
into the Clinton roadless policy. We seek the same review by the Bush 
Administration of past Clinton policies severely restricting air tours.
    Mr. Chairman, access to America's national parks is a right 
guaranteed to all citizens. The 1916 Organic Act provides the Park 
Service with the responsibility to provide for the enjoyment of our 
national parks--in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations.
    Air touring is the only recreational activity we know of which 
absolutely supports this Park Service mission. Air tour visitors do not 
trample through the wilderness, break tree limbs, kick rocks, disturb 
wildlife, destroy natural vegetation, erode the soil, disturb historic 
ruins, remove artifacts, start camp fires, leave waste and garbage 
along the trails, or, for that matter, use our national parks to 
smuggle marijuana which apparently is the case with some of our 
backcountry friends in southern Arizona at Oregon Pipe Cactus. They 
simply fly over, take a few pictures, and leave without ever having 
touched a thing? Perhaps, if the Park Service would loosen the reins a 
bit, they could enlist the air tour industry to help keep an eye out 
for drug smugglers as they fly over the Canyon!
    Stephen T. Mather, the first director of the Park Service and for 
whom a scenic overlook at the Grand Canyon is appropriately named 
said-- The parks do not belong to one state or to one section .. . the 
Yosemite, the Yellowstone, the Grand Canyon are national properties in 
which every citizen has a vested interest; they belong as much to the 
man of Massachusetts, of Michigan, of Florida, as they do to the people 
of California, of Wyoming, and of Arizona.
    I'm afraid Director Mather's words ring quite hollow in today's 
regulatory environment which seems to place more emphasis on keeping 
people out as it does letting people in.
    Thank you, Mr. Chairman.
                                 ______
                                 
    The Chairman. Thank you, Mr. Bassett.
    Mr. Mackey?

STATEMENT OF CRAIG MACKEY, PUBLIC POLICY LIAISON, OUTWARD BOUND 
                              USA

    Mr. Mackey. Good morning, Mr. Chairman and members.
    My name is Craig Mackey and I represent Outward Bound USA, 
a nonprofit institution and a leader in experiential education. 
Outward Bound taps the educational value of wildlands to teach 
young people leadership, self-reliance and citizenship skills.
    Utilizing the solitude, adventure, and challenge inherent 
to wilderness and public lands, Outward Bound presents young 
people and adults with opportunities for personal growth and 
value-forming experiences.
    I speak to you as an educator but also as an outfitter. 
Outward Bound is the largest holder of Federal land and water 
access permits in the country.
    Today, I want to impart three messages.
    First, let's take the recreation out of the recreation 
opportunity spectrum. We utilize and visit public lands for a 
variety of reasons. Not all nonconsumptive human use is 
recreation.
    Second, educational and outfitter groups are but a small 
portion of use in the wilderness and public lands, but we play 
a key role in meeting demand for quality visitor services from 
a broad cross-section of America. In doing so, we meet broad 
societal needs.
    Third, key elements for the visitor opportunity spectrum 
are in jeopardy, the reason for the hearing today. For Outward 
Bound, wilderness and public lands are our classroom. Today, 
our ability to access that classroom is in question.
    Group size restrictions, allocation caps, itinerary 
controls, and zoning of the backcountry all impact our ability 
to deliver quality programs.
    Finally, limiting supply increases prices. Limited access 
and rising costs are narrowing participation, particularly for 
youth and those with special needs.
    I want to be clear that Outward Bound is a historical and 
significant user of public lands. We have little reason to 
complain. And we voluntarily alter our own use to limit 
impacts.
    But most disturbing are management trends and philosophies:
    <bullet> LPark Service wilderness with a group size of six 
or seven.
    <bullet> LNational Forests trail heads where dozens of 
educators and outfitters are blocked out or compete for daily 
quotas as low as five or seven.
    <bullet> LA ``closed'' sign on a Fish and Wildlife refuge 
because a local manager didn't know people were allowed in 
wilderness.
    <bullet> LLetters from Outward Bound alumni dropped from a 
Park Service planning process because they were solicited by 
our organization.
    Public lands host a range of opportunities and values. That 
concept is being lost. Not in Washington but in the field.
    Many would argue we have a capacity crisis on public lands. 
I would submit the capacity problem is in the field office. 
Wilderness areas that a decade ago had 15 rangers today have 
one or two.
    Lack of staff, budget, and training for the field are 
resulting in a command and control paperwork approach to 
management. Litmus tests and rules have replaced collaboration 
and communication.
    We are losing adaptive management, interpretation, and 
education. We can fix the problem without locking up the land.
    First, philosophy. Congress and the agencies need to 
reestablish the proper opportunity spectrum. The agencies have 
taken significant steps on the ecological and biological 
benefits, even working jointly across ecosystems and 
watersheds. We need to do the same for people.
    With proper direction and management, there is room out 
there for everyone.
    Second, training. Today, we have biologists managing 
outfitter permits. Visitor services need to be fully addressed 
up and down the agencies.
    Third, funding for the field. Educators and outfitters pay 
fees, lots of fees. Either more groups and people need to pay 
fees or Congress and the agencies need to appropriate dollars 
to the field.
    Fourth, I would mention planning. Local communities, 
regional and national constituencies, such as Outward Bound, 
need to be engaged in collaborative, open, and honest 
decisionmaking.
    Fifth, education and engagement. Let's give credit to the 
American people; we will protect these public resources if 
given the what, where, why, and how. Give grassroots education, 
like Leave No Trace, an honest shot to supplant capacity 
quotas.
    And finally, I would mention the private sector. Today, an 
urbanized and diverse America looks to public lands for diverse 
reasons. As agency capacity declines, educators, outfitters, 
and guides play an important role in exposing, educating, and 
engaging Americans, and particularly the special populations 
among us, in the enjoyment and protection for these resources.
    The recognition of, first, the opportunity spectrum on 
public lands and, second, the role of the private sector in 
providing that spectrum are significant steps in resolving 
access concerns.
    Thank you.
    [The prepared statement of Mr. Mackey follows:]

  Statement of Craig Mackey, Public Policy Liaison, Outward Bound USA

    Mr. Chairman and members of the committee, Outward Bound 
appreciates the opportunity to testify today about the importance of 
recreational access to public lands.
    My name is Craig Mackey, and I represent Outward Bound USA, a non-
profit educational institution recognized as a leader in wilderness and 
experiential education. For over 40 years, the Outward Bound system has 
teamed with America's wild lands to provide adventure-based education 
to young people, adults, and families. Today, the system is comprised 
of five wilderness schools and two urban centers, serving over 30,000 
students annually. In addition, Expeditionary Learning Outward Bound 
has now taken the mission and methods of experiential learning to the 
core curriculum of over 80 public school systems in the United States.
    Outward Bound's extended backcountry expeditions draw upon the 
natural, historical, and cultural values found on our public lands, 
particularly the purity of those values as they exist in wilderness 
settings. Our concept remains true to the nautical meaning of ``outward 
bound : a ship is said to be outward bound as it leaves its moorings, 
committing to a journey on the open sea. Here, on the open waters or in 
the heart of the forest, Outward Bound instructors teach leadership, 
personal development and outdoor skills. Simply put, these wild places 
are our classrooms.
    Outward Bound has dealt with an astonishing array of policies and 
regulations related to access, itineraries, resource protection and 
performance evaluation for educational activities conducted on Federal 
lands. For several decades, the Outward Bound system in the United 
States has been the largest single holder of permits for outfitted 
activities, spanning scores of Federal land and water management units 
in 25 states.

Commercial Use on Public Lands
    I speak to you today as a non-profit educator, but I am also 
speaking to you about Outward Bound as a commercial user of Federal 
resources. As a nonprofit outfitter and guide operation on Federal 
lands, Outward Bound's logistical and regulatory requirements, and our 
potential impact on these resources, are no different than those of our 
for-profit colleagues in the outfitter industry. For all of us, it is a 
privilege to engage in this opportunity to make an important 
contribution toward meeting the recreational and educational 
expectations of the American public.
    Outward Bound values this partnership with Federal land managers. 
Overall, we support policies that control access to Federal lands, 
though I'm here today to argue about the details. We believe that the 
public's use and enjoyment of these resources must be subject to 
restraints in order to sustain our resources and benefits such as clean 
water and healthy watersheds. As an accountable user of public 
resources, Outward Bound should be obligated to protecting natural 
resources in areas where we operate; providing for the public health 
and safety; and paying an equitable share of the agency's cost of 
administrating recreational and educational programs.
    Through these partnerships with land managers, Outward Bound hopes 
to preserve and protect the concept of the outdoor classroom for future 
generations. In these settings, we are privileged to nurture an ongoing 
constituency that will continue in each generation to press for clean 
waterways, healthy forests, and sustainable management practices, 
whether those decisions are made locally, regionally, or nationally.
    St. Bernard de Clairvaux spoke to this opportunity for self-renewal 
in an earlier century: ``Believe one who knows; you will find something 
greater in woods than in books. Trees and stones will teach you that 
which you can never learn from masters.''
    At the bottom line for all of us who guide groups into the 
backcountry, it's all about access. In greater and greater numbers, the 
public wants to be there. Some want to feel and taste and smell at 
their own pace, depending upon their own skills and equipment for safe 
journey. Some will be seeking an intense educational experience, such 
as is offered by Outward Bound in its 14- to 83-day wilderness training 
expeditions. Others know little about what they might confront in this 
unfamiliar territory, and so will put their trust in a commercial 
outfitter and guide to provide for logistics, safe journey, and lasting 
memories.
    Trust the public to decide about the kind of experience they might 
choose to enjoy from one year to the next. Purists disparage outfitters 
and guides for ``profiting'' from public resources, but in fact, like 
any other business or institution we must pay the bills in order to 
continue serving the public. The point of my testimony is that we 
should be finding more ways to provide the public with these unique 
opportunities for educational and recreational experiences. We should 
be innovative about providing more access, not less and less as the 
trend has been in recent years.

Diversity
    Purists also disparage outfitters for ``marketing wilderness.'' 
Indeed, Outward Bound is guilty of marketing wilderness, its values, 
benefits and opportunities. We share the sentiments of William 
Wordsworth, who admonished: ``Come forth into the light of things. Let 
Nature be your teacher.
    We believe that the segments of society toward which we have 
targeted much of this marketing will speak to the importance of 
wilderness and other backcountry as a classroom. Absent our marketing, 
it would never have occurred to many of the people who have benefited 
the most from an Outward Bound experience to have sought a wilderness 
setting for personal development.
    The Outward Bound program touches approximately 30,000 Americans 
annually, ranging from age 14 to people in their 70s and 80s. Half of 
these students are open enrollment, signing up individually for 
wilderness education and adventure programs. Another 15,000 students 
come through contract courses where a company or a school may enroll as 
a group, including the professional development/team building exercises 
for which Outward Bound has become noted.
    While Outward Bound and wilderness education are synonymous, many 
of our programs are directed at urban youth in cities such as Boston, 
New York, Baltimore, and San Francisco. These students are exposed to 
the same leadership, self-reliance, and citizenship skills directly in 
the urban setting or through exposure to the natural world by canoeing/
kayaking the Boston harbor or sailing the Chesapeake.
    Outward Bound strives for gender, ethnic, socio-economic and age 
diversity in our programs. To reinforce this mission, the system raises 
over $2 million dollars annually in scholarship money. Scholarships are 
dispersed either as full-tuition or on a sliding scale based on family 
income.

The Outfitted Pubic
    By choosing to visit public lands under the guidance of trained, 
professional instructors, Outward Bound students become members of the 
outfitted public. For many of our students this is their first exposure 
to public lands and certainly to the vast tracts of wilderness and 
backcountry America has to offer. Given the young age of our students, 
parents are looking for the experience and safety offered by 
professional programs such as Outward Bound. Older students come for 
the Outward Bound experience, but also to learn the wilderness ethic, 
stewardship and safety skills that will allow them to be intelligent, 
efficient users of our public resources.
    Given the dramatic decline in agency field staff assigned to 
wilderness and backcountry management, Outward Bound has now become a 
de facto provider of educational, interpretive and safety information 
on resources where we operate. This important role played by outfitters 
and guides, including Outward Bound, was acknowledged by the Forest 
Service in its publication in 1997 of a staff reference entitled 
``Guidebook on Outfitting and Guiding'': <SUP>1</SUP>:
          On the public lands of the United States, and in particular 
        the National Forests, outfitter and guides provide visitors 
        seeking their assistance a quality experience as an extension 
        of the agency's mission. Outfitting and guiding provides a 
        small fraction of the total visitor days experience on the 
        National Forests, but it is an important segment to the 
        visitor, the agency, the resources and the economy of the 
        communities where outfitters are based.
    People want to know more about the wild lands they visit. This 
knowledge makes a difference in their lives. It increases their own 
quality of living. The majority of Americans polled recently by Roper 
Starch <SUP>2</SUP> believe that even the unstructured experiential 
aspects of outdoor recreation play a positive role in reducing various 
key social concerns, such as childhood obesity, parent/child 
communication, and tough social problems such as juvenile crime, 
underage drinking, and illegal drug use. Lessons learned in wilderness 
make us less tolerant of urban decay when we return home, and more 
prepared to take effective action to improve our communities:
          The importance of recreational use as a social force and 
        influence must be recognized and its requirements met. Its 
        potentialities as a service to the American people, as the 
        basis for industry and commerce, as the foundation of the 
        future economic life of many communities, are definite and 
        beyond question.
                                Robert Y. Stuart
                                Forest Service Chief, 1928-33

    Who will teach these important lessons to visitors to public lands? 
Not the agencies. Too few personnel in the field and an overwhelming 
workload have distanced rangers from their role as hosts in parks, 
forests, and on public lands. Agency personnel simply cannot reach out 
to each of the millions of families and individuals who visit each 
year. Face to face interpretive talks in visitor centers are an 
important component of the educational effort, but these are not the 
same opportunities to educate as those teachable moments that occur 
from one minute to the next on an extended outfitted expedition.
The Recreation Opportunity Spectrum
    In both our formal and informal roles as outdoor educators, Outward 
Bound taps into the solitude, risk, challenge, and adventure offered by 
dispersed, backcountry and wilderness venues. As such, our program 
anchors one element of a very diverse range of experiences and 
opportunities offered on public lands.
    Laws and regulations that govern the public's use and enjoyment of 
Federal lands are replete with references to promoting multiple use 
within a range of natural and developed settings. Nonetheless, the 
primary and overriding statutory obligation for each of the Federal 
land management agencies is the protection of the natural resources 
that support this variety of uses. It is not surprising, therefore, 
that lawmakers began in the latter part of the 20th century to provide 
authority for setting limits on use. For example, the General 
Authorities Act of 1978 <SUP>3</SUP> requires all park units to have a 
general management plan (GMP). One of the required elements in GMPs is 
the ``identification of implementation commitments for visitor carrying 
capacities for all areas of the unit.''
    The need to decide where and how visitors might pursue diverse 
recreational interests in an increasingly crowded landscape has led to 
the development of several methodologies for measuring and analyzing 
user activities and preferences. One such method is called the 
``recreation opportunity spectrum'' (ROS). This system categorizes land 
into classes, each being defined by its setting and the probable 
recreation experiences it provides. Settings are defined in terms of 
their remoteness, naturalness/authenticity, type and degree of facility 
development, intensity of use, evidence of use, type of use (e.g. 
motorized vs. non-motorized settings), and visitor services available. 
For example, popular tourist destinations on public lands in the 
western states are commonly classified by agency planners into a mix of 
``primitive,'' ``semi-primitive non-motorized,'' ``semi-primitive 
motorized,'' ``roaded natural,'' or similarly descriptive 
classifications, each offering the diverse kinds of recreational 
opportunities these nametags suggest.
    Well before the formal development of the Recreation Opportunity 
Spectrum, congressional crafters of the Wilderness Act <SUP>4</SUP> 
recognized and reinforced this concept of differing values and 
differing uses of lands set aside for protection. Motorized and 
extractive activities in wilderness areas were prohibited by the 
wilderness statute, but the statute otherwise suggests that a variety 
of ROS classes may be appropriate in a wilderness setting:
          Sec. 4(b). Except as otherwise provided in this Act, each 
        agency administering any area designated as wilderness shall be 
        responsible for preserving the wilderness character of the area 
        and shall so administer such area for such other purposes for 
        which it may have been established as also to preserve its 
        wilderness character. Except as otherwise provided in this Act, 
        wilderness areas shall be devoted to the public purposes of 
        recreational, scenic, scientific, educational, conservation, 
        and historical use.
    Recreational opportunities to be provided are further refined by 
application of a key component of ROS methodology, the measurement of 
People At One Time (PAOT). The ROS system uses PAOT to measure and 
compare the number of recreationists and the likelihood of social 
encounters in an area at one time. Analysis is based upon the principle 
that as the number of people and evidence of human use increases, 
opportunities for solitude decrease.
    Determining basic ROS land classifications and factoring in the 
impact of social encounters within these areas is by no means an exact 
science. ROS values can be interpreted in many different ways, which 
inadvertently invites land managers to insert their personal values 
into the process. As early as 1993 the Forest Service acknowledged that 
the method by which party size limitations were being established had 
begun to upset the general public and particularly the outfitting 
industry. In a letter to Regional Foresters, Chief F. Dale Robertson 
described factors that needed to be considered before establishing 
party size limitations <SUP>5</SUP>:
        1. LIs there a valid social or resource need established 
        through some analysis process that necessitates a party size 
        restriction for protection of the resource?
        2. LIs it necessary to establish party size limitations or can 
        identifying the desired condition, requiring compliance and 
        monitoring, suffice? (Similar to monitoring grazing 
        utilization)
        3. LHas outfitter economic viability been considered? If you 
        have identified a need for outfitted services, what are the 
        economic factors for a successful operation?
        4. LHas historic and local use been considered and is a 
        transition to a more appropriate party size necessary?
        5. LCan the limitation be flexible enough to deal with changing 
        outfitted operational needs, changing conditions, and improved 
        techniques, equipment, and technology?
        6. LWill the restriction unnecessarily limit equal 
        opportunities for all people to visit the National Forests?
        7. LHas adequate public involvement taken place so that 
        affected publics feel informed and involved?
    Chief Robertson's letter can easily be interpreted as a caution to 
his field staff against unnecessarily narrowing commercial and 
noncommercial recreational access to forest resources. Yet little more 
than four years later, one of the agency's most respected resource 
managers stated in a presentation on Determining Visitor Use Limits 
(Capacity): <SUP>6</SUP>
          Thus, the question is not whether or not limits are necessary 
        but rather what setting should this area provide and what 
        should use limits be based on.

The Narrowing Spectrum
    Demand for human use and enjoyment of our recreational resources 
has been growing at an unprecedented rate over the past two decades. As 
demand increases, law, science, and management philosophy are pulling 
us in the direction of narrowing the recreation opportunity spectrum.
    Attempts have been made to eliminate some activities altogether, 
such as the use of fixed anchors in wilderness. Controls over sports 
involving motorized watercraft and vehicles are increasingly strict. 
Primarily, though, managers are adopting party size restrictions, and 
the allowable group size is getting steadily smaller.
    In all of this debate about ``What activities are appropriate, and 
how much recreation is enough?'' some very important distinctions have 
been lumped together. Not all non-consumptive human use on public lands 
is for recreational purposes, but in order to keep the count simple and 
convenient, agency planners lump together every visitation under the 
Federal recreation program.
    Americans also gravitate toward wilderness and public lands to 
satisfy educational, scientific, spiritual, artistic, therapeutic, and 
a host of other needs. As the American population continues to grow and 
diversify, the range of activities, opportunities, and values to which 
we look to our public lands are growing and diversifying as well.
    Yet, in the management of Federal resources--and particularly in 
Wilderness--we're seeing more and more restrictions on the number and 
types of activities and opportunities being made available to all 
categories of visitors. From a random reading of the literature, it is 
easy to conclude that the argument about how many people should be 
allowed to enjoy wilderness arose even before the wilderness system 
that we know today was fully launched. Now a larger population feels 
the need to make connections to these wild places, and this seems to 
have put new feet under a debate that began early in the last century.
    Bob Marshall, a founding father of the National Wilderness 
Preservation System, had an appetite for protecting big, unfettered 
spaces. His goal in the 1930s, when he worked for the Forest Service in 
Montana, was to set aside areas where a person could ``spend at least a 
week or two of travel...without crossing his own tracks.'' Initially, 
Marshall disagreed with Olaus Murie, another of wilderness' founding 
fathers, who thought that visitors to the backcountry should be limited 
to keep down the number of facilities required. On a hike with Joel 
Hildebrand, then the president of the Sierra Club, Marshall encountered 
53 people on the trail. The experience changed his thinking, and over 
60 years ago Marshall became one of the first Forest Service field 
staff to research the carrying capacity of wilderness areas. Before his 
untimely death in 1939 at age 38, Marshall and friends founded The 
Wilderness Society, and he served as the organization's first 
president.
    I offer this brief historical snapshot because I think it's 
important to understand that controlling the number of people who use 
and enjoy backcountry is by no means a new issue, nor is it exclusively 
a scientific debate. The debate is in part philosophical, and it is 
deeply rooted in the origins of wilderness itself. All of the key 
players were debating the same issues in the 1930s that we are 
discussing in this hearing today.
    The terminology agencies use today to describe the need and 
justification for these restrictions is grounded in the biological and 
social sciences, but the underpinnings that arise from the 
philosophical debate continue to guide public debate and the decisions 
made by managers. Reductions in use are accomplished through a variety 
of restrictions:
    <bullet> LCaps on number of launches, groups, individuals or 
similar measurements
    <bullet> LCaps on number of permits or the number of users overall
    <bullet> LGroup size limitations
    <bullet> LItinerary controls
    <bullet> LZoning of the backcountry
    The trend toward reducing access and use results from a number of 
factors, some of which reflect the preferences and expectations of user 
groups and society in general, and some of which reflect the management 
philosophies of agency leadership:
    <bullet> LAn increasing focus on the Federal estate as the 
cornerstone for biodiversity protection--an elevation of biocentrism, 
as opposed to anthropocentric management philosophies and objectives.
    <bullet> LSevere lack of funding for on-the-ground field staff, 
resource management, education and interpretation. A wilderness area 
that had a dozen or more wilderness rangers for the summer season a 
decade ago is now budgeted for one or two.
    <bullet> LLack of staff in the field is resulting in a ``command 
and control'' paperwork approach to managing people and the resource. 
These professionals have been forced to forego face-to-face 
collaboration and constituency building through adaptive management, 
interpretation, and education.
    <bullet> LAgency leadership routinely points to the diversification 
of American society and the need to reach out to educate and engage 
these new, younger generations of Americans. Unfortunately, there is no 
real depth to the implementation of that commitment. In the field, very 
little effort or innovation is resulting in facilities and activities 
to attract these young people, and their access to traditional 
recreation programs is becoming increasingly limited and increasingly 
costly.
    <bullet> LBoth Congress and agency leadership have reaffirmed in 
the last few years the need for outfitters and hospitality 
concessioners, educators, and other service providers as increasingly 
important, cost effective partners in the delivery of quality visitor 
experiences. Field managers don't share this enthusiasm for commercial 
services on public lands. Planners and permit administrators have 
become increasingly hostile toward their recreation service partners in 
the last decade.
Recent Data and Management Theories
    So many management plans are under revision right now that it's 
nearly impossible to gather a complete point-in-time report about use 
restrictions that currently exist, or might be contemplated in the 
future. However, research about wilderness party size regulations 
conducted by Christopher Monz and his colleagues was released recently, 
and offers many important insights into the process and the 
consequences of controls. <SUP>7</SUP>
    Mr. Chairman, in the time available I am only able to mention a few 
of the highlights found in this study. The individual work of many 
prominent scientists is footnoted in this document, and they should be 
properly credited for their insights. I'd like to ask that the document 
be placed in the hearing record.
    In this study, Monz describes the trend toward limiting party size 
over the last two decades:
          In one of the first surveys of wilderness managers, Fish and 
        Bury (1981) found that 46% of all Forest Service and 43% of all 
        National Park Service wilderness managers had limited maximum 
        group size. Washburne and Cole (1983) found that 48% of all 
        wilderness managers had placed a limit on group size and that 
        the percentage of Forest Service wilderness areas with such 
        limits had increased to 58%. Marion and others (1993) surveyed 
        National Park Service wilderness and backcountry managers in 
        the early 1990s and reported that 62% required groups to limit 
        their size.
    Since 1981, according to follow-up surveys conducted by Monz, group 
size limits in wilderness managed by the Forest Service have grown from 
46% to 73%, and in the National Park System from 43% to 68%. Let me 
mention that lands and water managed by these two agencies support the 
overwhelming majority of commercial and institutional group use 
operating under Federal permits or other access rules.
    The numbers reflecting similar controls on party size at wilderness 
units of the Fish and Wildlife Service (currently 11%) and the Bureau 
of Land Management (17%) are much lower. Monz suggests that these 
differences likely reflect the differing recreational use levels and 
management philosophy/objectives of the four agencies. Unfortunately, 
these lower numbers also have the effect of making statistics that 
report on the aggregate increase in use controls in all agencies over 
time appear less significant (from 48% in 1983, to 51% in the Monz 
survey).
    He also learned that about 17% of the areas surveyed plan to change 
or create new limits within the next five years; 6% are unsure whether 
controls are needed and will see what results from public involvement 
and research; and the remainder (26 areas) plan to establish a limit 
sometime in the future.
    The results of this survey tell us a great deal about the direction 
in which land managers are moving, but one needs to look more closely 
at specific sites. The problem isn't simply that controls exist, but 
that desirable levels of control enacted in earlier decades are now 
being made more strict.
    For instance, Monz reported on a survey done in 1971 that found 
visitors in the Boundary Waters Canoe Area were limited by a party size 
restriction of 15 people. Some 62% of canoeists surveyed at that time 
said they supported this limit. Over time, however, the limit at 
Boundary Waters has been reduced to nine people per party, changing the 
dynamics and economics of most outfitted and institutional operation. 
Agency managers are now proposing to shave that number down to seven, 
and ``controversial'' is an accurate description of the reaction from 
user groups.
    Overall, the trend toward downsizing organized group trips is 
dramatic. Monz reported on an analysis in 1981 of previous data. Group 
size limits ranged from 5 to 60. The most common limit was 25. New data 
produced by Monz shows that the most common group size limit today is 
10; the median is 12.
    Monz notes that at least one leading scientist who has been 
examining the impacts of party sizes for several decades has concluded 
that ``party size limits larger than about 10 would likely have little 
social or ecological consequence.'' In other words, small is generally 
better from the standpoint of resource protection and achieving 
solitude, but as Monz points out, it's not altogether that simple.
    Monz describes important tradeoffs when allowable party size is 
reduced:
          Minimizing ecological and social impacts, while of 
        fundamental importance, is just one goal of wilderness 
        management. Optimizing this goal may conflict with other 
        important goals, such as pursuing equity in decisions about 
        access and avoiding the exclusion of organized groups that 
        provide important societal benefits.
    Monz also describes important reasons why the assumption that 
``small is better'' isn't necessarily, or consistently, valid:
    <bullet> LIn interactions between nordic skiers and elk, the 
animals were startled at the passage of the first skier but it was 
irrelevant how many additional skiers passed by thereafter. This 
suggests that a few large groups would have less impact than many small 
groups, since there would be fewer skier-wildlife interactions overall.
    <bullet> LLarge groups are not likely to increase either the area 
or magnitude of impact if the already impacted places where they walk 
and camp are large enough to accommodate them. Conversely, large groups 
will have much more impact than numerous small groups if already 
impacted sites are not large enough to accommodate large groups.
    <bullet> LTotal amount of visitation, season of use, visitor use 
patterns, types of activities, availability of resistant substrates for 
campsites and geographic features to name a few, can play a role in the 
degree of compromise required for meeting competing stakeholder 
demands.
    <bullet> LIn those wildernesses where visitors have been queried, 
only about 20% to 30% say seeing large groups was at least a slight 
problem and very few say it substantially detracted from the 
experience. In the Teton Wilderness, 29% reported that large groups 
lowered the quality of their experience, but 12% said such groups added 
to their enjoyment.
    <bullet> LIn assessing the severity of the ``large group problem'' 
on wilderness experiences, it's also important to determine how it 
ranks against lists of other potential problems. One such study 
examined the top ten perceived problems out of 42 listed for Linville 
Gorge, Shining Rock, and Joyce Kilmer/Slickrock, and encountering 
excessively large groups was not on the list of top 10 problems in any 
area.
    <bullet> LSurveys of wilderness visitors at several locations 
indicate substantial support (75% or more) for party size restrictions. 
However, Monz notes, some have speculated that the reason most 
wilderness visitors generally support group size limits is that they 
bear none of the costs associated with this regulation. Since most 
wilderness user groups include two, three, or four persons and most 
established size limits are much higher, these limits leave the 
majority of visitors unaffected.
    Several findings in Monz's survey of agency managers confirm our 
suspicions about the underlying motivations that are driving agency 
managers toward restrictions on group size. Respondents were presented 
with seven reasons for establishing group size limits, and there was 
opportunity to provide open-ended responses as well. Not surprisingly, 
Monz reported, environmental impact was the most frequently listed 
reason (81%) for establishing group size limits.
    Monz was surprised, however, that the second most frequently 
selected reason, at 50%, was ``to be consistent with neighboring 
wilderness areas.'' This collective confession did not surprise 
outfitters and guides. It simply confirms what is so often offered by 
agency managers as justification for new carrying capacity studies and 
reductions in use: ``Everybody's doing it.'' What began many years ago 
as a legitimate trend in land management has today become simply 
``trendy.
    Monz is more academically restrained in criticizing agency managers 
for their lack of process and science:
          [Consistency with neighboring wildernesses]... is in some 
        respects admirable; it seems wise to present consistent minimum 
        impact messages and management regulations to the public. But 
        not all areas, or zones of area, have similar susceptibility to 
        impact. This also suggests that the wilderness manager may not 
        have carefully evaluated the benefits and costs of group size 
        limits in his or her area.
    Monz also learned from the survey that managers seemed to most 
frequently base their decisions on their own perceptions of resource or 
social impacts. Only 24%, he reported, said that ``public complaints/
pressure'' was a reason for their group size limit. This confirms 
another fear that outfitters share with other user groups. Many of 
these decisions about access and use are being made without public 
participation and, wittingly or unwittingly, many of these decisions 
are deeply colored by the individual values of agency personnel or by 
the perception of peer pressure. Monz also points out the need for a 
formal decision-making framework that incorporates measurements of 
biophysical and social conditions into all of the determinants that 
must be considered in making management decisions about controls on 
access and use.
    Monz's survey also identified the least-used justification for 
controls a factor that is one of the most fundamentally important 
issues for organizations like Outward Bound, the National Outdoor 
Leadership School, Wilderness Inquiry, and an array of university and 
therapeutic programs. Only 6% of all respondents said their actions 
were influenced by conflicts within groups. In one sense, Monz 
suggested, this is not surprising, since neither managers nor 
researchers have focused on within-group dynamics. On the other hand, 
he observed, we know that such dynamics profoundly affect the 
experiences of all groups in wilderness, especially the learning and 
growth outcomes of educational groups. Thus, Monz concludes, managers 
may be unknowingly affecting experiences in wilderness in profound 
ways, for better or for worse, with their group size limits.
    Let me give you several examples of why these findings about 
conflicts within groups are so important in serving that diversified, 
largely younger population I talked about earlier. Our concerns seem to 
be supported by Monz, who said in the study:
          Despite the fact that guided and educational groups represent 
        a small proportion of the total use in wilderness...they can 
        serve broad societal needs.
    Outfitters working with young people at risk for addiction or 
criminal behavior are absolutely unable to provide safe, effective 
therapeutic programs when severe restrictions on party size exist. 
Despite careful screening by doctors and the judicial system for youths 
who are likely to willingly participate and likely to benefit from the 
outdoor classroom approach to therapy, there are higher than normal 
risk factors in these trips. There is also the need for specialized 
staffing over and above the guide staff necessary to carry out trip 
logistics. Popular, more heavily crowded destinations where limitations 
on party size are warranted are not even the venue of choice for these 
therapeutic programs. Their dispute with land managers is this 
``trendy'' notion that limitations on access and party size must be put 
in place everywhere, even when visitation is minimal.
    Chairman Hansen and other members of this committee are quite 
familiar with the work pioneered by Wilderness Inquiry in Minneapolis, 
MN, to provide opportunities in backcountry for people with 
disabilities. WI's executive director, Greg Lais, has expressed many of 
these same frustrations about the trend toward restricting access and 
limiting party size. WI's core activities are conducted in the Boundary 
Waters Canoe Area, but the program needs to move around the country in 
order to bring opportunities closer to home for those less able to 
travel great distances. Temporary access to new areas is a particular 
problem for Wilderness Inquiry. Limitations on party size in the 
Boundary Waters and elsewhere are a nightmare.
    Trips conducted by Wilderness Inquiry require a higher than 
customary number of guide staff as well as specialized equipment. In 
addition, a good number of guests need the services of a personal 
attendant in order to participate. WI tries to keep its trips 
affordable by providing space for attendants at little or no cost. This 
formula doesn't work where party sizes are severely limited, and 
therefore the revenue from paying guests won't spread to cover the 
overhead costs of additional staff and non-paying attendants. In 
imposing a party size limitation that affect the logistics of 
organizations like Wilderness Inquiry, the agencies are shutting down 
opportunities for universal access for people with disabilities.
    I think it's important to mention that making an exception to group 
size limits in order to accommodate people with disabilities is not the 
politically correct solution. Wilderness Inquiry's board and managers 
believe that agencies should adopt the group size limit which will best 
maintain wilderness resource values, that any exception should be made 
only infrequently on a case-by-case basis. Their real concern is the 
frequent failure of agency managers to fully analyze the options 
available to accommodate users. Wilderness Inquiry and other affected 
parties would like to be ongoing participants in that process, and 
further, user groups like Wilderness Inquiry frequently know more about 
the capacity and condition of the landscape than agency managers 
themselves.
    Outward Bound sees the issue of party size limits as a serious 
safety problem as well as a significant impediment to our ability to 
provide the right mix of teaching skills for our students. Where the 
group size limit is 10 or less, it's generally costly and inefficient 
to send eight or fewer students into the field with two teachers. We 
cannot, however, consider cutting the teaching staff to one person per 
small group. Should a weather- or resource-related emergency arise or 
the teacher or a student become ill or injured, the entire group is put 
into serious, potentially life-threatening jeopardy.
    Monz's study and much of the other literature about controlling 
access and limiting group sizes is focused on wilderness settings. It's 
important for the committee to understand that as this trend toward 
ensuring solitude and protecting resources in wilderness gathered 
steam, the trend ceased to be limited to wilderness areas. These 
restrictions are coming into play everywhere on lands managed by the 
National Park Service and the Forest Service. This is also becoming 
true at popular destinations on public lands managed by the Bureau of 
Land Management, to the extent the agency has field personnel available 
to enforce these controls.
    Ironically, many areas managed by BLM and the Forest Service 
contain underutilized recreational capacity. An investment in 
innovative management and marketing could succeed in drawing people 
away from popular park and wilderness destinations where crowding has 
become a problem.
Other Examples of Restrictions on Outfitters
    Overreaching limitations on use and enjoyment of our lands and 
waters become particularly absurd when the hammer is chosen over 
tightening a few screws. One such example has been unfolding in Idaho 
in recent years along the Salmon River in the heart of the 2.4 million-
acre Frank Church River of No Return Wilderness Area:
        <bullet> LSalmon River, ID: ``The Frank Ain't Broke ... Don't 
        Fix It!'' became the rallying cry in 1998 for commercial and 
        private boaters on Idaho's famed Salmon River. At one point 
        whitewater rafts and boats were lined up outside the Statehouse 
        in Boise as river users protested a Forest Service plan to 
        sharply reduce use along a river corridor believed to have 
        concentrated but relatively few impacts from human use or other 
        management problems. Long recognized as one of the best 
        wilderness river trips in the lower 48, the 100-mile float down 
        the Middle Fork of the Salmon is an unforgettable experience 
        for the roughly 10,000 people who make the trip each year under 
        a quota set up by the Forest Service. Another 9,000 boaters 
        face bigger water on the somewhat flatter terrain of the Main 
        Salmon corridor, passing by historic pioneer ranches and a vast 
        array of wildlife.

          The Forest Service struck without warning in late January 
        1998. None of the customary warnings, scoping, or informational 
        sit-downs preceded the release of a Draft Environmental Impact 
        Statement that proposed cutting back river use by 50 percent on 
        the Middle Fork and 30 percent on the main Salmon. Along with 
        fewer launches, commercial party sizes would shrink from 30 
        people per group to 15, and private boating groups would be 
        reduced from 24 people to 10. The DEIS also proposed reducing 
        the number of days each party could be on the river.

          In fact, party sizes likely do need to be reduced, but what 
        was particularly disingenuous about the initial presentation 
        was that the Forest Service tried to convince commercial 
        outfitters that their use wasn't actually being reduced, merely 
        spread over a longer operating season. The agency proposed to 
        compensate outfitters for operating days lost in June through 
        September with an expanded river-running season in late winter 
        and early spring, months when the Salmon River corridor is 
        buried under snow and assaulted by heavy storms, avalanches, 
        and flooding.

          Ultimately the agency withdrew the DEIS and is currently 
        engaged in reworking its river management proposals.
    The situation confronting wilderness user groups in the Inyo and 
Sierra National Forests in California parallels in many respects the 
initial Salmon River proposal to reduce use.
        <bullet> LAnsel Adams, John Muir, Dinkey Lakes Wildernesses, 
        CA: The Final Environmental Impact Statement released in March 
        2001 <SUP>8</SUP> adopts a modified version of Alternative 1, 
        the agency's preferred alternative. This approach, according to 
        the FEIS, ``...attempts to concentrate use and impacts, manage 
        intensively to mitigate these impacts, and manage the remaining 
        majority of the landscape for low and moderate levels of use. 
        This alternative maintains commercial use at current levels; 
        however, some reductions will occur within areas where 
        monitoring of limiting factors indicates that such action is 
        necessary to alleviate impacts. The alternative also strives 
        for equitable use between commercial and non-commercial users 
        by proposing changes to commercial operations on gaining access 
        to wilderness.
    I invite you to read the agency's explanation of potential impacts 
on outfitter operations once again. It is a classic example of 
doublespeak: ``...maintains commercial use at current levels; however 
[emphasis added]...'' The list of ``however's'' that follows could not 
possibly support the contention that commercial use is maintained at 
the current level.
    In reality agency managers have elected to reduce party sizes to 8, 
with the limited opportunity that larger parties might be eligible to 
spread total user days into the next day's quota, should any of that 
quota be available. Rather than eliminating outfitting altogether at 
some locations, as the Draft EIS proposed, the Forest Service simply 
provides no reliable allocation for outfitted use in areas where there 
is low commercial use and/or the desired condition for the area 
prescribes low levels of use. For outfitters, this means it will be 
difficult to reliably serve current demand for outfitted services, let 
alone meet any additional needs of the outfitted public in the future.
    These cuts take place despite the forests' own data that reveal:
    <bullet> LVisitor numbers have declined steadily and significantly 
since the 1970s when this process began. Visitor days on the John Muir 
declined by over 70 percent from 1975 to 1995. Visitor days on the 
Ansel Adams declined by 70 percent between 1972 and 1995.
    <bullet> LCommercial backpacking days are currently operating 40 
percent below agency allocations on the Sierra (according to the plan). 
In fact, commercial backpacking is operating over 60 percent below 
agency prescriptions for resource protection and this plan could 
readily take that number to 10 percent or zero.
    For the sake of brevity, let's look quickly at the structure and 
the allocations made by the new quota system in these three wilderness 
areas. This mechanism will govern all overnight use by groups and 
individuals as well as day use at Mt. Whitney:
    <bullet> LA ``single quota'' system is established for 34 units in 
the Inyo and Sierra National Forest wildernesses, meaning that these 
are areas where there is low commercial use and/or the desired 
condition for the area prescribes low levels of use. Overnight permits 
and Mt. Whitney day use permits will be issued to commercial or 
noncommercial users on some basis yet to be determined. The daily quota 
on entry is 8, 10, 12 or 15 people at each of the various locations, 
for a total of 427 people who are allowed access each day via these 34 
locations. Agency personnel are instructed to monitor these trails to 
assure that commercial use is not precluding non-commercial public 
access to these areas, and that recreation use does not increase 
significantly over time.
    <bullet> LAt 17 other units there will be ``case-by-case itinerary 
approvals.'' According to the FEIS, these are entry points with 
currently low levels of commercial use, no commercial use, or where the 
Forest Service has not identified a compelling reason for commercial 
services to be provided. If commercial use can be accommodated within 
the quota of use provided for each of these units, other restricting 
factors must also be considered before an outfitter itinerary is 
approved. Most of these units allow only 8 or 10 visitors to enter per 
day, but Mt. Whitney day hikes (100 people per day), Mt. Whitney 
overnight stays (60), and Willow Meadow in the Sierra NF (30) are also 
included in this category. Overall, the quotas set for these 17 units 
will support wilderness access for 325 people per day, but nearly half 
are restricted to day-only or overnight use.
    <bullet> LThe outfitted public has been assigned a specific 
commercial allocation to support their access at 30 units, totaling 
access for 387 outfitted guests and their guides per day. The quotas 
assigned at these locations for access for noncommercial visitors are 
generally double the number of commercially outfitted people who are 
allowed access, totaling 683 non-commercial visitors per day.
    The entire planning area involved covers 840,581 acres spread 
across three wilderness areas located both east and west of the Sierra 
Crest. After weighing potential impacts of recreational use and 
enjoyment against the societal opportunities in conducting recreational 
and educational programs, the Forest Service settled on allowing 
permits for access for 1,822 people each day. Broken down, this is 
equivalent to one person per 461 acres of land, or assuming a guided 
party of 8 people, the opportunity for each group to wander unfettered 
through 3,688 acres of solitude without encountering their own 
footprints. Something tells me the crowded urban populations along the 
coast of California were short-changed by the results of this planning 
process.
    National Park Service planning and capacity processes have 
significantly impacted Outward Bound and other educational 
institutions. Following are two examples:
    <bullet> LGates of the Arctic National Park and Preserve, AK: As 
the direct result of a group size cap of seven instituted in the early 
90s, Outward Bound no longer operates in the park. The sheer size and 
vast areas of remote backcountry in the park dictated that two 
instructors be utilized at all times. A ratio of 2 instructors to five 
students was not economically viable or acceptable under the school's 
educational mission. Higher operating costs and reduced revenues under 
the cap limited the pool and diversity of students eligible to 
participate and rendered scholarships infeasible to achieve educational 
and diversity objectives.
    <bullet> LCanyonlands National Park, UT: Canyonlands also 
instituted a group size of seven. Much of Outward Bound's use in the 
park has since been relocated to surrounding Bureau of Land Management 
property. While in the park, Outward Bound patrols are currently 
comprised of six students and a single instructor. As outlined later in 
this document, solo instructing has significant impacts on educational 
efficacy and safety.
    Last year the Forest Service proposed boating reductions on the 
North Umpqua River in Oregon on a much more modest scale. It amounted 
to something resembling a tempest in a small teapot:
    <bullet> LNorth Umpqua River, OR: The handful of outfitters on the 
North Umpqua River in Oregon are provided with a very small amount of 
use, totaling for one company with which I'm familiar only 78 user days 
per season. As is the case on most rivers, private boating is 
unrestricted, but in this case, it is also not a river corridor for 
which demand is great. Flows are unpredictable. Randomly timed water 
releases from facilities upstream pose a threat to all but the most 
experienced private boaters who can afford top of the line equipment. 
The steep, straight sweep of the river itself is unforgiving in the 
event of a flip or a person who falls overboard. In short, it's a great 
whitewater experience when everything is working right, but it's not a 
resource people depend upon for their recreational opportunities. 
Nonetheless, the Forest Service proposed to cut outfitted use by 30% 
about a year ago. The outfitters fussed and asked the river manager to 
take another look at the factors used to justify the reduction. All 
parties are now satisfied with a modest reduction in use that accounts 
for some legitimate safety questions, but the point is in how the 
problem was handled. The agency's unilateral effort to solve a problem 
resulted in an unnecessary amount of stress and consumed the valuable 
time of a relatively large number of people. Once resolved, it was 
obvious that an informal meeting with a couple of the river-runners 
when the problem was first identified would have led to the same 
satisfactory solution in considerably less time. Agency managers need 
to step out from behind the shield of paperwork to deal face-to-face 
with their concessioners and user groups when problems arise.
    Despite errors made in determining carrying capacity limits in some 
areas, there's no question but that controls are necessary to protect 
resources and preserve the quality of the experience at places where 
popularity threatens to destroy the resource. The Smith River in 
Montana is an example:
    <bullet> LSmith River, MT: It is not much of a whitewater 
experience, but the scenery and fishing are world class on the five-
day, 62-mile float. Beginning in 1991, as the Smith River became more 
popular, the Montana Department of Fish, Wildlife and Parks began 
charging fees, limiting the size of groups, restricting the number of 
launches each day and conducting a lottery for permits. In 1998, 
worried about too many people, the department cut back again, from 63 
launches a week to 58. In 1992, almost all the 216 people who applied 
for permits on the Smith were accommodated. In 1997, nearly 4,000 
applications were received. <SUP>9</SUP>
    I can't speak from personal experience about whether the current 
limit on the number of launches and party size on the Smith River are 
the ``right numbers'' but it's easy to conclude that the Smith River 
cannot support all of the demand that is out there. I suspect Federal 
managers are glad to be out of the decision-making loop on the Smith 
because the steps taken by the State to protect this world-class 
fishing hole also act to preserve its mystique. Now an international 
attraction, the competition for permits means that local residents have 
increasingly less access to fishing in their own backyard.
Impacts and Solutions
    Visitor Opportunity: The Forest Service Guidebook on Outfitting and 
Guiding emphasizes that a small but significant portion of the American 
public looks to educators, outfitter, and guides to provide quality 
experiences on public lands. Elimination or curtailment of outfitter 
services significantly narrows the opportunity spectrum for a broad 
cross section of Americans, particularly those life skills and 
experiences are limited to urban areas.
    Safety: For four decades Outward Bound has established the safety 
standards and protocols for the wilderness education industry. These 
standards and protocols have been adopted across much of the rest of 
the outdoor recreation industry. In these four decades Outward Bound 
has utilized two (or more) field instructors in conducting all of our 
courses. The combined requirements of insurance carriers and 
organizational by-laws also require most organizations to utilize at 
least two instructors to minimize liability exposure related to 
accidents or claims of sexual harassment or child abuse. These are the 
unpleasant realities, but issues related to safety in an outdoor 
setting are especially serious. Unfortunately, for most, if a group 
size limitation as low as six, seven or eight people is imposed by 
agency managers, the pressure to send out solo instructors--or split 
large groups in half with solo instructors--is significant.
    Educational Efficacy: Outward Bound is chartered as a non-profit, 
educational organization. Our staff of trained instructors work from 
established curricula toward educational objectives. All of this takes 
place in the wilderness classroom. As with any classroom, student to 
instructor ratios are critical to the success of Outward Bound's 
educational mission. In smaller groups--six, seven, eight--instructors 
dominate, and the students often fail to feel or achieve the degree of 
independence necessary to build personal, leadership, and teamwork 
skills.
    Conversely, educational paradigms fail when groups become too 
large. In groups of 15 or more, social and educational dynamics shift 
as smaller groups or ``clicks'' naturally form, breaking down desired 
interaction between students and with instructors.
    Diversity: As discussed, America has become an increasingly diverse 
and urbanized society. New generations of Americans are increasingly 
less likely to make parallel connections to the natural world, or to 
outdoor recreation on public lands where ``facilities'' are not the 
primary recreational venue. The leadership of the Federal land agencies 
has certainly grasped this concept. National conferences and training 
sessions, led by the agencies and by the NGO community, have attempted 
to address the gap that is widening between Americans and their public 
lands.
    The fact that many first experiences on public lands and in 
backcountry occur through the facilitation of organized groups and 
institutions is no secret. This includes scouts, kid camps, churches, 
educators, and outfitter and guide activities focused on kids and 
families. For many groups, working with diverse, urban, disabled, ``at 
risk'' or other segments of the populations is part of their core 
mission. Sadly, it is this kind of organized group activity that has 
become the primary target of agency controls on access, group size, and 
itinerary. When these controls are unneeded or unreasonable, these are 
the first set of user groups to suffer the consequences.
    Increasing Costs for the Consumer: Basic economics dictates that 
restricting supply will increase price. All businesses and 
organizations, regardless of for-profit or non-profit status, must 
cover their costs and put money aside to replace worn equipment. As 
group sizes decrease, the increase in per capita costs leads inevitably 
to the need to increase fees or, conversely, cut the quality of goods 
and services provided. Increases in fees, which is the only alternative 
responsible outfitters and educators will consider in order to make 
ends meet, inevitably alter the mix of participants. The recreational 
and educational opportunities offered become unaffordable for many of 
the people who would most benefit from the experience.
    For non-profit organizations like Outward Bound, providing 
education to diverse groups of young people in wilderness settings, or 
Wilderness Inquiry, providing unique opportunities for personal growth 
to people with disabilities, this kind of economic pressure can change 
fundamental, core missions.
    Declining Revenues for the Agencies: Educators, outfitters and 
guides, camps, and other permittees who organize and guide groups pay 
fees for the privilege of operating on Federal lands. Typically, more 
than one fee is levied against the service provider and each 
participant. These may take the form of an annual operating or 
franchise fee; a per person/per day charge for each visitor; entrance 
fees; parking fees; or backcountry permit fees. Under cost recovery 
provisions, agencies are also required to recoup the cost of processing 
permit applications, administering commercial activities, and 
monitoring impacts directly connected to these activities. Additional 
fees may also be charged at some areas under the Recreation Fee 
Demonstration Program. As the ``era of accountability'' continues to 
unfold, the scouts, churches, universities and other nonprofit or 
charitable organization who sponsor group trips may also be required to 
pay some or all of these fees.
    Because most wilderness educators and the outfitters and guides 
operate under permits and controlled itineraries, their level of use is 
known and the cost of collection of the fees they pay is negligible. 
They contribute significantly toward the bottom line that represents 
agency costs in administering these programs. Except for areas where 
entrance fees or Fee Demo charges are collected, the general public 
pays few or no fees. Unfortunately, as group use declines or is 
eliminated significant revenue will be lost, and it is unlikely that 
the general public will acquiesce to making up the difference.
    At the bottom line, it's all about money. ``Collateral duties'' are 
increasingly common in the field. Biologists are administering 
outfitter permits. The increasing demand for recreation administration 
and management must be recognized and staffed accordingly, including 
professional training.
    Sufficient funding for all aspects of recreation management is 
simply not available in the field, and it is particularly galling that 
``recreation'' funding is the mask behind which the agencies also lack 
money for education, the needs of special populations, and the 
opportunity to diversify traditional programs to attract future, more 
diversified generations. Programs like the Recreation Fee Demonstration 
Program are helpful bandages that are propping up some areas, but in 
the meantime we are proceeding to shut down the some of the arteries 
and facilities that are important to other user groups and gateway 
communities.
    I recognize that this committee is not responsible for the flow of 
money to the land management agencies, but you can exert considerable 
influence on your colleagues at the appropriations committees and upon 
public opinion back home in your congressional districts. Any 
perception that ``recreation'' on public lands is merely fun and games 
provided at public expense is a bad notion. Human health, the human 
psyche, a challenging climate in which addiction and antisocial 
behavior can be cured are societal benefits lumped into this 
programmatic basket. We've thrown money at school construction and 
educational grants and been disappointed in the results. Talk has 
turned now toward year-round classrooms, and I'd like to suggest that 
the most consistently successful classrooms were built at the beginning 
of time. Properly managed, the teachable moments provided by these 
outdoor classrooms are infinitely sustainable and unquestionably 
successful. Do your personal best to assure a level of appropriations 
that allows the agencies to allow organizations like Outward Bound to 
continue to pull these kids out of the inner cities and help them see 
themselves as responsible citizens.
    Bias Against Group and Commercial Use: There has evolved within the 
agencies over the last decade or so a culture that believes organized 
group use of public lands, specifically commercial use, is 
unacceptable. The vestiges of this thinking are as old as dirt itself, 
but the difference in this era is that it's now apparently ``OK'' 
within the agencies to talk out loud in public about personal 
prejudices against specific user groups, and to act upon these 
prejudices.
    A number of factors contribute toward situations in which these 
attitudes prevail. Agencies like the Forest Service and BLM have lost 
perspective about statutory obligations imposed by Congress to manage 
for multiple use. Wilderness is certainly an important element among 
these multiple uses of resources, but so are recreation and education, 
whether these activities occur in wilderness or non-wilderness 
settings.
    More training is needed to refresh the knowledge of key field staff 
about the diverse range of values and opportunities available on 
Federal lands. It was discouraging to hear recently that 36 years after 
the passage of the Wilderness Act, a USFWS refuge manager was found to 
have closed all access to a wilderness area because she ``did not think 
people were allowed in wilderness.'' Managers need to look once again 
at the importance of visitors and the role and value of educators, 
outfitters, and others who provide structure for the services visitors 
need and expect. It's not OK for agency managers to continue to 
publicly bash and deride these commercial services, let alone exclude 
visitors. Upper management in each of the agencies need to make these 
responsibilities clear once again to field staff, not merely as 
``responsibilities'' but also as opportunities that can vastly increase 
the constituency that supports resource protection. It's always a 
balancing act, but finding that balance is always worth the effort.
    Public Participation in Planning: This bias against commercial 
services is most evident in the planning process. Recently, Outward 
Bound attempted to contribute its thoughts about a formal backcountry 
planning exercise in one of the national parks. The superintendent 
refused to accept comments from Outward Bound alumni who live in 
various communities across the United States because those comments had 
been ``solicited'' by our organization. If public participation is to 
have real meaning in these planning processes, segments of the public 
cannot be arbitrarily excluded. By not engaging people at every 
opportunity in the management of our grasslands, forests, and parks we 
risk losing these people entirely as full partners in the protection 
and preservation of these resources. Certainly, excluding and offending 
people loyal to the values taught by Outward Bound is a step in the 
wrong direction.
    A Predetermined Hierarchy of Values: We are witnessing an evolving 
focus on biodiversity, at the expense of visitation. Further, 
wilderness agency managers have selected solitude as the value of 
choice at the expense of other aspects of the wilderness statute that 
provides for human use and enjoyment. Unchecked is the perception that 
allowing group visitation in wilderness areas destroys the experience 
of all others who encounter an organized group, despite important 
research that places this issue of group size very low in the priority 
of management issues to be confronted and resolved.
    Managers need to accept the premise that preservation, recreation 
and education can effectively share the stage. The Park Service does 
not recognize recreation as a primary use of the resources it manages, 
preferring instead a subordinated role as ``visitor services.'' The 
nomenclature is interesting, but largely irrelevant. For NPS, it's all 
about protecting resources within the magnificent landscapes it 
manages. For Outward Bound, it's all about connecting the human psyche 
to these magnificent landscapes and fostering the personal growth that 
results from these encounters. Our goals are mutually reinforcing, and 
the NPS and other agencies need to get over their bias that group 
visitation is threatening.
    Impact on Local Communities: As extractive activities have 
declined, local communities have shifted their economies to rely more 
heavily upon tourism. For these communities, dependable income from 
visitors is fundamental to long-term economic viability. Outfitters and 
guides and other concessioners provide the foundation that creates jobs 
and promotes a flow of and services locally. When agency managers 
eliminate or reduce access to lands that they manage, the economic 
consequences trickle down immediately through these gateway 
communities. It's critical that agency managers focus on sustainable 
ecosystems necessary to the long-range viability of tourism, but it is 
equally important that agencies factor in sustainable human use within 
these ecosystems if local rural communities are to survive 
economically.
    Technology Is Replacing Contact With People: In dispersed, 
backcountry/wilderness venues, the educational/interpretive mission of 
the agencies has steadily dwindled, if not disappeared entirely, in 
some locations. This results from a lack of staff and budget. Managers 
are attempting to fill this void through technology, using the Web, the 
Internet, videos and kiosks to impart vital messages to visitors and 
permittees about management and resource protection. The potential 
upside is huge. One forest uses the Web to provide photos of the 
resource and data on use numbers. In advance, visitors can select their 
experience and voluntarily disperse to less utilized areas. However, 
the best technology will never supplant the need for traditional 
education and interpretation--people learn through doing. That is why 
the Leave No Trace program has been so effective in teaching outdoor 
skills and resource ethics. Partnerships such as Leave No Trace, and 
the communication capacities of wilderness educators and outfitters and 
concessioners, can significantly supplement agency educational efforts.
    Accountable Use of Public Lands: We have entered an ``era of 
accountability'' in the use and enjoyment of Federal lands. Simply put, 
the administrative and management protocols that have, for decades, 
been applied to ``commercial'' educators and outfitters and guides are 
increasingly being applied to all group and public use. These include 
requirements for permits, payment of fees, itinerary controls, controls 
on access and amounts of use, insurance requirements, and utilization 
of minimum impact techniques. The purpose is to bring all visitors in 
under the tent as accountable, appropriate users of these public 
resources. As visitor numbers and demands increase, and the presence of 
agency field staff decreases, this push for accountability will 
accelerate and should be supported by Congress. Otherwise, the status 
quo will be preserved a situation in which the agencies really don't 
know how many people are out there on any given day, where they are, or 
what they are doing that might damage resources or have an adverse 
impact on other visitors. Nor are an enormous number of these visitors 
who participate in organized group paying any fees, even though many of 
these trips are commercial in nature. When those of us who are paying 
fees and submitting to controls on use are being asked to reduce our 
use, it is hardly fair that others are being allowed to dodge the 
responsibility of being fully accountable users.
    Reduction in Illegal Outfitting: Illegal outfitting is a 
significant problem. The agency staff available for enforcement is 
limited. The problem is further complicated by the number of legitimate 
group trips that operate without any requirement to have a permit or 
approved itinerary. It is difficult for managers to identify and take 
action against the illegal operators and harder yet to obtain a 
conviction in court for other than violations of the National Park 
Service statute that governs concessioner activities. There are no 
statutes defining legal outfitter activities on lands administered by 
the other agencies. A patchwork of regulations (or lack thereof) 
inadequately differentiate between legitimate outfitters, other group 
trips that are allowed to operate without a permit, and the efforts of 
illegal outfitters to slide between the cracks. Proposed changes in 
Forest Service law enforcement policies that would have, in part, 
addressed the illegal outfitting problem were subsequently withdrawn 
several years ago because of objections to unrelated provisions. 
Congress needs to encourage a solution to the problem of illegal 
outfitting.
    Effective Interpretation and Implementation of Visitor Capacity: 
The Department of Interior is currently spearheading an Interagency 
Task Force on Recreation Carrying Capacity. The goal of the task force 
is to develop the proper guidelines and tools for managers for 
decision-making related to visitor impacts and capacities. The 
underlying philosophy of the Task Force is that visitor capacity is not 
a magic number or solid cap. Rather, determining carrying capacity is 
seen as a tool or marker where, as use or impacts approach identified 
capacities, a range of mitigating management objectives, options or 
prescriptions have been identified for possible implementation. 
Overall, decisions about visitor access and group size should be based 
on solid physical and social science that is factored into the 
consideration of other societal, economic and management factors.
    Developing True Resource Opportunity Spectrums: ``Commercial'' 
operations, groups and the public are being restricted and squeezed out 
of designated Wilderness. For the long-term health of the resource, 
this trend will likely continue. While this fact may not sit well with 
many, significant steps can and should be made to facilitate the 
preservation of Wilderness while promoting wilderness opportunities. 
The answer lies in the identification, preservation and management of a 
spectrum of backcountry venues (Wilderness, roadless, primitive non-
motorized, primitive motorized).
    Groups like Outward Bound are working in cooperation with managers 
of Wilderness and other resources to redesign and relocate educational 
programs to minimize visitor impacts--particularly in heavily impacted 
portion of Wilderness. This process is made easier when contiguous 
tracts of Federal lands are available and suitable for wilderness 
education. Contiguous tracts, similar management schemes and viable 
group sizes will allow groups to ``flow'' in and out of designated 
Wilderness, maintaining access to these premier backcountry settings 
and educational opportunities while preserving wilderness character. 
Prior to limiting capacities, managers should move to coordinate on:
    <bullet> LDefining resource values and opportunities
    <bullet> LThe resource opportunity spectrum and provision of 
opportunities
    <bullet> LDispersal of visitation
    <bullet> LRegional economic impacts and impacts on local 
communities
    Funding for Partnerships Related to Human Use, Recreation and 
Access: A partnership between The National Outdoor Leadership School 
and Colorado State University resulted in the best recent work on group 
size. Other groups like Outward Bound are working in cooperation with 
wilderness managers to redesign and relocate educational programs in 
order to minimize visitor impacts, particularly in heavily impacted 
portion of wilderness and other crowded destinations. Leave No Trace, 
Inc., a non-profit, partner-based organization is leading the way on 
minimum impact skills and ethics. The Student Conservation Association 
is partnering with Home Depot and the agencies to provide fire 
mitigation education on private lands in Idaho. Wilderness Inquiry, a 
Minnesota-based nonprofit, has spearheaded agency training on access 
for people with disabilities on Federal lands. Congress and the 
agencies need to continue to leverage this private sector funding and 
innovative thinking in order to better address concerns about access 
and resource impacts.

Conclusion
    I appreciate very much the opportunity to testify today. Obviously, 
a number of problems, situations and opportunities are weighing heavily 
on the minds of Outward Bound program managers. I'll be glad to answer 
further questions about these situations, but I want to close by 
assuring this committee that Outward Bound's enthusiasm and commitment 
to our mission is undiminished. Each year the lives of thousands of 
young people are made richer by their experience with Outward Bound.
    Most telling is the opportunity to walk through an airport wearing 
an Outward Bound cap. Invariably, you are approached with; ``Outward 
Bound changed my life.'' Indeed, while Outward Bound played a role, it 
was exposure to, engagement with and education within public lands, 
wilderness and the wilderness classroom that so indelibly altered the 
student.
    At Outward Bound, we know the process works. We have witnessed the 
power of the connection between people and the natural world. We 
welcome the opportunity to continue our work in partnership with the 
resource and the people who manage it.
                                endnotes
<SUP>1</SUP> USDA Forest Service, Northern Region. 1997. Guidebook on 
        Outfitting and Guiding. Missoula, MT.
<SUP>2</SUP> Roper Starch. 2000. Outdoor Recreation In America 2000: 
        Addressing Key Societal Concerns. Prepared for The Recreation 
        Roundtable. Washington, DC.
<SUP>3</SUP> Public Law 95-625.
<SUP>4</SUP> Act of September 3, 1964 (P.L. 88-577, 78 Stat. 890 as 
        amended; 16 U.S.C. 1131(note), 1131-1136).
<SUP>5</SUP> Robertson, F. Dale, Chief, USDA Forest Service, Letter to 
        Regional Foresters. March 8, 1993. Washington, DC.
<SUP>6</SUP> Merigliano, Linda, Bridger-Teton National Forest. November 
        22, 1997. Determining Visitor Use Limits (Capacity). Jackson, 
        WY.
<SUP>7</SUP> Monz, Christopher; Roggenbuck, Joseph; Cole, David; Brame, 
        Richard; Yoder, Andrew. 2000. Wilderness party size 
        regulations: Implications for management and a decision-making 
        framework.
<SUP>8</SUP> Ansel Adams, John Muir, Dinkey Lakes Wilderness: Final 
        Environmental Impact Statement. 2 vols. March 2001. United 
        States Department of Agriculture, Forest Service, Pacific 
        Southwest Region. Vallejo, CA.
<SUP>9</SUP> Kenworthy, Tom. February 19, 1998. U.S. changing white-
        water rafting rules. The Washington Post. Denver, CO.
                                 ______
                                 
    The Chairman. Thank you, Mr. Mackey.
    Vera Smith?

   STATEMENT OF VERA SMITH, CONSERVATION DIRECTOR, COLORADO 
                         MOUNTAIN CLUB

    Ms. Smith. Thank you. On behalf the Colorado Mountain Club, 
I would like to thank Chairman Hansen and the Committee for the 
opportunity to testify at this hearing.
    The Colorado Mountain Club is one of the Colorado's largest 
outdoor organizations, with over 10,000 members and 14 
chapters. Founded in 1912, the CMC strives to ensure high-
quality recreational experiences for the public, protect the 
natural resources of the south Rocky Mountains, and educate the 
public on responsible and appropriate recreation.
    The issue of recreational access is of paramount importance 
to the club since we engage both in recreation and conservation 
related pursuits on Federal lands.
    As Americans, we are privileged to recreate on a vast array 
of public lands, from the Keys of Florida to the wilds of 
Alaska. Accompanying that privilege, however, is 
responsibility--the responsibility to steward these lands both 
as individuals and collectively, to ensure that their 
fundamental integrity is sustained.
    Public land recreation provides wonderful benefits, but it 
also has the potential to impact the environment significantly, 
especially in light of recent and predicted increases in use.
    It is our responsibility as Americans to ensure that our 
recreation is in harmony and not in conflict with the land.
    We see two major trends in public lands recreation today 
that threaten to impair our ability to maintain this harmony. 
The first is increasing an unmanaged motorization, and the 
second is commercialization.
    Off-road vehicle travel is one the many allowable forms of 
recreation on public lands. In the past 20 years, off-road 
vehicles, such as dirt bikes and snowmobiles, have grown 
significantly in popularity.
    For example, in Colorado, ORV registrations have increased 
by over 500 percent in the past 7 years. As these machines have 
grown more popular, they have also become more powerful and 
technologically sophisticated.
    With ever-increasing ease, they can cross rough terrain, 
conquer mountain peaks, crawl through wetlands and rivers, and 
penetrate into even the most remote backcountry.
    The result is that the nonmotorized recreation community is 
losing access. As motorized vehicles proliferate into lands 
that were traditionally nonmotorized, nonmotorized 
recreationists are displaced.
    For example, in the lower 48 States, over 90 percent of BLM 
lands are open to off-road vehicle use, leaving little room for 
wildlife and people alike to seek refuge from the sights, 
sounds, and smells of machines.
    In addition, weak or nonexistent travel management 
planning, monitoring, and enforcement have led to an 
unprecedented urbanization of our backcountry.
    When we think of the southern Rocky Mountains, we conjure 
up images of open meadows, high peaks, and uninterrupted 
vistas. The reality, unfortunately, is that the southern Rocky 
Mountains are a spaghetti network of roads so dense that there 
are very few places that are greater than 2 miles from a 
primary or secondary road.
    The qualities that draw all of us to our public lands--
quiet, clean water, healthy wildlife, and wildness--are 
yielding to the noise, pollution, and infrastructure 
characteristic of urbanized areas.
    I brought these posters to demonstrate the point. The first 
poster shows the road network. The second poster shows distance 
from a road. So the green area in the very center of those 
blobs is 4 miles or greater from a road.
    Common-sense solutions exist to bring recreation back into 
harmony with the land. The first and most necessary step is 
immediately to develop and adopt enforceable travel management 
plans that limit motorized use to designated routes, eliminate 
cross-country travel, establish a ``closed unless marked open'' 
policy, and increase enforcement and monitoring.
    Travel management plans must be consistent across agency 
boundaries. Furthermore, these plans must allocate recreation 
to accommodate the basic needs of user groups while recognizing 
the constraints of the land.
    Indeed, a few weeks ago, Colorado's front-range resource 
advisory council unanimously adopted a resolution that 
requested the BLM to implement similar solutions. That was 
included in my written testimony.
    The second trend of concern is the potential 
commercialization of Federal lands and recreational services. 
In an effort to find funding sources for recreation, the 
agencies seem increasingly willing to dance with the idea of 
commercializing Federal lands.
    The most disturbing aspect of this is the potential loss of 
Federal management autonomy as private enterprise acquires 
financial interests in public lands and facilities.
    I urge the Committee to consider a vision where all 
citizens have the opportunity to enjoy their public lands in an 
undeveloped state and without financial burden.
    Public lands should not be beholden to the desires of 
private industries whose motivation is to maximize profits for 
the shareholders instead of stewarding the lands for future 
generations.
    We have come to a point where the public perceives that 
public land recreation is getting out of control. It is easy to 
point fingers at the agencies, but the fact is they cannot 
manage recreation effectively without receiving the necessary 
appropriations.
    Furthermore, all users must be willing to accept limits and 
compromise access so that the fundamental ecological integrity 
of the land will not be diminished. Indeed, all citizens should 
have the right to experience solitude, feel wildness, and 
discover the wonders of the natural world without being 
assailed by the whir of a dirt bike, the scream of the 
snowmobile, or the solicitations of major corporations.
    In the words of Aldo Leopold, ``Recreation development is a 
job not of building roads into lovely country but of building 
receptivity into the still and lovely human mind.''
    I thank you for this opportunity to comment.
    [The prepared statement of Ms. Smith follows:]

 Statement of Vera Smith, Conservation Director, Colorado Mountain Club

    On behalf of the Colorado Mountain Club, I would like to thank 
Chairman Hansen and the Committee for the opportunity to testify at 
this hearing.
    The Colorado Mountain Club (CMC) is one of Colorado's largest 
outdoor organizations with over 10,000 members and 14 chapters. Founded 
in 1912, the CMC strives to ensure high quality recreational 
experiences for its members and the public, protect the natural 
resources of the Southern Rocky Mountains, and educate the public on 
responsible and appropriate recreation.
    The issue of recreational access is of paramount importance to the 
Club since we engage both in recreational and conservation-related 
pursuits on Federal lands.

Harmonious Recreation
    As Americans, we are privileged to recreate on a vast array of 
public lands, from the keys of Florida to the wilds of Alaska. 
Accompanying that privilege, however, is responsibility--responsibility 
to steward these lands both as individuals and collectively to ensure 
that their fundamental integrity is sustained.
    Public land recreation provides wonderful benefits but it also has 
the potential to harm the environment significantly, especially in 
light of recent and predicted increases in use. It is our 
responsibility as Americans to ensure that our recreation is in harmony 
and not in conflict with the land.
    We see two major trends in public land recreation today that 
threaten to impair our ability to maintain this harmony. The first is 
increasing and unmanaged motorization, and the second is 
commercialization and privatization.

Motorization
    Off-road vehicle travel is one of the many allowable forms of 
recreation on public lands. In the past twenty years, off-road vehicles 
(ORV) such as dirt bikes and snowmobiles have grown significantly in 
popularity. For example, in Colorado, ORV registrations have increased 
by over 500% in the past seven years. As these machines have grown more 
popular, they have also become more powerful and technologically 
sophisticated; with ever-increasing ease, they can cross rough terrain, 
conquer mountain peaks, crawl through wetlands and rivers, and 
penetrate into even the most remote backcountry.
    The result is that the non-motorized recreation community is losing 
access. As motorized vehicles proliferate into lands that were 
traditionally non-motorized, non-motorized recreationists are 
displaced. For example, in the lower 48 states, over 90% of BLM lands 
are open to ORV use, leaving little room for wildlife and people alike 
to seek refuge from the sights, sounds, and smells of machines. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ It is true that wilderness areas are, for the most part, non-
motorized. However, it is important to realize that most of the 
wilderness in the Western United States is ``rock and ice'' wilderness. 
For example, in the Southern Rockies, over 75% of the protected areas 
(defined as National Parks and wilderness) lie above 10,000 feet in 
elevation. Because these alpine areas are difficult to access (by any 
means) and because these areas are not the biodiverse, biologically 
critical areas of the landscape, it is critical that non-motorized 
tracts at lower elevations be maintained/restored.
---------------------------------------------------------------------------
    In addition, weak or non-existent travel management planning, 
monitoring, and enforcement have led to an unprecedented urbanization 
of our backcountry. When we think of the Southern Rocky Mountains, we 
conjure up images of open meadows, high peaks, and uninterrupted 
vistas. The reality, unfortunately, is that the Southern Rocky 
Mountains are a spaghetti-network of roads, so dense that there are 
very few places that are greater than two miles from a primary or 
secondary road (see attached map and statistics). The qualities that 
draw all of us to our public lands--quiet, clean water, healthy 
wildlife, and wildness--are yielding to the noise, pollution, and 
infrastructure characteristic of urbanized areas.
    The problem ultimately lies with the fact that the Federal agencies 
lack the necessary funds and, at times, the will to develop, implement, 
and enforce travel systems in which motorized travel is limited to 
designated routes. Without designated travel systems, ORVs are often 
allowed to travel cross-country or are only limited to existing routes, 
conditions that lead to a proliferation of user-created routes. 
Consider that under a system where ORVs are limited to existing routes, 
the first ORV to carve a new route is breaking the law but all 
subsequent users to drive that route are legal. Consider also that it 
usually requires only a few passes before a track appears to be a road.
    Other factors also contribute to the proliferation of routes and 
the eventual urbanization of the landscape. The U.S. Forest Service and 
the Bureau of Land Management are not consistent in their management of 
ORVs. For instance, where the two agencies administer lands with 
adjoining boundaries, one agency may require that ORVs stay on 
designated routes that are marked as open while the other agency may 
require that ORVs drive on existing routes under the presumption that 
all routes are open unless otherwise noted. When lands are intermixed, 
not even the most well-intentioned motorized recreationist is able to 
understand and follow the rules.
    Lastly, the U.S. Forest Service and the Bureau of Land Management 
have failed adopt a system-wide policy that allows motorized travel 
only on routes and in areas marked as open. This policy, referred to as 
``closed unless marked open,'' is the only policy under which the 
agencies are able to 1) reasonably monitor route proliferation and 
consequent resource damage, and 2) enforce the travel designations. 
After all, it is ostensibly legal for a motorized recreationist to 
drive on an illegally-created route if a ``closed unless marked open'' 
policy is not in place.
    Common sense solutions exist to bring recreation back into harmony 
with the land. The first and most necessary step is immediately to 
develop and adopt enforceable travel management plans that limit 
motorized use to designated routes, eliminate cross-country travel, 
establish a ``closed unless marked open'' policy, and increase 
enforcement and monitoring. Travel management plans must be consistent 
across agency boundaries. Furthermore, these plans must allocate 
recreation to accommodate the basic needs of user groups while 
recognizing the constraints of the land. Indeed, a few weeks ago, 
Colorado's Front Range Resource Advisory Council unanimously adopted a 
resolution that requested the BLM to implement similar solutions (see 
attached).
    In the words of two Colorado recreationists from Chaffee County, 
Dennis and Kathleen Claveau, ``The impact of all-terrain vehicles, 
snowmobiles, dirt bike motorcycles, jet skis, and sport utility 
vehicles in the past few years has been so overwhelming that government 
agencies, whose job it is to steward our lands, seem to stand in awe 
unable to act, or worse yet, their attempts to act are restricted by 
bullying from the ORV community and neglect by the legislative branches 
of our government failing to support them.
    If you lived where we live on the edge of the San Isabel National 
Forest and closely observed the exponential growth in numbers of ORVs 
entering the national forest in the past eight years, you could not but 
wonder what will be left ten years from now'' Time is rapidly running 
out for our natural heritage.

Commercialization
    The second trend of concern is the potential commercialization of 
Federal lands and recreational services. By allowing private 
enterprises to erect gates and charge fees, we will essentially turn 
public land recreation into an elitist privilege where only those with 
the financial means will be able to pay to play.
    Even more disturbing is the potential loss of Federal management 
autonomy if we allow private enterprise to acquire financial interests 
in public lands and facilities. For example, suppose after a company 
were given the right to operate twenty campgrounds for thirty years on 
one national forest in exchange for capitally improving and maintaining 
the site, the land management agency discovered that the increased use 
is endangering an imperiled species. The Forest Service will be hard-
pressed to break the agreement in order to manage the species 
appropriately.
    Another example of loss of management autonomy and 
industrialization of Federal lands can be found in the ski industry. 
Several of the major destination ski resorts in Colorado including Vail 
and Copper Mountain are located on Forest Service lands in critical 
wildlife habitat, including the habitat of the endangered lynx. Despite 
the fact that skier numbers are flat nationwide, the resorts are 
regularly applying for and receiving approvals for expansions--
expansions that will increase the number of resort-owned acres adjacent 
to skiable terrain. Although the motivation for expanding these public-
land ski areas is not to meet a flat demand but rather to increase the 
profits yielded from private land development, the Forest Service, 
seemingly intimidated by the political power of these publicly-traded 
corporations, has not denied an expansion request in Colorado on 
environmental grounds since 1985. Furthermore, because these companies 
are profiting off their ability to manipulate development on public 
lands, they are pushing small ski areas or areas that won't play ``the 
real estate game'' out of business.
    Clearly, the recent emphasis on increased commercialization of 
recreation by private industry is a consequence of inadequate funding 
of the land management agencies. For example, in Colorado, the Forest 
Service can only fund, on average, one law enforcement officer for 
670,000 acres. In addition, under current funding levels, the Colorado 
Bureau of Land Management State Office will not be able to complete an 
initial set of travel designations for another 12 to 15 years, at a 
minimum. The answer to the budget shortfalls is not to commercialize 
and develop more infrastructure (the agencies still will not be able to 
provide adequate oversight), but, instead, is to provide adequate funds 
for the agencies to manage existing levels of recreation.
    I urge the Committee to consider a vision where all citizens have 
the opportunity to enjoy their public lands in an undeveloped state and 
without financial burden. Public lands should not be beholden to the 
desires of private industries whose motivation is to maximize profits 
for the shareholders instead of stewarding the lands for future 
generations.

Conclusion
    We have come to a point where the public perceives that public land 
recreation is getting out of control. It is easy to point fingers at 
the agencies but the fact is that they cannot manage recreation 
effectively without receiving the necessary appropriations.
    Furthermore, all users must be willing to accept limits and to 
compromise access so that the fundamental ecological integrity of the 
land will not be diminished. Indeed, all citizens should have the right 
to experience solitude, feel wildness, and discover the wonders of the 
natural world, without being assailed by the roar of a dirt bike, the 
scream of a snowmobile, or the solicitations of major corporations. In 
the words of Aldo Leopold, ``Recreational development is a job not of 
building roads into lovely country, but of building receptivity into 
the still unlovely human mind.''
    Thank you for this opportunity to comment.

    [The attachments listed below follow:]

    1. Fact Sheet on Off-Road Vehicles on BLM Land
    2. Resolution passed by the Colorado Front Range RAC on May 10, 
2001 entitled, Resolution for Consistent, Positive, and 
Environmentally-Responsible Management of Off-Road Vehicles
    3. Two maps of the Southern Rockies Ecoregion: The Road Network of 
the Southern Rockies, and Distance from a Road in the Southern Rockies
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2561.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2561.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2561.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2561.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2561.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2561.006
                                 
    The Chairman. I thank you.
    Bruce Ward, we will turn to you, sir.

STATEMENT OF BRUCE WARD, EXECUTIVE DIRECTOR, CONTINENTAL DIVIDE 
                         TRAIL ALLIANCE

    Mr. Ward. Thank you, Mr. Chairman. I really appreciate the 
opportunity to be here.
    I know you have experience as a swamper, at least I have 
heard that, and I recognize that you have personal experience 
in the recreation world, and that you appreciate why we are 
here.
    I also have a quote from Aldo Leopold that I would like to 
start out with, and it goes like this: ``Recreation is a 
perpetual battlefield because it is a single word denoting as 
many different things as there are diverse people. One can 
discuss it only in personal terms. There is no unit of either 
volume or value where diverse persons can impersonally measure 
or compare recreational use.''
    And I really think that is what we are talking about here, 
Mr. Chairman. And I think that the ultimate decision that you 
need to make, and members of this Committee need to make, is: 
Are we going to use a carrot or are we going to use a stick in 
order to make that happen?
    And I think that the team of people that you have put 
together in these panels would like to work with you further to 
use the carrot as opposed to a stick.
    I have to tell you, when Rob Howarth asked me to come out 
here--I live in Park County, Colorado. Some people call it 
God's country, some people call it McInnis country, but bottom 
line is, it is a place that I have a hard time leaving. I don't 
like coming back here, quite frankly, Mr. Chairman.
    But I am here because this is a vitally important topic, 
and I really, sincerely appreciate the fact that you are 
holding these hearings. And my intention is to work with you 
and this Committee in any way that I can to help you delve into 
this very serious issue.
    You know, I am here not only because of my personal desire 
and commitment to this cause, but because of my children, 
Phillip and Isabella. I take them out with me on the 
backcountry, and I am concerned about what the future of that 
backcountry is going to be.
    And I really think that this Committee and the people that 
are here at this table will help determine where we are going. 
And I have a great deal of optimism.
    I am also here because of the volunteers. You have heard 
them talked about in many cases. We have had hundreds of 
thousands of dollars in volunteer labor put on the ground 
through our organization, and with the help of land managers.
    And I want to echo another theme that has resonated 
throughout this hearing, and that is that there are not enough 
people on the ground.
    Craig Mackey did a great job of specifically articulating 
the numbers of people that are no longer out there, doing the 
work that is fundamental to restoring and maintaining the 
recreation infrastructure that this country put into place in 
the 1930's. And in many cases, no work has been done since or 
minimal work has been done since.
    So ultimately, the question of access, how much is too 
much, is what we are here to address. And how do we best 
address the increasing numbers of recreationists from all walks 
of life?
    For my way of thinking, Mr. Chairman, the bottom line is 
collaboration and education, and you have heard those themes 
time and time again in here.
    Again, I think you have assembled a great team of people 
who are interested in this cause and could work with you, work 
with this Committee, to substantively address from a grassroots 
level ways that we can deal with increasing recreational use.
    I think it is critical that we come up with solutions that 
are acceptable because they are based in scientific fact but 
also because they are socially acceptable. And that seems to, 
again, be a reoccurring theme with the groups that are 
represented here.
    Mr. Chairman, Congress can make laws and the land managers 
can be charged with enforcing them, but it is only when those 
people represented by the various panels that are here, and the 
millions of others who seek to enjoy our public lands, it is 
only when they truly embrace these decisions and understand 
them will we truly make any progress on our public lands.
    I would suggest that if there is a way to come up with a 
commission of some sort, made up of grassroots organizations 
that would address these issues, that we look into that 
opportunity and we discuss amongst the people who are 
represented here and the other recreation and environment 
groups who are concerned about this.
    I have a quote I would like to leave you with as well, and 
that was Teddy Roosevelt, who I know is near and dear to many 
members of this Committee who are concerned about natural 
resources. He said, ``The nation behaves well if it treats the 
natural resources as assets which it must turn over to the next 
generation increased and not impaired in value.''
    And perhaps one last quote from a fellow--I am from Boston 
originally, if you haven't picked up on my accent, Mr. 
Chairman--
    [Laughter.]
    --from a fellow member of my favorite state, from growing 
up.
    He said, ask not what trails can do for you, ask what you 
can do for trails.
    [Laughter.]
    Thank you.
    [The prepared statement of Mr. Ward follows:]

 Statement of Bruce Ward, Executive Director, Continental Divide Trail 
                             Alliance, Inc.

    Good morning, Mr. Chairman and members of the House Resources 
Committee. I appreciate this opportunity to address you about 
recreation and access to public lands. I have been working on the 
effort to complete and maintain the Continental Divide Trail since 
1994. My wife, Paula, and I helped to form the Continental Divide Trail 
Alliance with then vice chair of the National Forest Foundation Steve 
Fausel. Our organization was specifically formed to assist the Forest 
Service, National Park Service and Bureau of Land Management with the 
congressional mandate to complete and maintain this national treasure.
Introduction
    Our great country is made up of a people proud of our 
individualism, proud of our heritage and proud of our pioneering 
spirit. Yet today there is less opportunity for Americans to experience 
our natural lands as our forefathers did. As we move from a rural to an 
urban society, we must seek ways to connect people to the land.
    One such connection is our National Trail System. I have the 
privilege of representing the Continental Divide Trail, which, along 
with the Appalachian Trail and the Pacific Crest Trail constitute the 
crown jewels of America's long distance primitive trails. The 
Continental Divide National Scenic Trail wraps its spirit and soul 
around the hearts of all Americans who remember the history of the 
making of the West and who look with hope to the continuance of the 
pioneer spirit. It is our hope, in an age of political and social 
polarization, that people from all walks of life, cultures, 
environmental perspectives, and ethnic backgrounds find in the Trail 
the history of America and hope for our future.
    When Meriwether Lewis and William Clark crossed the Continental 
Divide, it was a defining moment in history for both these intrepid 
explorers and our country. The Continental Divide has always been 
profoundly defining in the hearts and souls of the American people. How 
often do we as citizens and do you as our Representatives have the 
opportunity to support something so grand as to tie together our past 
and our future with such majesty of time and place?
    We recognize the honor, duty and priceless gift of living free in 
this land we call our home. What price is placed on the enhancement of 
the soul? What is the value of things which bring unity to our changing 
community of citizens? Can we think of a gift of greater value or a 
treasure more deserving of protection than the education of future 
generations of young Americans to the value and heritage of pristine 
public lands?
    A trail of history, freedom and the American spirit is what we are 
charged to pass to future generations. I am here before you today 
representing those among us who believe we are better Americans because 
of what joins us together as opposed to what separates us.
    With this understanding of what our organization stands for I would 
like to address the issue of recreation and access to our public lands.
    Recreation on public lands is a benefit that Americans value. The 
issues we address here involve what types and extent of access are 
appropriate to maintaining the integrity of a natural resource.
    We depend upon the public servants from our land management 
agencies to determine what natural settings are appropriate for certain 
types of recreational use based upon administrative or legislative 
designation, but it is our responsibility to adhere to those 
guidelines.
    We must consider the impacts that different types of use have on 
these resources, as well as their effects on other users. Different 
types of trails and trail lands may accommodate a public with varied 
interests, yet they must do so in a manner compatible with the land.
    One specific way of addressing the need for achieving a balance 
between protection and recreation needs is a toolkit approach for land 
protection. While ``Big W'' Wilderness is one useful tool, one size 
does not fit all, as many areas of open space worthy of protection from 
development simply would never make it through the designation process 
to qualify as Wilderness. National Conservation Area (NCA) designation 
provides a much more flexible vehicle.
    Two recent NCA designations in Colorado have done an excellent job 
of protecting large areas while providing for a range of recreation 
activities. Under their guidelines, smaller Wilderness area 
designations were embedded within them, but the entire NCA areas would 
never have made it through the Wilderness designation process. The NCAs 
are the Gunnison Gorge section of the recent Black Canyon of the 
Gunnison National Park legislation and the Colorado Canyonlands NCA 
just west of Colorado National Monument. There are another dozen or 
more NCAs that have been designated over the past 20 years or so.
    Ideally we could develop some kind of organic legislation for 
National Conservation Areas that is similar to the Wilderness Act. This 
would legitimize this very useful tool in the eyes of a wide range of 
Americans as an appropriate form of land protection to complement 
Wilderness designation. It would also provide a workable alternative to 
the insistence of some for ``Wilderness or nothing'' that can too often 
result in very little Wilderness and a lot of nothing.
    Recreation represents an increasing and important use of our public 
lands--one that merits increased resources and attention. As the 
increasing demands on our public lands continue, additional resources 
must be allocated for recreation and conservation investment.
    Recreation on our nation's public lands is significant--combined 
estimates among the four agencies total over 1.2 billion visitors 
annually. The Forest Service estimates they have 850 million visitors 
per year; the National Park Service attracts 287 million; and the 
Bureau of Land Management and the Fish and Wildlife Service estimate 65 
million and 35 million, respectively.
    In 1999, a study conducted for the Outdoor Recreation Coalition of 
America found that 94.5 percent of the American public participated in 
some form of outdoor recreation. And, according to the 2000 National 
Survey on Recreation and the Environment, hiking and backpacking are 
among the nation's fastest growing forms of recreation. In 2000, 73 
million Americans hiked (a 196% growth since 1982) and 23 million 
backpacked. Despite these trends, Federal funding for recreation has 
not kept pace with demand and continues to fall far short of needs.
    Increased opportunities and access to the outdoors--where 
appropriate--will strengthen the public's appreciation and connection 
to the natural world. It will make us healthier. Convenient access to 
trails will make their homes more valuable.
    It is paramount that the agencies utilize our trails as a means to 
educate the public about conservation issues and as a way to increase 
recreational opportunities and access. Trail protection and natural 
resource conservation are inextricably linked. However, trail systems 
built over the last 150 years with taxpayer dollars have been left to 
deteriorate, been abandoned, or simply left off of trail system maps, 
often at the sole discretion of an overworked seasonal trail worker.
    The outdoor recreation community supports more recreation staff on 
the ground, more trail maintenance dollars, more funding for recreation 
and Wilderness management and programs that create more recreation 
opportunities for the American people.
    Federal land managers are struggling to keep up with the dramatic 
increase in trail use in America. The solution is not to merely 
appropriate more money to the National Park Service (NPS), Bureau of 
Land Management (BLM) and USDA Forest Service, but to couple targeted 
increased funding with increased on-the-ground trails coordinators and 
volunteer coordinators.

Bureau of Land Management
    Increasingly, the Bureau of Land Management (BLM) has had to 
address the needs of a growing and changing West. The BLM lands in the 
West are experiencing unprecedented growth in recreational use as a 
result of rapid population growth and the expansion of communities 
within and outside major metropolitan areas. This growth increases the 
demands on adjacent public lands, user conflicts and management costs 
of public lands.
    Outdoor recreation is an important public use of these lands and 
management of outdoor recreation resources, facilities, and visitor use 
are significant components of the BLM's multiple use mission, yet the 
agency remains severely underfunded and understaffed.

National Park System
    The National Park System (NPS) continues to grow, both in terms of 
the number of units it oversees and the number of visitors it 
accommodates each year. This growth in the system has not been 
accompanied by sufficient increases in financial resources and support. 
Years of inadequate funding have contributed to the deterioration of 
natural, cultural, historic, and recreational resources throughout the 
system. Recreation and conservation funding increases are critical to 
enable the Park Service to protect its magnificent wealth of resources 
and continue to offer outstanding recreational opportunities.
    The National Park Service faces the challenge of protecting 
resources while serving visitors. Recreation is integral to its role 
and mission. Yet, despite its tremendous role in recreation, the agency 
lacks senior-level administrative support and personnel focused 
strictly on recreation. As a result, recreation planning and management 
receive inconsistent attention and limited policy guidance. Recreation 
management requires greater emphasis from NPS headquarters rather than 
through individual parks and units alone. The prevalence of recreation 
today, exploding visitation to national parks, and the emergence of 
user conflicts warrant national policy direction and attention from the 
agency. We believe recreation deserves a higher place in the NPS 
hierarchy.

NPS and the National Trails System
    National Trails System funding increases during the past eight 
years have not kept pace with the needs for the system today. The 16 
national scenic and historic trails administered by the National Park 
Service require increased funding for natural and cultural resource 
management and protection, improving visitor services, and 
strengthening volunteer partnerships. For most of the national scenic 
and historic trails, barely one-half of their congressionally 
authorized length and resources are protected and available for public 
use. Most trail offices are understaffed, hindering the agencies' 
ability to properly administer and manage these trails and work 
effectively with volunteer-based organizations.

USDA Forest Service
    The USDA Forest Service is the nation's largest outdoor recreation 
provider, managing over 133,000 miles of trails--including all or part 
of six national scenic and eleven national historic trails--more than 
277,000 heritage sites, over 4,300 campgrounds, and 31 national 
recreation areas, scenic areas, and monuments. Recreation creates about 
75% of the Gross Domestic Product (GDP) generated from Forest Service 
land, yet only about 10% of the Forest Service budget supports 
recreation.
    The Forest Service itself now highlights the growing importance of 
recreation to the agency, as evidenced by the release of a Recreation 
Agenda.
    The Recreation Agenda identifies resource protection, reducing the 
$812 million trail maintenance backlog, and augmenting recreation staff 
and volunteer coordinators, particularly on the ground, as critical. 
Despite the increased emphasis the agency is placing on recreation 
through the Recreation Agenda, we are concerned that the concept as 
articulated at the top is not translating into action on the ground. 
Few national forests have even one full-time trails coordinator. And 
despite the number of hiking and other recreation organizations that 
want to volunteer to build and maintain trails in National Forests, few 
Ranger Districts have a volunteer coordinator. The American Hiking 
Society and some its member clubs, including the Continental Divide 
Trail Alliance, have had volunteer trail crews turned away because of 
the agency's inability to provide the necessary minimal supervision or 
support.
    As expressed in the Recreation Agenda, the Forest Service 
highlights staffing and acknowledges the need to place trail 
coordinators, volunteer coordinators and/or recreation planners at each 
national forest and for each nationally designated area or trail. The 
agency must follow-through with this commitment by increasing funding 
for recreation staff on the ground.

Wilderness
    Wilderness areas are particularly important to recreationists 
seeking solitude and escape in pristine backcountry and other 
outstanding natural areas. Maintaining the integrity of the land and 
resources is essential for ecosystem viability and to assure these 
places remain wild for future generations. Wilderness areas are 
critical for ecosystem protection, for water, wildlife, and 
vegetation--all valued pieces of the recreation experience. The 
agencies must receive additional funding to manage Wilderness 
effectively and appropriately.

Volunteers
    In 2000, national trail volunteer organizations contributed $6.6 
million in financial resources and over 593,000 volunteer hours with an 
estimated labor value of $8.8 million. The Forest Service relies very 
heavily on volunteers, especially for trail maintenance activities. 
Last year, over 90,000 volunteers contributed millions of hours in 
labor to the Forest Service with an appraised value of $35.8 million. 
Clearly, these volunteer efforts warrant an expanded commitment to 
trails and recreation funding.
    Our organizations have sent thousands of volunteers per year into 
America's public lands to revitalize trails and protect natural 
resources. These dedicated volunteers have raked, shoveled, trimmed, 
lopped, and chopped hundreds of trail miles that, without these crews, 
would be unsafe for travel. We send numerous crews into America's 
National Parks, Forests and rangelands each year.
    These volunteer programs have expanded greatly over the years. As 
we have sought to expand these programs, we have found, more and more, 
that the public agencies do not have enough on-the-ground staff to 
supervise volunteers who want to work on trails - even where the 
agencies themselves have identified critical maintenance and repair 
work.
    Adequately trained volunteer crew leaders would not replace Forest 
Service, NPS, or BLM staff as decision-makers, but instead would help 
the public land managers fulfill their responsibility to the recreating 
public, contributing significantly toward the goals set in the 
Recreation Agenda.
    Congressional support for these endeavors will ensure that our 
organizations can continue our strategic efforts to work with 
volunteers and grassroots trails organizations to encourage increased 
volunteerism on public lands.

Willing Seller Legislation
    Willing seller legislation is critical to the completion and 
protection of our National Trail System and to ensuring access to 
opportunities for outdoor recreation and appreciation and enjoyment of 
the natural and historic resources there as Congress intended.
    Willing-seller legislation would amend the National Trails System 
Act to provide Federal authority to acquire land from willing sellers 
to complete nine of the twenty-two national scenic and historic trails 
currently lacking this authority. Willing seller authority restores 
parity to the National Trails System and provides authority to protect 
critical resources along the affected trails.
    It gives the Federal agencies administering the trails the ability 
to acquire land from willing sellers only. The legislation would not 
commit the Federal government to purchase any land or to spend any 
money but would allow managers to purchase land to protect the national 
trails as opportunities arise with funding appropriated through the 
Land and Water Conservation Fund.
    Without willing seller authority, Federal trail managers' hands are 
tied when development threatens important links in the wild landscapes 
of the national scenic trails or in the sites that authenticate the 
stories of the historic trails. With willing seller authority, sections 
of trail can be moved from roads where hikers and other trail users are 
unsafe, and critical historic sites can be preserved for future 
generations to experience. Moreover, this authority protects private 
property rights, as landowners along the nine affected trails are 
currently denied the right to sell land to the Federal Government if 
they desire to do so.
    The four national scenic trails included under willing seller 
legislation have a combined projected length of 9300 miles. Twenty 
years after their authorization, only about 4885 miles--slightly more 
than half their total length--are protected so they will be permanently 
available for public use and enjoyment. Without the ability to purchase 
permanent rights-of-way from willing sellers, it is highly unlikely 
that these trails will ever be the continuous pathways that Congress 
intends them to be.
    Even though most of the Continental Divide National Scenic Trail is 
on public land, there are several major gaps to fill in order to make 
the trail continuous from Canada to Mexico. Although most of the five 
national historic trails affected by this legislation are not intended 
to afford continuous routes for recreation, the degree of protection of 
their ``significant sites and segments'' mirrors the condition of the 
four scenic trails.
    In March 2001, the House of Representatives overwhelmingly passed 
H.R. 834, the National Trails System Willing Seller Act, introduced by 
Representative Scott McInnis, by a 409-3 vote.

Education
    Trails can be a particularly valuable tool as the land management 
agencies stretch themselves further into education. They can serve as 
the classrooms for biology, history, geology, ecology and more. Our 
best guess is that there are well over 200,000 miles of trails in the 
US; all of them can teach us something.

Economic Benefits: A Growth Industry
    The number of Americans who participate in human powered activities 
such as hiking, canoeing, kayaking, mountain climbing, and bicycling, 
has increased substantially over the last two decades. Furthermore, the 
number of households in the U.S. is projected to increase by 12.3% by 
the year 2010 to a total of 113.4 million. As the number of households 
in the U.S. expands and interests in outdoor activities grow, demand 
for natural places, resources, and sports equipment and apparel will 
rise. As society's interest in outdoor recreation grows, so does the 
economic benefit of those activities.

Commerce and Jobs
    Across the United States, parks, rivers, trails, and recreational 
open space help support a $502 billion tourism industry--the nation's 
third largest retail sales industry. In 1993, 273 million visits to our 
national parks created over $10 billion in direct and indirect 
expenditures within parks and surrounding communities. These 
expenditures also generated over 200,000 jobs. Well-managed trails 
running through communities can foster substantial, sustainable 
economic activity through business development and tourism. Trail users 
need food, lodging, and campgrounds as well as special clothes, shoes, 
and equipment.
    A study of economic impacts of trails by the Allegheny Trail 
Alliance (a federation of seven trail groups working to build a 209-
mile network of trails from Pittsburgh to Cumberland, Md.) estimates 
that approximately $14.1 million- $25 million will be cycled into local 
economies once the network is completed. In another study, the National 
Park Service found that three rail-trails in Iowa, Florida, and 
California contributed between $1.2 million and $1.9 million per year 
to their home communities.

Retail Values
    Hiking and outdoor recreation help boost the economy. The 
manufacturing of hiking boots, tents, backpacks, sleeping bags, and 
other related outdoor equipment has become a major job-creating 
industry. The Outdoor Recreation Coalition of America estimates that 
total current sales of human-powered outdoor recreation products and 
specialty items are over $17.9 billion. Outdoor specialty retailers and 
chain stores accounted for $4.78 billion of the total 1999 retail 
sales, which represents a 6.6% increase from 1998. A recent study 
reveals that on average, $374 million is spent on hiking footwear each 
year.
    In addition, many of these companies find ways to give back to 
organizations like ours with generous donations of financial support, 
in-kind and products for our volunteers.
Property Appreciation
    Across the nation, parks, protected open space, and trails are 
increasingly recognized as vital to the quality of life that benefits 
economic health. According to a Regional Planning Association poll, the 
major elements cited as crucial for a satisfactory quality of life were 
low crime and access to greenery and open space. CEOs and owners of 
small companies ranked recreation/parks/open space as the highest 
priority in choosing a new location for their business.
    Studies have supported the direct relationship between property 
values and proximity to greenways, trails, and open space. A 1996 
survey of property values near greenbelts in Boulder, Colorado 
concluded that the average value of a home adjacent to the greenbelt 
would be 32 percent higher than the same property 3,200 feet from the 
greenbelt.
    In Salem, Oregon, land adjacent to a greenbelt was found to be 
worth about $1,200 an acre more than land only 1,000 feet away, and in 
Seattle, WA homes bordering the 12-mile Burke Gilman Trail sold for 6.5 
percent more than other houses of comparable size.
Congestion Relief and Pollution Control
    Trails connect the community and can be an important part of the 
transportation system. The use of human-powered transportation by way 
of walking and bicycling could result in a savings of 17.9 billion 
motor vehicle miles, 7 billion gallons of gas, and 9.5 million tons of 
exhaust emissions annually.

Health Benefits
    Accessible, safe trails mean that more people will walk and hike, 
leading to both short- and long-term health benefits. Walking can 
prevent heart disease, decrease hypertension, decrease cholesterol 
levels, help weight loss, improve osteoporosis, improve and maintain 
mental health, prevent and control diabetes, improve arthritis, and 
relieve back pain. Trails provide a safe, inexpensive avenue for 
regular exercise for people living in rural, urban, and suburban areas. 
Studies show that walking or hiking a few times per week can improve a 
person's health and lower health care costs. In a study conducted by 
the National Park Service, individuals who exercised regularly filed 14 
percent fewer healthcare claims, spent 30 percent fewer days in the 
hospital, and had 41 percent fewer claims greater than $5,000 compared 
to those who lead sedentary lifestyles.

National Trails Day
    On June 2, 2001, American Hiking Society will coordinate its ninth 
``National Trails Day,'' to raise public awareness and appreciation for 
trails. Participants gather at more than 2,000 National Trails Day 
events nationwide.

Uniting Along the Divide II
    Hundreds of volunteers will travel to remote locations along the 
3,100-mile CDT to explore and document in writing and with photographs 
its historical and geologic features. Information gathered during UAD 
II what is important to the CDT experience and take steps to protect 
these landmarks by developing a CDT Master Plan, a blueprint for the 
future of the trail.
Conclusion
    By increasing the focus and funding of the recreational programs 
outlined in this testimony, Congress will help ensure the viability of 
America's unique natural heritage and protect the outstanding 
recreation opportunities on our public lands.
    Thank you, again. I will be happy to answer any questions from the 
committee.
                                 ______
                                 
    The Chairman. Thank you, Mr. Ward.
    Amy Knowles?

     STATEMENT OF AMY KNOWLES, FLORIDA KEYS FISHING GUIDES 
                          ASSOCIATION

    Ms. Knowles. Thank you, Mr. Chairman. Good morning. I 
appreciate this opportunity to speak before you.
    My name is Amy Knowles. I live in Islamorada in the Florida 
Keys, and I represent the Florida Keys Fishing Guides 
Association, although I am a member of the Florida Keys 
National Marine Sanctuary's personal watercraft working group.
    Congress, in recognition of a need to protect the only 
living coral reef ecosystem in the continental U.S., passed the 
Florida Keys National Marine Sanctuary Protection Act of 1990, 
signed that November by President Bush.
    In 1997, the sanctuary advisory council voted to ban 
personal watercraft. But upon review, the vote was rescinded, 
and an alternative giving the personal watercraft industry 1 
year to implement an education plan for PWC operators was 
approved.
    In November 1999, responding to increased public outcry and 
the fact that conflicts with personal watercraft had increased 
rather than diminished, the full sanctuary advisory council, 
composed of new members, directed staff to begin the regulatory 
making process.
    The scoping period has just recently ended, and we are 
currently evaluating the public comments.
    The words ``Florida Keys'' conjure up images of sunshine, 
palm trees, balmy tropical nights, flowers in colors, 
tranquility, clear-blue waters teeming with fish and wildlife--
paradise, in short.
    Yet we are besieged by a relatively new sport that is 
abusive and runs counter to all traditional marine recreational 
pursuits: personal watercraft operation.
    With few exceptions, the operation of these craft is 
reckless, loud, threatening to wildlife in shallow-water 
habitats. And due to their low-hull draft and internal water 
jet design, PWCs are more capable than other vessels of travel 
into shallow and remote areas.
    The breeding, nesting, roosting, and feeding activities of 
birds are greatly disturbed by the constant variation of noise 
and pitch levels of the craft. The many mangrove and shallow 
flats of the sanctuary and the Everglades and Biscayne Bay 
National Park's waters provide essential wild bird habitat and 
feeding areas. And the accessibility of these areas to PWCs, 
even though they are banned from the two national parks, 
greatly increases the risk of wildlife disturbance.
    In addition to their ability to access sensitive grass 
flats and mangrove shorelines, the adverse impacts to wildlife 
from PWC operations are much more significant than from 
traditional motorized vehicles, due to their speed, noise, the 
riders' tendency to travel in groups, and the maneuverability.
    The migratory and feeding patters of the Keys' most sought 
after shallow water game fish--bone fish, tarpon, and permit--
have changed in response to the increased traffic of PWCs 
across the shallow flats.
    PWC operators have been observed harassing schools of fish, 
Key deer, and manatees--both of which are endangered species--
dolphins, and surfacing birds. To my great dismay, I have 
witnessed frequent incidents of habitat destruction, wildlife 
harassment, and the death of birds purposefully run down by PWC 
riders.
    This clearly is a national issue. There is documented 
evidence of community after community across the country 
struggling to find solutions to defend sensitive ecosystems 
against the activities associated with the unregulated 
operation of personal watercraft.
    In South Florida, PWC use is prohibited in Biscayne 
National Park, Everglades National Park, and the wildlife 
refuges of the lower Keys. These areas offer relatively safe 
haven for migratory and resident bird, marine mammal and fish 
populations, and protection for nursery habitats.
    And this level of resource protection should be extended to 
the Florida Keys National Marine Sanctuary as well.
    Precedent already has been set in the Monterey Bay and the 
Gulf of Farallones National Marine Sanctuaries with the 
establishment of special zones of operation for PWCs.
    The notion that personal watercraft must be treated the 
same as any other vessel is puzzling and incongruous. Reckless 
and intrusive PWC use tends to discourage others from using the 
resource. A day's fishing, diving, swimming, or canoeing is all 
too often ruined by the negligent operation and inappropriate 
behavior of PWC riders.
    Government at the Federal and state and local levels 
regulate our public road and waterways. This is not 
discrimination; it is zoning.
    I realize it would be unfair and unrealistic to recommend a 
ban on PWCs across the U.S. And while there are certain places 
or zones where loud and fast thrill craft operation might be 
appropriate, there are also environmentally special places 
where it is not.
    In conclusion, there appears to be a very strong need for 
Federal regulation of personal watercraft use in our country's 
environmentally sensitive coastal areas and freshwater lakes 
and rivers.
    Congressman Saxton's bill, H.R. 702, is a good start and 
could do much to lessen environmental impacts and improve PWC 
operator safety, thereby reducing user conflicts.
    We must not roll back the regulations already in place. As 
we have already lost so many of our coastal areas to 
development, we cannot afford to lose even more ground in our 
preserves, sanctuaries, national parks and seashores, and 
wildlife refuges. We need to go forward and identify where 
protection is needed.
    It is the responsibility of the Committee to protect the 
natural environment of the places that have been and will be 
determined in the future to have special significance for 
wildlife.
    Thank you.
    [The prepared statement of Ms. Knowles follows:]

 Statement of Amy Krech Knowles, Representing the Florida Keys Fishing 
    Guides Association; Save Our Waters Coalition; and Florida Keys 
                Chapter, Izaak Walton League of America

    Mr. Chairman, distinguished members of the committee, my name is 
Amy Knowles. I live in Islamorada, Florida, in the Florida Keys, and 
speak on behalf of the members of the Florida Keys Fishing Guides 
Association, Save Our Waters Coalition and the Florida Keys Chapter of 
the Izaak Walton League of America. Although I am not a spokesperson 
for the group, I am also a member of the Florida Keys National Marine 
Sanctuary's Personal Watercraft Working Group. Thank you for this 
opportunity to testify before you today.
    I grew up on the Eastern shore of Maryland, where I developed a 
strong sense of stewardship of our natural environment, nourished by my 
father who has spent the better part of 30-odd years involved in 
Chesapeake Bay restoration issues and served two terms on the State of 
Maryland's Critical Areas Committee. With this knowledge came the 
understanding that we are individually and collectively responsible for 
the choices we make and the legacy we leave. My husband, a fourth 
generation Coloradan, and I, lived in Colorado for 27 years where we 
raised our two sons. In the '70s we discovered the Florida Keys. We all 
loved to fish, and the Keys were ideal for our family vacations: quiet, 
casual, friendly, pretty, with beautiful water teeming with fish and 
wildlife. We eventually bought a boat and a house, and in 1990, when 
our youngest graduated from high school, we packed up the dogs and the 
cats and moved permanently to Islamorada.
    That same year, Congress, in recognition of the need to protect the 
only living coral reef ecosystem in the Continental U.S., passed the 
Florida Keys National Marine Sanctuary Protection Act of 1990, which 
was signed that November by President Bush. The Act required NOAA to 
develop a comprehensive management plan, and to that end, the Sanctuary 
Advisory Council was formed. I was a member of the council from 1995--
1997. During the last days of finalizing the management plan, the 
Sanctuary Advisory Council voted to ban personal watercraft from the 
Sanctuary. One of our members, uncomfortable with the vote, asked to 
revisit it, and upon review, the vote was rescinded. The Advisory 
Council recommended an alternative which gave the personal watercraft 
industry one year to implement their education plan for PWC operators. 
If, at the end of the year's trial, there was no improvement in the 
behavior of PWC riders, the Sanctuary Advisory Council would then 
direct staff to begin the regulatory making process. The final 
management plan was approved in 1998.
    In November of 1999, in response to increasing public outcry and 
the fact that conflicts with personal watercraft had increased rather 
than diminished, the full Sanctuary Advisory Council, composed of new 
members, reaffirmed the former Advisory Council's recommendations and 
requested that staff begin the regulatory making process. The Personal 
Watercraft Working Group was formed and began meeting in 2000. The 
committee is comprised of fishing guides, recreational fishermen, 
personal watercraft venue operators, the diving industry, environmental 
organization representatives, the personal watercraft industry, state 
agency representatives and sanctuary staff. The purpose of the 
committee was to draft a set of management alternatives to present to 
the Advisory Council with our ranking and recommendations. We have just 
completed the public comment period on the eight options drafted, and 
are in the process of evaluating the comments received.
    The islands of the Florida Keys, connected to the mainland and each 
other by a series of bridges, have a diverse and colorful history, 
populated at various times by pirates and bootleggers, cigar makers and 
spongers, authors, musicians and artists, pineapple and palm tree 
farmers, recreational and commercial fishermen, salvagers and 
recreational divers, railroad builders, developers and tourists. What 
lures people to the Keys is the simultaneous remoteness and 
accessibility of the islands, and the beauty and diversity of the 
marine and terrestrial ecosystems. However, as with most places that we 
love and value, those very sentiments and our desire to share them with 
friends and family often contribute to the diminishment of special 
places.
    The inevitable outcome of unbridled growth in the Keys in the '70s 
and early '80s, and the accompanying surge in tourism is evidenced by 
the degradation of our nearshore and inshore water quality and the 
decline of the coral reef ecosystem. The establishment of the Florida 
Keys National Marine Sanctuary, with its mission to protect and 
conserve the Keys' fragile marine and cultural resources, and the 
attendant Water Quality Protection Program, was an important step 
toward stemming the tide of this decline.
    The Florida Keys National Marine Sanctuary shares boundaries with 
Everglades National Park, Biscayne National Park, and the Key Deer, 
Great White Heron and Key West National Wildlife Refuges. These are 
man-made boundaries. The waters of Florida Bay (a large estuary 
situated in the easternmost part of the Gulf of Mexico), the 
terrestrial ecosystem of the Keys, and the coral reef tract are all 
integral parts of the greater Everglades ecosystem. As you are 
undoubtedly aware, the Federal Government and the state of Florida are 
committed to a multi-billion dollar restoration of the Everglades.
    The shallow waters of Florida Bay contain thousands of acres of sea 
grasses, essential nursery habitat for juvenile finfish and 
crustaceans; and the many mangrove islands which characterize the 
composition of the Keys, afford nesting, breeding and roosting sites 
for the many bird species which inhabit our islands and the Everglades.
    The legendary Zane Gray and Joe Brooks put the Florida Keys in the 
forefront of saltwater fishing, and the Keys still enjoy a worldwide 
reputation as a premier destination for shallow - water fishing 
enthusiasts. Large migrations of Tarpon take place each spring and 
summer, and Bonefish, Permit, Snook and Redfish can be found year 
round. The experience of fishing for these species is further enhanced 
by the method used to pursue them. When fishermen arrive at their 
destination, the motor is shut down, and the guide silently poles the 
boat across the shallow grass flats in search of fish. It is a peaceful 
and quiet endeavor, the success of which is not so much determined by 
catching fish as it is by experiencing the serenity and beauty of the 
natural environment.
    With the advent of SCUBA, the dive industry found a home in the 
beautiful clear waters of the Florida Keys and the country's first 
underwater park, John Pennekamp Coral Reef State Park, was established 
in the 1960s. Today, thousands of visitors each year travel to the Keys 
to dive and to snorkel.
    The natural assets of the Keys, which are so unique, so precious, 
are the true treasures that the Florida Keys have to offer the citizens 
of the United States and are irreplaceable. Indeed, the mention of the 
words ``Florida Keys'' conjures up images of sunshine, palm trees, 
balmy tropical nights, and flowers in riotous colors, solitude, 
tranquility, and clear waters. Yet we are besieged by a relatively new 
``sport'' that is abusive and runs counter to all traditional marine 
recreational pursuits: personal watercraft operation. With few 
exceptions, the operation of these craft is reckless, loud, threatening 
to wildlife and shallow water habitats. Compared to other vessels, due 
to their low draft and internal water jet design characteristics, PWCs 
are more capable of travel into shallow and more remote areas where 
environmental degradation to water and on-shore resources is likely to 
be greatest. The breeding, nesting, roosting and feeding activities of 
birds are greatly disturbed by the constant variation of noise and 
pitch levels of PWC operation; the many mangrove islands and shallow 
flats within the Sanctuary and the Everglades and Biscayne Bay National 
Parks' waters provide essential wild bird habitat and feeding areas and 
the accessibility of these areas to PWCs - even though they are banned 
from the two national parks - greatly increases the risk of wildlife 
disturbance.
    The adverse impacts from PWC operation on wildlife are much more 
significant than from traditional motorized vessels and are the result 
of the following factors: their physical ability to access shallow 
grass flats and skim the mangrove shorelines, speed, noise, the riders' 
tendency to travel in groups, and their maneuverability and/or 
confinement to small, normally shallow areas. The migratory and feeding 
patterns of the Keys' most sought-after shallow water game fish--
Bonefish, Tarpon and Permit--have changed in response to the increased 
traffic of PWCs across the shallow grass flats and because of the speed 
and maneuverability of these craft. PWC operators have been observed 
harassing schools of fish on the flats, Key Deer swimming the canals of 
the Lower Keys, manatees, dolphins, and surfacing birds. To my great 
dismay, I have witnessed frequent incidents of habitat destruction, 
wildlife harassment and the death of birds purposely run down by PWC 
riders.
    This is clearly a national issue. There is documented evidence of 
community after community across the country struggling to find 
solutions to defend sensitive ecosystems against the activities 
associated with the unregulated operation of personal watercraft. In 
South Florida, PWC use is prohibited in Biscayne National Park, 
Everglades National Park and the Wildlife Refuges of the Lower Keys. 
These areas offer safe haven for migratory and resident bird, marine 
mammal and fish populations, and protection for nursery habitats and 
this level of resource protection should be extended to the Florida 
Keys National Marine Sanctuary as well. Precedent already has been set 
in the Monterey Bay and Gulf of Farallones National Marine Sanctuaries 
with the establishment of special zones of operation for personal 
watercraft.
    The notion that personal watercraft must be treated the same as any 
other vessel is puzzling and incongruous. Reckless and intrusive PWC 
use tends to discourage others from using the resource. A day's 
fishing, diving, swimming or canoeing is often ruined by the negligent 
operation and inappropriate behavior of PWC riders. Governments at the 
Federal, state and local levels regulate our public roads and 
waterways. This is not ``discrimination'', it is ``zoning''. I realize 
that it would be unfair and unrealistic to recommend a ban on PWCs 
across the U.S., and while there are certain places where loud and fast 
``thrill craft'' operation might be appropriate, there are also certain 
places where it is not.
    In conclusion, there appears to be a very strong need for Federal 
regulation of personal watercraft use in our country's environmentally 
sensitive coastal areas, and freshwater lakes and rivers. Congressman 
Saxton's bill, H.R. 702, is a good start and if implemented, could do 
much to lessen environmental impacts and improve PWC operator safety, 
thereby reducing user conflicts.
    We must not roll back the regulations already in place. As we have 
already lost so much ground in sensitive coastal areas to development, 
we cannot afford to lose even more ground in our preserves, 
sanctuaries, national parks and seashores, and wildlife refuges. We 
need to go forward and identify where protection is needed. It is the 
responsibility of this committee to protect the natural environment of 
the places that have been and will be determined in the future to have 
special significance for wildlife.
                                 ______
                                 
    The Chairman. Thank you.
    The gentleman from Pennsylvania I will now recognize for 
any questions he may have for this panel.
    Mr. Peterson. Thank you, Mr. Chairman.
    Mr. Mackey, knowing the Federal land managers want 
increased wilderness designated areas, who do you suppose they 
envision using these areas?
    Mr. Mackey. I guess they would have to answer that question 
specifically, but I think there are a number of things going in 
this country.
    You state that managers want increased wilderness. I think 
that is fair in some places, not in all places. There is a 
large constituency of people in this country who certainly want 
more wilderness areas for a variety of reasons.
    I guess I would answer that question by, what Outward Bound 
promotes is a spectrum of opportunities in the backcountry, 
from wilderness to roadless to pristine nonmotorized to 
pristine motorized, et cetera.
    And I think we, as a country, need to take a close look at 
that. I don't think we can afford to get to the point where we 
have islands of wilderness in this country, whether we have 
more of it or not.
    I have 20 years of background in the public policy realm. 
Personally, I don't necessarily agree with the way the Clinton 
administration went about the roadless project. I don't think 
it is a brilliant piece of public policy.
    That said, Outward Bound is unabashed about wilderness and 
unabashed about roadless opportunities. But I am also unabashed 
about opportunities for all Americans out there.
    And I think that is what is missing from the debate and 
from management out there on public lands today, that we are 
not looking at--I don't prefer to use the word recreation--but 
we are not looking at recreation or visitor opportunity across 
a broad spectrum of opportunities. We are not managing 
recreation or visitor opportunity across a broad spectrum. We 
are not looking at it regionally, et cetera.
    I think there is room out there for everyone. And there are 
places where, absolutely, we can afford more wilderness. But we 
can't get caught in a trap of wilderness versus nonwilderness, 
motorized versus nonmotorized, recreation versus nonrecreation. 
That is what we have to avoid.
    Mr. Peterson. You are there. Who is using the wilderness 
today?
    Mr. Mackey. Well, that varies by agency, in particular. 
Park Service wilderness--
    Mr. Peterson. Who does the best job?
    Mr. Mackey. Who does the best job of using it?
    Mr. Peterson. Of allowing all to--
    Mr. Mackey. Who does the best job of allowing people to use 
wilderness? Well, I would say that that is probably the BLM at 
this point in time. It offers the most spectrum of people in 
wilderness. They are the most liberal in terms of group size. 
There is the least administration.
    The Park Service is getting increasingly restrictive on 
access. We have a group size of six in Glacier National Park.
    Outward Bound used to operate in the backcountry of Gates 
of the Arctic National Park where they now have a group size of 
seven. Due to our desire to reach out and engage a diverse 
spectrum of Americans in that wilderness, to give scholarships 
to people, we can no longer afford to operate in the Gates of 
the Arctic National Park. We have left the park because of the 
group size of seven.
    Mr. Peterson. What group size works?
    Mr. Mackey. For Outward Bound, the way we describe that is 
a group size of six is probably too small; a group size of 15 
is probably too large.
    For Outward Bound, I would say it is somewhere between 10 
and 12 people, because what we are trying to do is educate in 
backcountry. So we are looking at the backcountry as a 
classroom, and we are looking at things like instructor-to-
student ratios.
    A group size of five or six is too small for that. A group 
size of 15 is too large. So we have very specific parameters 
which we work in and for objectives we are actually trying to 
achieve in the backcountry.
    Those types of things I can flatly say are not being taken 
into consideration in the development of group sizes today.
    Mr. Peterson. How long has the group size been restricted 
that much?
    Mr. Mackey. Most of the group sizes that low are very new. 
It is a trend.
    As I say, Outward Bound is a very large and significant 
user of the backcountry in the United States. We celebrate our 
40th anniversary today, this year. We put about 15,000 people a 
year out into backcountry, not necessarily wilderness 
experiences.
    Most places, group sizes are still 12, 15. In many Forest 
Service and BLM areas, it is 15 or 25, particularly for horse 
packers, et cetera.
    But the trend is absolutely in the other direction in 
formal planning process after formal planning process, whether 
it is the Forest Service, the Park Service, or the BLM.
    We are going to group sizes of six and seven in the Park 
Service wilderness. We are going to group sizes in the Sierra 
National Forest for the Forest Service of group sizes as low as 
zero on many trails; for commercial outfitters, five and seven. 
The Escalante in the Chairman's district area of the BLM, 
Escalante National Monument just went to a group size of 12.
    Mr. Peterson. What is the rationale for the real small 
group size? What is their reasoning?
    Mr. Mackey. First and foremost, resource protection. But I 
think the thing that is increasing mentioned--if you will, the 
crutch--is solitude, that somehow large groups, even groups as 
small as large, however you look at it, of 8 and 10 people are 
not compatible with the concept of solitude.
    Outward Bound has for four decades looked to solitude. What 
we do is pull kids out of their comfortable urban environments 
and take them out in the backcountry and, if you will, put them 
through a little form of boot camp.
    We get them out of bed at 4 o'clock in the morning, get 
them dressed, and make them climb a peak. We give them the map. 
We give them the compass, and say, ``Be back here by 5 o'clock 
this afternoon.''
    Mr. Peterson. Who has been successful at restricting these 
numbers? Who thinks the number should be this low? Who has been 
successful at getting these numbers lowered?
    Mr. Mackey. I honestly think it is coming from the field, 
the field-level offices. I do not get it from the people I work 
with on a daily basis here in the Washington office.
    Mr. Peterson. No national association of anybody that is 
saying it should be less?
    Mr. Mackey. Oh, there are certainly groups out there.
    I mean, I will mention one specifically, Wilderness Watch, 
who does good work. I worked with George Nickas on the fixed 
anchor in wilderness issue. I am not shooting at Wilderness 
Watch by any stretch.
    But there are definitely organizations out there that are 
promoting their interpretation of the Wilderness Act and their 
interpretation of wilderness values, and that is fair.
    That is what I am doing here today. I am promoting my 
interpretations of wilderness values to say that should include 
educational use of public lands, that not all use of public 
lands out there is recreation. We certainly don't view 
ourselves as recreation.
    The University of Idaho put 31 separate programs out onto 
the public lands in Idaho, across the country. They go up and 
climb Denali. Almost none of those programs are permitted or 
administered or recognized by the agencies for their 
educational value on public lands.
    If President Bush wants to be the education President, I 
would ask him to look to and communicate with the managers of 
public land agencies in this country about why the University 
of Idaho is putting 31 separate groups--whether it is the 
English honors program, the range management program, the 
forestry program, or the formal outdoor recreation program of 
the university--out onto public lands.
    Obviously, they see an educational value to those 
resources. We are not managing for that educational value. We 
are not funding for that educational value. We are not looking 
at group sizes which allow that educational value.
    Mr. Peterson. So we are really not allowing it?
    Mr. Mackey. I want to be clear, in most places, we are 
absolutely still allowing it, but the trends are absolutely to 
smaller and smaller group sizes.
    In the Sierra National Forest, the planning process may 
well put Outward Bound out of business on the Sierra National 
Forest, an area where we have operated for decades. We can't 
survive with group sizes of five, and the proposal from the 
Sierra National Forest is 5 commercial operator days per trail 
head, for which dozens of outfitters, guides, educators will 
compete for those 5 days. That will quite likely put us out of 
business on the Sierra National Forest.
    Mr. Peterson. I thank the gentleman.
    The Chairman. I thank the gentleman from Pennsylvania for 
his excellent questions.
    And this has been a very interesting panel, as the first 
one was.
    The basic thing behind this whole idea is the use of public 
lands that America wants to use. And I don't know whoever said 
moderation in all things, but somewhere we hope we can come to 
that.
    And we feel that this last administration has been a little 
excessive in eliminating people from public ground.
    I would just like to quickly ask questions here, for some 
brief answers, if I could.
    Mr. Bassett, as president of the United States Air Tour 
Association, how many parks do you normally fly over? Ho many 
parks have overflights?
    Mr. Bassett. Not that many. Out of the 370-some national 
parks in the United States, a couple in Hawaii, Grand Canyon, 
Glacier, Denali. And we understand that there are some isolated 
operators at other places, perhaps Bryce. They are not members 
of ours, but I believe there are one or two operators there.
    There are one or two down south, but most of the air 
touring is concentrated at the Grand Canyon, Hawaii, and 
Alaska.
    The Chairman. How many folks are from foreign countries 
that you take over? Do you have a percentage of how many that 
would be?
    Mr. Bassett. Absolutely. And the Grand Canyon and Hawaii 
are key to that. And about 60 percent is the answer.
    One of the Administration's claims, particularly as it 
imposed new regulations in the Grand Canyon, was that it 
wouldn't have an impact on foreign trade. Well, it will have an 
impact on foreign trade, particularly those folks going into 
Las Vegas who are visiting the Grand Canyon, because they don't 
intend to go to the Grand Canyon by any other means.
    They are not going to drive there. They are going to go to 
Las Vegas, do other things, fly to the Grand Canyon as a part 
of their package, and then go back to Las Vegas.
    But approximately 60 percent, very heavily from the Asian 
countries, and increasingly from a number of the European 
countries as well.
    The Chairman. So if I am reading you right, these are 
people that have come into the United States, who are on some 
kind of tour. They don't have the opportunity to hike down the 
canyon, go to the South Rim or the North Rim, but they do have 
maybe 2 or 3 hours that they can block off to fly over and see 
the canyon. Is that right?
    Mr. Bassett. Absolutely. And predominantly from Las Vegas, 
that is true. Those who actually are visiting the Grand Canyon 
from the Arizona side, we may find that they may also drive in 
or go in to the South Rim, but their time is limited. And they 
are trying to see as much of the canyon as possible in the 
shortest amount of time. Air tours do that.
    The Chairman. What about handicapped people?
    Mr. Bassett. We find also that handicapped, retirement age, 
those with health-related problems, also about 60 percent of 
the air tours, not only at the Grand Canyon but in Hawaii and 
Alaska as well. And same story as with international, but even 
more so for those over on the Arizona side.
    There is absolutely no other way for them to see the 
canyon. I mean, they can't even take a bus a get out of it and 
go to the South Rim. We literally watch wheelchairs being 
loaded into aircraft that have been adapted for them. That is 
how they get to see the canyon.
    The Chairman. Mr. Mackey, you talked about, when you were 
answering Mr. Peterson, about a trend on size.
    You know, years ago, when you were in the mountains, when I 
was a kid, the Boy Scouts used to go into the mountains. That 
was part of the deal. That is where you got four or five of 
your merit badges. And now, of course, they want to limit the 
size.
    What trend do you see? If I read you right, you said you 
see a trend. Is that a trend toward smaller, larger or where?
    Mr. Mackey. Specifically on group size, Mr. Chairman?
    The Chairman. On the amount of people that can go into a 
wilderness area, forests, BLM, reclamation parks, the whole 
nine yards.
    Mr. Mackey. And are you talking specifically to wilderness 
here?
    The Chairman. Yes, wilderness.
    Mr. Mackey. The trends are clear. And as I said in my 
answer earlier, we are talking about limited examples if you 
look at the overall spectrum of opportunity on public lands.
    But where we are seeing formal management, wilderness 
backcountry management planning processes taking place, across 
the agencies the trend is clearly toward reducing group size, 
reducing overall allocations of use in wilderness.
    The Chairman. Do you think this predicated on science?
    Mr. Mackey. Well, I have attached to my formal testimony a 
paper spearheaded by Chris Monz at Colorado State University, 
which I would encourage your staff to take a close look at.
    There is really a two-part answer to science. In terms of 
physical carrying capacity of the resource, we are using very 
little science. There is very little formal science, in terms 
of physical carrying capacity of the resource.
    I would submit that group size is the No. 1 management tool 
being used to restrict or reduce access to wilderness at this 
point in time. And recreation ecologists will tell you that we 
have virtually no scientific evidence on group size. We have 
supposition, but we have no hard evidence.
    There is much more evidence out there on the social impacts 
of groups. But the paper, which I attached to my testimony, 
will show you that, if given a spectrum of things people think 
wilderness managers need to manage for in the backcountry or 
problems in the backcountry, if you will, encountering large 
groups often ranks 15th, 20th on a list. Yet, managers are 
telling us that this is one of the No. 1 things they need to 
manage for.
    The Chairman. Always been the argument on the Committee of 
how do we make determinations, or does an agency do it. We find 
that many of these are not made on really good science, but 
more emotion or driven by different groups who feel very 
strongly and are very vocal about areas.
    Vera Smith, you talked about different things. On the last 
panel, I asked them about the question of the 1964 Wilderness 
Act. The act says mechanized, can't take mechanized things in, 
and we have never defined that.
    Everyone argues and struggles over it, but nobody comes up 
with anything. It is kind of like the eye of the beholder.
    You know, people who climb these rocks, they drive these 
things into the rocks. Is that mechanized? Is the hammer 
mechanized? Is the oar lock mechanized? Is the knife in his 
pocket mechanized?
    You know, we changed the act to allow wheelchairs; that was 
the amendment I put in the Americans with Disabilities Act.
    Right now, there are two that are floating around, one on 
taking horses out of wilderness areas, and the other is putting 
mountain bikes in wilderness areas. I don't know if either of 
them will go anywhere. I don't even know if we will entertain 
them.
    But I would be curious as to your reaction to both of 
those.
    Ms. Smith. I think, when we look at the whole landscape, 
especially in the Western areas, we look at the entire 
landscape, there are very few areas, relatively, that qualify 
for wilderness. It was a very strict criteria that was set out 
in that act.
    Managers have the responsibility to manage those lands so 
that those criteria remain, that wilderness values are not 
impaired. So I think any decisions that we make, we have to 
ensure that introducing a use would not impair those wilderness 
values.
    I live in the front range of Colorado, and we have a lot of 
open spaces there, where we have mountain bikes and hiking and 
horses all going together. And the intensity of mountain bike 
use I think would not meet the criteria in the Wilderness Act.
    I think there is some validity in that decision.
    I would also suggest that we have so many areas that are 
open to mountain biking that to take the few that are really 
designated as wilderness and say, ``Okay, we are going to put 
mountain biking in there, too,'' just seems a bit unnecessary. 
There are plenty of areas.
    The Chairman. I appreciate that.
    We are going to run out of time. We have one more very 
important panel to hear from. We have a number of things going 
on on the Hill, the military and the President's budget. You 
noticed that members have come in and out, and all of them are 
pretty well tied up.
    Mr. Ward, I thought your ideas about a commission had some 
validity and is very interesting. We will try to explore that.
    And, Amy Knowles, your comments about PWC would be very 
provocative and debatable in some areas, but that is what we do 
around here.
    Around here, they say everyone has his say and not everyone 
gets his way.
    [Laughter.]
    Anyway, let me thank this panel. And I appreciate you being 
with us.
    And we will turn to our last panel. And our last panel is 
Russell Laine, private PWC user, testifying on behalf of the 
personal watercraft industry; Mr. David Woodside, vice chairman 
of the National Parks Hospitality Association; Mr. Wesley 
DeCou, flying site coordinator, Academy of Model Aeronautics; 
Mr. Tom Kiernan, president of the National Parks Conservation 
Association.
    I appreciate you folks being with us. You know the rules. 
If you'll notice this thing in front of you there, it says 
talk, sum up, and stop. We would appreciate it if you could 
keep your remarks within the 5-minute time. Keep in mind that 
your full testimony will be in the record and is something that 
will be looked at in great detail.
    With that said, Mr. Laine, we will turn to you, sir.



STATEMENT OF RUSSELL LAINE, PRIVATE PWC USER, ON BEHALF OF THE 
            PERSONAL WATERCRAFT INDUSTRY ASSOCIATION

    Mr. Laine. I appreciate the chance to come here and speak 
before you today on behalf of the Personal Watercraft Industry 
Association, personal watercraft users, and owners.
    I am the bottom line. I am the end user. I am the person 
that is being affected by these park closures--myself, my 
family.
    You have been bombarded today with numbers, figures, 
decibels, pollution, different animals. My family and I enjoy 
the use of our personal watercraft.
    I am a 20-year veteran firefighter. I give my live every 
day for the community that I live in.
    My basic thing today is I would like to ask that I get 
equal opportunity to use our national parks, our parks that are 
owned by us, taken care of by our tax dollars. The National 
Park Service has this way of closing doors before people get to 
them.
    1996, I went to the beach with my family, my boats, and I 
stress ``boats.'' The National Park Service met me at the gate 
and said, ``Sorry, you can't come in.'' I was appalled at that, 
where the beach was full of other boats, standard outboard 
motors, inboard motors, scarabs running up and down the beach 
at 60 and 80 miles an hour, much louder than my boats, much 
faster than my boats.
    Yet I had been painted this picture as the modern day 
Hell's Angels on water, and I take offense to that. I take 
great offense to that.
    I am a civil servant. I work hard. I like to just enjoy the 
open land.
    I am an avid fisherman. My son and I used to both hold 
commercial fishing licenses. We fished off of our personal 
watercraft. I have caught many nice striped bass off of Cape 
Cod. That has been removed from my agenda. My family is no 
longer allowed to do that.
    My 17-year-old son has been forced to find alternative 
means to go fishing, because we are no longer allowed to fish 
off our watercraft.
    I would ask that you look at the closings and the access to 
these parks, not only on Cape Code, across the country.
    There are lakes in the Midwest, Lake Mead, that they are 
trying to close up. That was a manmade lake. I believe it was 
built for boating recreation.
    The Florida Keys, beautiful land. I have seen it.
    Two years ago, I took my family to Alaska, the vacation of 
a lifetime. We drove 15 days to get there. Got to Denali 
National Park and was told, ``You can't drive in there.'' You 
have to take this school bus and sit on the school bus for 7 
hours if you want to see Denali National Park.
    Once again, I am appalled that the National Park Service 
has just closed the doors to us taxpayers, Federal taxpayers 
that pay for these parks.
    Personal watercraft have been painted as a picture of the 
fast car on the water. I am sure that every person here that 
owns a vehicle, your vehicle is capable of doing probably 100 
miles an hour on our streets. But it doesn't go that fast 
because you don't step on the gas that fast.
    Personal watercraft do not automatically go 50 miles an 
hour. It is the operator that makes it go 50 miles an hour.
    I have never heard a report of a manatee being chopped up 
by a personal watercraft. Yet, oil tankers, scarabs, fast 
racing boats are allowed to use these waters where personal 
watercraft are not allowed because of environmental issues.
    There are a lot of issues that are being brought up right 
now, with economics. It is an economic issue in this world, 
too. I cannot afford $150,000 scarab boat that is allowed on 
the waters that I can't take my personal watercraft.
    To close, I would just like to ask for my fair share. That 
is what I am looking for, my fair share. And the hundreds of 
people, the thousands of the people, that are across the 
country that own these personal watercraft are looking for 
their fair share.
    These vessels have been painted as a bad picture, a really 
bad picture. I have never seen substantiated evidence, 
ecologically, scientifically, that prove that these boats are 
destroying our national parks. If there is in existence, I 
would like to see it.
    I met every criteria that I have ever been asked to meet. 
And yet, I still cannot use my national parks.
    And I thank you, sir, for giving me the time to express my 
opinion.
    [The prepared statement of Mr. Laine follows:]

  Statement of Russell Laine, Boston, Massachusetts, on Behalf of the 
                Personal Watercraft Industry Association

    Good Morning. Thank you Chairman Hansen, Ranking Member Rahall and 
members of the Committee. I am honored to be here today to talk about 
such an important issue and to have the opportunity to speak on behalf 
of the millions of people who enjoy personal watercraft and are 
devastated at the prospect of being kept from enjoying our National 
Parks.
    I am speaking of the National Park Service personal watercraft ban. 
On March 21, 2000, the National Park Service published a regulation in 
the Federal Register banning personal watercraft in 66 of the 87 
national parks. In the remaining 21 parks, the Service delegated two 
years for superintendents to work with the public in deciding how to 
handle personal watercraft use in the park.
    However, an extremist, anti-access group dedicated to ending a 
wide-array of recreational activities on public lands and waters, set 
their sights on personal watercraft and filed a Federal suit against 
the National Park Service to ban all personal watercraft in all parks 
by 2002.
    Demanding that the voice of the personal watercraft community be 
heard in this lawsuit, motions were filed by representatives to ensure 
a fair and open participation in the process. Intervention was sought 
by the Personal Watercraft Industry Association (PWIA), representing 
the manufacturers Bombardier, Kawasaki, Polaris, and Yamaha, and the 
national user group American Watercraft Association (AWA).
    Unfortunately, in December 2000, the Park Service caved to the 
pressure and settled the lawsuit without any input from the public or 
the personal watercraft community. When Federal district court ruled on 
the personal watercraft suit in April 2001, the judge also denied the 
intervention requests of PWIA and AWA. However, the ruling reached does 
ensure that the 21 remaining parks be open to personal watercraft at 
least through September 2002 and that an environmental assessment be 
carried out in each park under the National Environmental Policy Act. 
Many parks have already begun the steps necessary to allow personal 
watercraft use, but some parks had already been closed off to usage 
through the superintendents' earlier decisions.
    Mr. Chairman, I am a firefighter and family man from Massachusetts. 
I am a member of the Taunton Rescue Dive Team and have used personal 
watercraft in a number of rescues. It is a reliable vessel that gives 
me the maneuverability to get up close to help anyone in trouble 
without risking injury to the person I am saving.
    Also, my family and I previously owned two personal watercraft. We 
shared many outings on these boats--going fishing, touring the Cape Cod 
National Seashore and enjoying a safe and fun family recreation. 
Personal watercraft not only have brought my family closer together, 
but also have increased our enjoyment of the outdoors
    I have been going to Cape Cod National Seashore for 37 years, and I 
was hoping my children could experience the reverence and enjoyment of 
such an incredible resource in the same manner. We are diligent in 
protecting these resources, respect the national parks and have always 
been environmental stewards in every aspect of our lives. Mr. Chairman, 
we are the people the national parks were created for.
    That is why I am honestly stunned that it is necessary for me to be 
here today. I still can not believe that the National Park Service has 
seen fit to engage in a closed-door settlement that essentially has 
told 1.5 million personal watercraft owners that they are no longer 
welcome in our national waters. That my family, who has always been 
conscientious in protecting our natural resources, is not welcome to 
boat in the park.
    Many of the 21 parks affected by this decision were created for 
water recreation, including motorized boating. Personal watercraft and 
other forms of water recreation have been enjoyed side-by-side in our 
national parks for more than a quarter of a century. Now, my neighbor, 
who owns a KrisKraft, is still welcome at the park. If he owned a 
cigarette boat, he'd still be welcome at the Seashore. But my son and I 
can longer enjoy fishing the waters off the Cape on our personal 
watercraft. I'd like the Superintendent of the National Seashore to 
tell me how this can be the right thing for the park.
    But it's not just Cape Cod National Seashore. I've talked to 
friends around the country. At Padre Island National Park in Texas you 
can drive your truck up and down the beach, right on the beach, but 
personal watercraft are not welcome. I know people around Gulf Islands 
National Seashore in Mississippi and Florida will be unable to see 
areas of that park accessible only by boat. And did you know that 
personal watercraft are not allowed in Key Biscayne National Park, but 
oil tankers, barges and cigarette boats are still welcome? How can that 
be good or fair policy?
    And that's the real issue. The ban is not sound policy. It was 
orchestrated by a group of people who preach intolerance towards any 
form of motorized recreation, has been taken at face value without any 
scientific support. Even the General Accounting Office in September of 
2000 revealed that the National Park Service had not used reliable 
scientific methods to quantify the impact of personal watercraft. Yet 
the National Park Service banned the boats anyway.
    What science does prove is that personal watercraft are ideal for 
use in our national parks and any waterway where other motorized 
boating is allowed. Our boats are some of the most environmentally 
friendly vessels on the water today, meeting or exceeding all state and 
Federal noise level standards, without disturbing sensitive marine and 
wildlife. I think that the millions of personal watercraft owners and 
enthusiasts around the country will agree with me when I say that, when 
operated according to existing state boating laws, personal watercraft 
are not only clean and safe, but one of the best riding and most 
enjoyable boats out on the water. Personal watercraft should be welcome 
where motorized boating is allowed.
    Consider these facts:

                             PWC AND SOUND

    The Society of Automotive Engineers utilizes 3 methods of measuring 
sound from watercraft, including PWC:
    <bullet> LSAE J34: This is the most precise measurement available, 
taken of a boat at a distance of 50ft with wide-open throttle (the near 
maximum noise of the boat). Although great for engineering standards, 
it is difficult for enforcement purposes in the field. The Coast Guard 
recommends 86 decibels (dBA), which most states have adopted as law.
    <bullet> LSAE J2005: This measures the engine sound at idle with 
the microphone 1.5 m away. SAE recommends a limit of 90dbA for this 
method, which does not account for the speed or power of the boat.
    <bullet> LSAE J1970: In realizing the enforcement difficulties of 
the previous methods, SAE designed this shoreline noise test enabling 
regulations keeping the boat under 75 dBA at 50 ft. by operation, not 
mechanics. The operator is responsible for controlling the noise of the 
boat.
    dB refers to the measurement in decibels. The (A) refers to the 
``A'' weighting of the scale, which discriminates against lower 
frequency similar to the sensitivity of the human ear.
    Sound energy dissipates with distance, other sound and wind. A 
comprehensive study on sound with motorboats (but not including PWC) 
found that sound dissipates up to 9.9dBA when the boat travels from 50 
ft to 200 ft away (4.8 dBA reduction from 50 to 100 ft, additional 5.1 
dBA from 100 to 200 ft.). <SUP>1</SUP>
    Both the National Association of State Boating Law Administrators 
and the National Marine Manufacturers Association have Model Noise 
Acts, which our manufacturers follow as NMMA members. These 
requirements are in compliance with the SAE recommended dBA standards. 
NASBLA required 88 dbA under SAE J2005, and 75 dBA under SAE J1970. 
NMMA recommends 90 dBA under SAE J2005. <SUP>2</SUP> The Environmental 
Protection Agency has determined that 75 dBA at 50 feet is an 
acceptable noise level to protect public health and welfare. 
<SUP>3</SUP>
    There are two items creating the noise one hears from PWC: noise 
from the water splashing the hull and resonating, and the noise from 
the engines during normal operation of the PWC.
    Tests comparing noise levels emitted by 2001 models found that a 3-
seat PWC emits 70 dBA at 100 ft when towed, when engine is not running! 
When tested with a running engine at full throttle, the engine sound 
plus the water sound created 78 dBA, well below the Coast Guard's boat 
noise regulation of 86 dBA at 50ft at full speed under SAE J34.
    The personal watercraft industry has reduced engine noise levels by 
up to 70% since 1998. The 70% reductions in noise levels since 1998 
also involve the pitch of the engine. Methods by which they absorb or 
block the wavelengths of sound also blocks the pitch of the sound. 
<SUP>4</SUP>
    To reduce the noise intake, the PWC utilized air intake resonators 
with multiple maze-like chambers eliminating a direct path for the 
sound waves to escape. <SUP>5</SUP> This series of tubes, termed the 
resonator, employs several different length tubes attached to the 
exhaust pipe. As sound waves pass into these tunnels, they bounce back, 
and their opposite direction cancels out incoming, identical but 
opposite ``crest'' waves. <SUP>6</SUP> Baffles are used for counter 
frequency and to quiet vibration. Manufacturers also employ noise-
absorbing foam between the liner and the hull, so the boat is quieter 
and more durable (and therefore quieter under water.) These machines 
also have increased thickness to the crankcase wall muffles noise and 
vibration. Rubber is also used as padding around the jet pump dampers 
to absorb the shock loads and quell driveline noise. <SUP>7</SUP>
    In 1999 the Finnish Ministry of the Environment performed sound 
experiments on old and new PWC, and compared to 2 stroke, four stroke, 
and cabin cruiser. The boats were measured at different speed, 
different distances, and by irritation to observers (subjective).
    At maximum speeds 50 m away (164 ft), the new PWC was 70 dBA, and 
the old PWC was 73 dBA. In order to compare this to the SAE J34 
standard, a PWC at 41 ft in this test, according to their 
(unfortunately metric) figures, would measure 79.9 dBA (new) and 82.9 
dBA (old). Even at a slightly closer distance, the PWC are below the 
U.S. Coast Guard noise level standards in SAE J34.
    In any case with the Finnish experiment, comparisons with other 
boats found that the new PWC was the quietest and least disturbing boat 
at speeds up to 40 km/h and at lower speeds. It was the most variable 
in terms of noise, because at 20 km/hr and at maximum speed it was 
almost as loud as the cabin cruiser. The new PWC was much quieter than 
the old PWC in every test, by an average 3.6 dBA (comparing all speeds 
and distances)! The waves from the PWC were so minor, due to their 
small size and weight as to be confused with natural waves. Distance 
and manner driven were the most significant factor in disturbance. 
``The restrictions concerning PWC do not seem justified with the new 
models, if there are other regulations that could be set for top speeds 
and driving manner. <SUP>8</SUP>
    In New Jersey, the state police measured the noise levels of PWC in 
1996 in accordance with SAE J2005 (idle engines). These older model PWC 
were found to have decibel levels of 71 and 70 in these tests, well 
below recommended levels of 88 dBA by NASBLA. In contrast, the outboard 
engine measured 74 dBA, outboard engine with exhaust above the water 
measured 90 dBA, while the racing boats measured came in at 95-99 dBA. 
<SUP>9</SUP> The Marine Police Captain at the time was quoted in the 
press ``It's interesting to note that in light of all the complaints we 
get about PWC, their noise levels are much lower than other boats.'' 
<SUP>10</SUP>
    Sound level tests performed according to SAE J1970 in California 
found PWC measure an average of 70.68 dBA comparing the 4 brands of 
1992 models. This is also well below the standard 75 dBA limit set by 
NASBLA. <SUP>11</SUP>

                           PWC AND EMISSIONS

    PWC manufacturers have made enormous technological advances in 
recent years that have resulted in engines that are 75 percent cleaner 
than just two years ago.
    Contrary to what anti-PWC groups claim, independent research done 
by the U.S. Environmental Protection Agent (EPA) and the California Air 
Resources Board states clearly that the majority of PWC emissions are 
not oil or gas but rather hydrocarbons. <SUP>12</SUP> Furthermore, EPA 
studies on PWC hydrocarbon emissions prove that hydrocarbons are not 
``dumped directly into the water'' from the engine of a PWC, as 
opponents contend, but are mixed with air into a diluted gas in the 
combustion chamber which then evaporates quickly due to their high 
temperatures. <SUP>13</SUP>
    The EPA has determined that emissions from boat engines in the U.S. 
account for only 3 percent of the total amount nationwide, while PWC 
emissions account for only a fraction of those marine engine emissions. 
Specifically, the EPA has determined that PWC-specific hydrocarbon 
emissions account for only 0.3 percent of the country's total 
hydrocarbon emissions. <SUP>14</SUP> By comparison, automobiles account 
for 33 percent of emissions in the nation, while the commercial 
industry is responsible for 57 percent. <SUP>15</SUP>
    The industry has worked hard to meet 2006 EPA clean air guidelines 
in the 2001 personal watercraft models. That's five years early. It 
took the automobile industry almost three decades to accomplish the 
same goal. Personal watercraft are one of the cleanest motorized boats 
on the water today.

                            PWC AND WILDLIFE

Waterfowl
    Personal watercraft have no greater significant impact on waterfowl 
than other motorized boats, according to a series of studies by the 
Florida Fish and Wildlife Conservation Commission. A comparison of the 
flush distances, or minimum distance required to disturb colonial 
nesting birds, caused by personal watercraft and a two-stroke engine 
motorboat found that personal watercraft are ``relatively quiet to the 
point where their noise is not the factor which causes the birds to 
flush.'' A fast-moving motorboat heading directly at the birds should 
produce a flushing response similar to that of a PWC being operated in 
a similar manner.
    Most importantly, only one out of eleven species in the study 
exhibited a larger flushing distance to the PWC than the motorboat. 
Five species flushed at farther distances by the motorboat than the 
PWC, and eleven species showed no significant difference in flushing 
distances based on the boat approaching. In his discussion, Dr. Rodgers 
claims there should be no difference in buffer zone size based on boat 
type. Species type is more important when determining boundaries which 
should not be crossed by humans. As both PWC and outboard motors, when 
equipped properly, can go into shallow water, they both have the 
potential to disturb loafing birds. <SUP>16</SUP>
    Similarly, a different study in Florida found an average greater 
flush distance in response to walking than to approaching motor boats 
or canoes. As a result, the researchers recommended set back distances 
for all human activity of 100 m (328 ft) for wading birds and 180 m 
(590 ft) for skittish species such as skimmers and terns. The 
researchers also cited to one report finding no significant effect on 
breeding success due to disturbance by boats or other methods.
    Through successive disturbances, Rodgers et al. found that certain 
species became increasingly or less tolerant of disturbance. Although 
there was a small sample size in the experiment comparing canoes to 
motorboats, the American Anhinga (water turkey) was flushed at equal 
distances by the different types of boats. The reaction was not a 
function of noise. Additionally, birds were less sensitive to a 
tangential approach as opposed to a direct approach, whether by foot or 
boat. <SUP>17</SUP>
    PWC are frequently blamed for the deaths and decreasing populations 
of loons in the upper United States. However, there has been no 
comprehensive study on the plight of the loon, or the effect of boating 
and development on their populations. For instance, Sutcliffe (1979) is 
cited in one article as reporting a 50% decline in the loon population 
in New Hampshire from 1929-1979, prior to any PWC use! <SUP>18</SUP>
    It is actually the loss of nesting habitat, increased human 
interaction and increased predation by urban animals such as raccoons 
that have led to the decrease of the many populations of birds around 
the country. In terms of mortality, there are very few reports of 
waterfowl death directly from motorboats, and no studies cite it for 
personal watercraft. <SUP>19</SUP>
    The regulation of one type of craft does not address the overall 
issue that human development, including these lake associations, 
created to protect the very wildlife they are harming, is to blame. In 
fact, one study found loons are disturbed more by human activity on 
lakes with no boating than on lakes with watercraft. <SUP>20</SUP>

Manatees
    Manatee injury and death from personal watercraft is non existent. 
The FL Department of Environmental Protection, Bureau of Protected 
Species Management reported in a review of over 25 years of manatee 
mortality records, no PWC was ever implicated in a death or injury. 
<SUP>21</SUP>

Seagrasses and Water Quality
    The only comprehensive test evaluating personal watercraft's impact 
on seagrasses indicate that personal watercraft use as recommended by 
the manufacturers does not affect seagrass beds, water turbidity or 
cause scarring of the grassbeds. <SUP>22</SUP>

                        PWC ACCIDENT STATISTICS

I. PWC Accidents v. Other Vessel-Types Accidents
    ``Comparisons are Misleading because Non-Fatal Vessel Accident 
Reporting Methods Are Flawed.''
    A. LHours of Operation (``Riding Time'') should be a primary factor 
when comparing PWC accidents with other motorized vessel accidents.
    The National Transportation Safety Board (NTSB) has indicated that 
the lack of relevant usage data for recreational boats prevents an 
accurate conclusion regarding PWC-related accidents.
    According to the NTSB:
          Riding time is an important factor in interpreting accident 
        and injury information. To accurately compare PWC accidents to 
        accidents involving other types of recreational boats, it is 
        necessary to qualify the usage time by vessel type. If PWC are 
        used more often than other types of boats, then their exposure 
        time for incurring an accident would be higher. <SUP>23</SUP>
    Conventional vessels spend much of their time docked, anchored, or 
drifting. As a result, they are destination-oriented and are operated 
from one point to another in a relatively short time. Conversely, PWC 
are almost always in active operation when on the water because the 
recreational objective of a PWC user is active touring rather than non-
operational water activities such as fishing. Studies have shown that 
PWC are on the water as much as three times longer than most other 
types of boats.
    Additionally, PWC are often ``shared'' by a number of users during 
the course of an outing, therefore increasing the average riding time 
for a single PWC as compared to other types of vessels.
    B. LNon-fatal boating accidents often are not reported.
    The U.S. Coast Guard, which maintains the national database of 
boating accidents, estimates that only 10 percent of all boating 
accidents each year are reported to state agencies. <SUP>24</SUP>
    According to the Coast Guard, ``The reporting rates of subgroups of 
accidents, such as those involving personal watercraft probably differ 
greatly depending upon unspecified variables. <SUP>25</SUP> In a 
separate comment, Captain T. Stimatz, Chief, Office of Boating Safety, 
United States Coast Guard, specifically indicated he believed PWC 
accidents were significantly more likely to be reported than other 
boating accidents.
    According to the 1999 Boating Statistics Report compiled by the 
Coast Guard, many accidents are not reported because of ignorance of 
the law and difficulty enforcing the law. <SUP>26</SUP>The Coast Guard 
believes that only a small fraction of all non-fatal boating accidents 
each year in the United States are reported. Overall, the more serious 
the accident, the more frequent the reporting. <SUP>27</SUP>
    As the Coast Guard suggests, PWC accidents are probably reported 
much more often than other boat accidents because, among other things, 
PWC are rented more than other boats and PWC rental operators report 
most accidents for insurance and product liability reasons. Also, many 
PWC accidents involve collisions, which most state laws require be 
reported.
    In contrast, people tend not to report accidents when they have 
fallen in an open boat, injury themselves while starting an outboard 
motor, or suffer an injury while canoeing or kayaking.
    C. LSince 1997, the number of boating accidents each year has 
remained consistent, while PWC related accidents have decreased 
significantly.
    PWC accidents have been reduced by 17 percent since 1997, while 
boating accidents across the board have only decreased by 0.19 percent.
    Over that same time period, PWC-related injuries have been reduced 
by 11 percent while fatalities have dropped 21 percent. Comparatively, 
boating accidents as a whole have increased by 1.25 percent and boating 
fatalities have been lowed by 2.38 percent.

II. Current PWC Accident Totals v. Previous Year PWC Accident Totals
    ``PWC critics chose to focus on the ``increase'' in the total 
number of accidents. However, a proper perspective on PWC accidents may 
only be reached by considering the increase in PWC use along side the 
number of PWC accidents.''
    A. LSince 1987, PWC accident, injury and death rates have seen no 
significant statistical increase.
    In 1987, 92,756 PWC were in use across the nation. With 376 PWC 
accidents that year, only 4.05 per 1,000 PWC on the water were involved 
in an accident. Of those 376 PWC accidents, 156 resulted in injury and 
5 were fatalities, resulting in a national injury/death rate of 1.68/
0.05 per 1,000. In 1987, 99.6 percent of PWC in use were not involved 
in an accident of any kind.
    In 1993, there were 454,545 PWC in use national with 2,236 total 
accidents for a 4.91 per 1,000-accident ratio. That year, 915 accidents 
resulted in injury and 35 were fatal. This resulted in a national 
injury/death rate of 2.01/0.08 per 1,000. In 1993, 99.6 percent of PWC 
in use were not involved in an accident of any kind.
    In 1999, there was an estimated 1.1 million PWC in the Untied 
States. That year, there were 3,374 PWC accidents nationwide, resulting 
in an accident ratio of only 3.07 per 1,000. With 1,614 injuries and 66 
fatalities that year, the national injury/fatality rate dropped to a 
low of 1.47/0.06 per 1,000. In 1999, 99.7 percent of PWC in use were 
not involved in an accident of any kind.
    B. LPWC accident rates are not reported using the same method used 
to determine other types of transportation accidents.
    Transportation studies in the airline, train, and bus industries 
are based on passenger injuries/fatalities per passenger mile and are 
designed to gauge the level of danger confronted by riders. If PWC 
statistics were similarly based on ``exposure hours,'' the accident 
incidence rate would be even lower than the present 0.7%.
    C. LMultiple-passenger PWC have increased in popularity in recent 
years.
    Prior to 1987, PWC were designed to carry one person at a time. 
During the past fifteen years, however, PWC that allow for two, three 
and four persons to ride together have become the most popular models. 
This change undoubtedly accounts for at least some of the reported 
increase in the injury and fatality statistics.

III. PWC State Accident Statistics
    ``The most common cause of PWC-related accidents involved operator 
inexperience, excessive speed, and operator inattention. To address 
these concerns, PWIA has supported mandatory education for all PWC 
enthusiasts. To date, 35 states have enacted PWIA-endorsed mandatory 
education for PWC users in some form. This being the case, in each of 
these states, PWC accident rates have significantly deceased.''
    A. LFlorida, which is the leading state for PWC registrations, has 
enacted comprehensive PWC-laws in recent years. As a result, PWC 
registrations have increased by 38 percent since 1995 while PWC 
accidents have been reduced by 22 percent over that period of time - a 
7-year low.
    Florida's PWC-laws include the following provisions:
    <bullet> LEach person operating or riding on a personal watercraft 
must wear an approved Type I, II, III, or V personal floatation device. 
Inflatable personal floatation devices are prohibited.
    <bullet> LThe operator of a personal watercraft must attach the 
engine cutoff switch lanyard (if equipped by the manufacturer) to his/
her person, clothing, or PFD.
    <bullet> LPersonal watercraft may not be operated from 1/2 hour 
after sunset to 1/2 hour before sunrise.
    <bullet> LManeuvering a personal watercraft by weaving through 
congested vessel traffic, jumping the wake of another vessel 
unreasonably close, or when visibility around the vessel is obstructed, 
or swerving at the last possible moment to avoid collision is 
classified as reckless operation of a vessel (a first-degree 
misdemeanor).
    <bullet> LA person must be at least 14 years of age to operate a 
personal watercraft in this state.
    <bullet> LA person must be at least 18 years of age to rent a 
personal watercraft in this state.
    <bullet> LIt is unlawful for a person to knowingly allow a person 
under 14 years of age to operate a personal watercraft (a second-degree 
misdemeanor).
    <bullet> LPWC Liveries must provide on-the-water demonstration and 
a check ride to evaluate the proficiency of renters.
    <bullet> LPWC Liveries must not rent to anyone under the age of 18 
years of age.
    <bullet> LPWC Liveries must display safety information on the 
proper operation of a PWC. The information must include: propulsion, 
steering and stopping characteristics of jet pump vessels, the location 
and content of warning labels, how to re-board a PWC, the applicability 
of the Navigational Rules to PWC operation, problems with seeing and 
being seen by other boaters, reckless operation, and noise, nuisance, 
and environmental concerns.
    B. LOther states have enacted similar safety and education 
legislation and have also seen positive results.
    <bullet> LThe Pennsylvania Fish & Boat Commission recently released 
its ``2000 Pennsylvania Boating Accident Analysis'' which shows a 
dramatic drop in personal watercraft (PWC) accidents and injuries. The 
annual report lists the number of reported recreational boating 
accidents for 2000. Officials recorded only 13 PWC accidents in 2000, 
23 less than in 1999, and only 11 total injuries for 2000. These 
dramatic reductions, causing the lowest figures since 1992, occurred 
while more than 3000 new PWC were registered in the state. The Analysis 
also reports 2000 was the eighth straight year there were no fatalities 
on board a PWC.
    <bullet> LIn Minnesota following the institution of mandatory PWC 
education, PWC accounted for one-third fewer collisions last year than 
three years ago.
    <bullet> LIn Wisconsin with mandatory education, PWC accidents have 
decreased by 68 percent in the last two years, and
    <bullet> LIn Virginia, mandatory education helped reduce the number 
of accidents by almost 40 percent since 1999.
    <bullet> LIn California, accidents involving PWC have decreased 32 
percent since 1998
    <bullet> LIn Connecticut, since 1992 when mandatory PWC education 
went into effect, the state has graduated over 22,000 students. This 
represents over four graduates for every PWC registered in Connecticut. 
As a result, while the number of registered PWC has tripled in recent 
year, the rate of accidents has declined.
    C. LA number of factors must also be considered when comparing PWC 
accidents among states, including the existence of mandatory PWC 
education, number of PWC registered in the state, and the length of the 
boating season.

                        PWC AND WATER MANAGEMENT

    Millions of people enjoy our nation's waterways, including the 
National Park System each year. As our waterways become more congested, 
appropriate management of these waterways is a significant challenge.
    Water management policy should be based on scientific analysis and 
fair judgments--not personal opinion and campaigns of misinformation. 
Improved management, rather than exclusion, prevents the problem of too 
many boaters in one area, and allows all citizens, instead of only 
those with bigger and more expensive boats, to enjoy the natural beauty 
of our waterways.
    Moreover, bans frequently have a domino effect, restricting boats 
from more and more waterways until there is nowhere left to cruise. 
What happens when the thousands of PWC users in the state, anxious to 
get back on the water, crowd lakes and rivers with larger boats. Will 
they be banned also in the near future?
    Instead of managing the water effectively, authorities have 
discriminated against an entire class of boaters and taken choice away 
from the American people. It's a slippery slope that can be avoided by 
reasonable, common sense regulations rather than total restrictions.
    Mr. Chairman, I appreciate the opportunity to be here today and 
want to thank the Personal Watercraft Industry Association who made it 
possible for me to be here today.
    I want you to know that the National Park Service's personal 
watercraft policy is based on misinformation and was promulgated 
without hearing from the people it affects. I just want to let you know 
that this ban was put into place without input from the people it 
affects--honest, taxpaying citizens who have a right to be on the water 
where other motorized boating is allowed. This ban is discriminatory 
and wrong. Scientific assessments will prove what we PWC boaters know, 
that we have a right to enjoy our national parks. Just give us a 
chance.
    This ban is discriminatory and wrong. My family and I deserve the 
chance to enjoy the parks along side other motorized boating. My kids 
deserve to be able to grow up enjoying the Cape Cod National Seashore 
as I did. Just give us a chance.

                                ENDNOTES

<SUP>1</SUP> Permanent International Association of Navigation Congress 
        Working Group No. 6, Discussion of Personal Watercraft Noise-
        Related Issues
<SUP>2</SUP> NASBLA Model Act for Motorboat Noise, Adopted 12/11/89, 
        Amended 9/26/91
<SUP>3</SUP> ``Information on Levels of Environmental Noise Requisite 
        to Protect Public Health and Welfare With An Adequate Margin of 
        Safety.'' EPA 550/9-74-004, U.S. EPA, Washington, DC. 1974
<SUP>4</SUP> Personal Communication, Harry Klemm, Group K Personal 
        Watercraft High Performance Shop, Mohave, Arizona
<SUP>5</SUP> from ``The Yamaha Sound Suppression System and the Yamaha 
        Platinum Plus System,'' Yamaha Watercraft brochure, 1999
<SUP>6</SUP> from ``Bombardier Announces Quieter Watercraft for 1999,'' 
        Bombardier press release, 1997
<SUP>7</SUP> from ``Kawasaki Marine Engine New Technology for Year 2000 
        and Beyond,'' Kawasaki press release, 2000
<SUP>8</SUP> Lahti, Tapio, et al., ``Recreation Watercraft Noise and 
        Wave Formation,'' The Finnish Environment 460, 2001
<SUP>9</SUP> Data from Noise Unlimited Inc. Report No. 8077.1, New 
        Jersey State Police-Marine Division, November 1, 1995
<SUP>10</SUP> Moore, Kirk, ``Dockside tests show relative quiet of 
        water jets,'' Asbury Park Press, April 7, 1996
<SUP>11</SUP> Brown-Buntin Associates, Inc., Environmental Noise 
        Analysis, Sept. 14, 1992
<SUP>12</SUP> ``Proposed Regulation for Gasoline Spark-Ignition Marine 
        Engines, Draft Proposal Summary.'' Mobile Source Control 
        Division, State of California Air Resources Board, June 11, 
        1998
<SUP>13</SUP> US Environmental Protection Agency (EPA) Marine Engine 
        Emissions Test (1996)
<SUP>14</SUP> Id.
<SUP>15</SUP> Id.
<SUP>16</SUP> Rodgers, James A., Jr. and Stephen T. Schwikert, ``Buffer 
        Zone Distances to Protect Foraging and Loafing Waterbirds from 
        Disturbance by Personal Watercraft and Outboard-powered 
        Boats.'' Bureau of Wildlife Diversity Conservation, Florida 
        Fish and Wildlife Conservation Commission.
<SUP>17</SUP> Rodgers, James A., Jr., and Henry T. Smith, ``Set-Back 
        Distances to Protect Nesting Bird Colonies from Human 
        Disturbance in Florida.'' Wildlife Research Laboratory, Florida 
        Fame and Fresh Water Fish Commission.
<SUP>18</SUP> Ballestero, Thomas, PhD., P.E., P.H. ``Impact of Motor 
        Boat and Personal Watercraft on the Environment: 
        Bibliography.'' Environmental Research Group, University of New 
        Hampshire. August 1, 1990
<SUP>19</SUP> Id.
<SUP>20</SUP> Id.
<SUP>21</SUP> Letter from David W. Arnold, Chief of the Bureau of 
        Protected Species Management, Florida Department of 
        Environmental Protection, to the Honorable David Weldon. March 
        16, 1999
<SUP>22</SUP> ``Effects of Personal Watercraft Operation on Shallow-
        Water Seagrass Communities in the Florida Keys,'' Continental 
        Shelf Associates, 1997
<SUP>23</SUP> National Transportation Safety Board, Personal Watercraft 
        Study, May 19, 1998 at 24
<SUP>24</SUP> USCG BARD, ``Use of the Accident Data and Statistics'' at 
        3
<SUP>25</SUP> Id. (emphasis added)
<SUP>26</SUP> U.S. Coast Guard 1999 Boating Statistics Report, at 1
<SUP>27</SUP> Id.
                                 ______
                                 
    The Chairman. Thank you, sir.
    Mr. Woodside?

  STATEMENT OF DAVID WOODSIDE, VICE CHAIRMAN, NATIONAL PARKS 
                    HOSPITALITY ASSOCIATION

    Mr. Woodside. Mr. Chairman, on behalf of the National Park 
Hospitality Association, I want to thank you for convening this 
hearing on visitor access to the national parks and Federal 
lands.
    I am David Woodside, vice chairman of the National Park 
Hospitality Association and president of the Acadia Corporation 
that operates visitor services in Acadia National Park.
    The 2001 National Park Service management policies guide 
states, and I quote, ``National parks belong to all Americans. 
Enjoyment of park resources and values by the people of the 
United States is part of the fundamental purpose of our 
parks.''
    The words sound good, but Park Service action certainly are 
at odds with these policy objectives.
    In 1993, then-Interior Secretary Babbitt announced a policy 
shift which emphasized the NPS's role to preserve the park 
environment, stating that we are loving our parks to death.
    The Secretary clearly was engaged in a concerted public 
relations campaign to discourage Americans from going to their 
national parks.
    Former NPS director Robert Stanton later said that the Park 
Service is now a conservation agency with a major focus on 
protecting and preserving America's natural and cultural 
resources, not visitor services.
    When these disruptive access denial practices occur, there 
is invariably a decline in visitors and revenue to the 
concessionaires within the impacted parks.
    This policy toward preservation coupled with a stream of 
negative national media stories has skewed the public 
perception of the national parks. During the past decade, park 
visitation has been routinely discouraged by media accounts 
highlighting the supposed ravages of tourism to the national 
parks, with nightmares of congestion, overcrowding, and 
blighted parks.
    The public certainly responded to Secretary Babbitt's 
message. Since 1994, there has been significant visitor decline 
in some of the nation's major parks, like that experienced in 
the NPS intermountain region, which has posted a steady 
decrease in recreational visitation over the past 8 years, 
especially at Grand Canyon National Park.
    Overall, national park visitation is flat. Systemwide, the 
NPS has posted a small increase in visitation of 1.2 percent 
annually. However, many national parks have actually 
experienced declines in visitation, some quite significant.
    Acadia, where I come from, has decreased 8 percent since 
1993. Parks like Muir Woods, 43 percent since 1993. Denali, 28 
percent. And I provided more details in our written statement.
    Concession businesses have experienced similar declines as 
a direct result of a lower number of visitors, in terms of 
fewer hotel bookings, restaurant patronage, and slower gift and 
merchandise sales.
    When viewed alongside rapidly escalating energy and 
operational costs, the future for park concession business is 
far from robust.
    Interior Secretary Babbitt's campaign proved to be a public 
relations disaster. It is true, the Secretary did attempt to 
reverse his message with backtracking acknowledgements that ``I 
really didn't mean American people should not come to their 
national parks.'' It was clearly a case of too little too late.
    Today, the American public seems convinced that parks do 
not welcome visitors.
    While our examples demonstrate how Federal park policy 
decisions discourage U.S. park visitors, we also wish to stress 
to the Committee that we want to build upon our unique 
partnership with the NPS to enhance the recommended protection 
and preservation goals. In particular, Congress should ensure 
the NPS receives funds to confront the monstrous maintenance 
backlog.
    Our partnership with NPS is unique. We have more to give 
and more to gain from a successful, practical implementation of 
goals that heighten the commitments to the both the visitor 
experience and the conservation of precious park resources.
    Congress needs to provide guidance and restore a more 
balanced approach to park preservation and visitation.
    We will work with you, Mr. Chairman, and this Committee, to 
achieve the mutually compatible goals. And I thank you for this 
opportunity to testify.
    [The prepared statement of Mr. Woodside follows:]

 Statement of David Woodside, Vice Chairman, National Park Hospitality 
                              Association

    Mr. Chairman, on behalf of National Park Hospitality Association we 
want to thank your committee for convening this hearing on visitor 
access to the National Parks. I am David Woodside, Vice Chairman of the 
National Park Hospitality Association and President of the Acadia 
Corporation that operates visitor services in Acadia National Park.
    The National Park Hospitality Association is the national trade 
association of the businesses that provide lodging, food services, 
transportation, and retail services to visitors in the National Park 
system. Our members work in public-private partnership with the 
National Park Service and have served the public interest well over 100 
years, pre-dating the establishment of the National Park Service (NPS).

Basic Management Policy for National Parks
    ``National parks belong to all Americans--Enjoyment of park 
resources and values by the people of the United States is part of the 
fundamental purpose of all parks . . . The Service is committed to 
providing appropriate, high quality opportunities for visitors to enjoy 
the parks, and will maintain within the parks an atmosphere that is 
open, inviting, and accessible to every segment of American society . . 
. The fact that a park use may have an impact does not necessarily mean 
it will impair park resources or values for enjoyment of future 
generations.'' 2001 NPS Management Policies Guide.
    The words sound good, but sometimes management policies are at odds 
with the expansive policy objectives. No words on paper can compensate 
for the disruptive practices at those same national parks. When these 
actions take place, there is invariably a decline in visitors and 
revenue to the concessionaires within the impacted parks. No other 
entity in the national parks has more to gain or lose from public 
relations and management decisions made at that park than the visitor 
services concessioner.
    The National Park Service has done an outstanding job over the 
years of preserving and managing a steadily expanding network of 
national parks, national historic sites, national seashores and 
national recreation areas which now number 379 units while 
accommodating a growing number of system visitors.
    As established by the National Park Service Act of August 25, 1916, 
the National Park Service clearly was given a dual mandate:
    ``To conserve the scenery and the natural and historic objects and 
the wild life in the parks and to provide for the enjoyment of same in 
such manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''
    The NPS has been entrusted to preserve our parks for the enjoyment, 
education and inspiration of current and future generations. We believe 
that park units should be preserved for visitors, not just for the sake 
of preservation alone. Whether it is the extraordinary vistas of the 
Grand Canyon or the ability to track a soldier's footsteps across the 
now quiet battlefields of Gettysburg and Valley Forge, national parks 
have tremendous value to each one of us.
    Members of the National Park Hospitality Association are committed 
to preserving access to National Parks for all people. Not everyone can 
don a backpack and trek across the wilderness. But with responsible 
management of the parks, and services provided in them, people can come 
and experience the wonder of these special places.
    The concessioners strongly support park resource preservation and 
work to enhance the park environment both philosophically and as 
business imperative.

Shifting Park Visitation Policy
    It is often very difficult to strike an equitable and fair balance 
between visitor use and resource preservation which often forces the 
National Park Service to manage competing interests of the 
environmentalists and visitors.
    In 1993, then Secretary of Interior Bruce Babbitt announced a 
policy shift which emphasized the NPS' role to preserve the park 
environment, stating that ``we are loving our parks to death.'' The 
Secretary of Interior was engaged in a concerted public relations 
campaign to discourage Americans from going to their national parks.
    During the recent past, then NPS Director Robert G. Stanton in a 
keynote speech at the NPS' Discovery 2000 encapsulated this shift by 
stating that the ``National Park Service is now a conservation agency'' 
with the major focus on protecting and preserving America's natural and 
cultural resources, not visitor services.
    This shift toward preservation, coupled with a stream of negative 
national media stories, has skewed the public perception of the 
national parks. During the past decade, park visitation has been 
routinely discouraged by media accounts that highlight the supposed 
ravages of tourism to the national parks with nightmares of congestion, 
overcrowding and blighted parks.
    Further media stories stress the dilapidated and depleted state of 
the parks emphasizing the lack of infrastructure available to 
accommodate these hordes of tourists. One recent story by the Chicago 
Tribune, claimed that parking spaces were so scarce at the Grand Canyon 
that visitors had to circle for hours waiting until a space opened up 
much like a crowded shopping mall.

Visitation in National Parks Reduced
    The public certainly responded to Secretary Babbitt's message. This 
Federal policy shift has resulted in a definite impact on the amount of 
park visitation. Since 1994, there has been significant visitor decline 
in some of the nation's major parks. The NPS Intermountain Region has 
posted a steady decrease in recreational visitation over the past eight 
years, especially at Grand Canyon National Park.
    Overall, national park visitation is flat. System wide NPS has 
posted a small increase in visitation of around 1.2% annually, however 
many national park units have actually experienced visitor declines. In 
fact, over the past several years many of the major parks have 
experienced a decline in the number of visitors well beyond factors 
like inclement weather, wild fires, and increased gasoline prices.
    The following chart illustrates the overall decline in visitation 
at some of our concessioners' parks from 1993 when Secretary Babbitt 
issued his proclamation.

[GRAPHIC] [TIFF OMITTED] T2561.007

    Concessioner businesses have experienced declines as a direct 
result of the lower number of visitors. In many major national parks, 
we have witnessed a reduction in our members' concession businesses in 
terms of fewer hotel bookings, restaurant patronage, and slower gift 
and merchandise sales. The association received reports that many 
concession operations experienced a reduction in business last year 
from a few percent up to 50% in the parks hit by last summer's 
wildfires. When viewed alongside rapidly escalating energy and 
operational costs which impact our member's businesses, the future for 
the park concession business is far from robust.

Doing Business in the Parks Is Always a Challenge
    Federal policy is just one of the factors impacting park 
visitation. Visitor service business is affected by many factors 
including facility, transportation and services infrastructure, 
inclement weather and other acts of nature. The national park 
hospitality industry is continually challenged by natural forces like 
the devastating Yellowstone fires of 1992 and the Yosemite floods in 
1996 that closed the park to visitors, and the summer of 2000 spate of 
wildfires that resulted in over 30% fewer visitors to the western 
parks. The irony of the 2000 fire season was the fact that the 
devastating New Mexico fires were started by the NPS itself as a 
``controlled'' fire.
NPS Management Decisions Directly Affect Park Visitation
    Interior Secretary Babbitt's campaign proved to be a public 
relations disaster. It is true Secretary Babbitt did attempt to reverse 
his message in 1994 with backtracking acknowledgments that, ``I didn't 
really mean that the American people should not come to their national 
parks.'' It was clearly a case of too little, too late.
    Today, the American public seems convinced that parks do not 
welcome visitors.We are very encouraged by the recent developments in 
which the National Park Service and the National Park Foundation are 
teaming up to launch a multi-million dollar, multi-year public 
education program to issue citizens an invitation to ``Experience Your 
America'' and visit their national parks.

Conclusion
    While our critical examples demonstrate how Federal park policy 
decisions discourage U.S. park visitors, we also wish to stress to the 
committee that we want to build upon our unique partnership with the 
NPS to enhance the resource protection and preservation goals and 
increase Federal revenues to NPS to confront the monstrous maintenance 
back log.
    Our partnership with NPS is unique. We have more to give and more 
to gain from a successful, practical implementation of goals that 
heighten the commitments to both the visitor experience and the 
conservation of the precious park resources.
    Congress needs to provide guidance and restore a more balanced 
approach to park preservation and visitation. Congress needs to fund 
the park infrastructure maintenance backlog fully. Congress needs to 
ensure that the dual roles of the National Park Service of preservation 
and visitor service continue to remain equal.
    We will work with you, Mr. Chairman, and this committee to achieve 
these mutually compatible goals.
    We thank you for this opportunity to testify.
                                 ______
                                 
    The Chairman. Thank you, sir.
    Mr. DeCou?

STATEMENT OF WESLEY DECOU, FLYING SITE COORDINATOR, ACADEMY OF 
                       MODEL AERONAUTICS

    Mr. DeCou. Thank you, Mr. Chairman, members of the 
Committee.
    I am Wesley DeCou, flying site coordinator for the Academy 
of Model Aeronautics, a 165,000-member organization concerned 
with all aspects of the international sport of model aviation.
    Prior to accepting my current assignment, I held the 
elected position of AMA vice president, serving our members in 
New York and New Jersey, as well as our members who are in the 
U.S. armed forces in Europe.
    With me in the gallery today, are Academy President David 
Brown, East Coast Free Flight Conference President Bob 
Langelius, and members Sydney Krivin and Jean Pailet.
    I speak on behalf of the Academy today in an effort to 
provide you with background relative to what we consider to be 
very appropriate use of public lands, a use that comes with 
negligible impact to the environment, yet which provides 
educational and recreational opportunities for entire families.
    As its representative, I am speaking, of course, about 
model aviation.
    Historically, many of the most prodigious advancements in 
aeronautics in this country have come from the minds of 
individuals whose intellectual fire was first sparked by an 
interest in model aviation.
    Wherever I travel, when I speak to a group about our sport 
and ask for a show of hands, fully half of those in attendance 
indicate an interest, either past or present, in model 
aviation.
    The ranks of our AMA members have included such aviation 
and aerospace luminaries as Neil Armstrong, Frank Borman, Dr. 
Paul MacCready, Burt Rutan, and many other pioneers in the 
fields of aviation, aerospace, and related disciplines.
    With our population on the increase and urban sprawl trying 
to keep up, we see fewer and fewer venues at which we can 
practice our sport. As a result, seasoned pilots as well as 
youngsters who would aspire to the many world championship 
model aviation teams representing the United States are left 
without an adequate space to hone their skill.
    More and more people of all ages and from all walks of life 
are denied access to the hobby sport of their preference. An 
example familiar to some of you as a result of Congressman 
Benjamin Gilman's testimony before your Subcommittee on 
Fisheries, Conservation, Wildlife, and Oceans, in June of last 
year, is that of the east coast free flight conference flying 
site at Galeville, New York.
    This flying site, by far the best location on the east 
coast for free flight modeling activity, had been used by 
aeromodelers for nearly 30 years and was administered by the 
Military Academy at West Point.
    In the early 1990's, the site was cleared of underbrush by 
the modeling community and the AMA at no expense to West Point, 
but with encouragement from a West Point biologist. The 
specific objective, which was indeed realized, was to create a 
Savannah-like grasslands environment for grass-nesting birds 
co-located with a launch site for the free flight modeler--a 
win for the birds and a win for the modelers.
    Shortly after the grasslands environment was created, the 
Galeville site was declared excess by West Point. And after a 
short period of time, it was given to the U.S. Fish and 
Wildlife Service.
    Because of the U.S. Fish and Wildlife Service 
interpretation of the National Wildlife System Improvement Act 
of 1997, the east coast free flight conference flyers were 
summarily banned from further activity at the airfield. That 
interpretation was essentially that only wildlife-dependent 
activities could be conducted at Galeville.
    Hunters would now be permitted to go on the site, but the 
modelers would have to go.
    In spite of documented evidence to the effect that model 
aviation activity is ignored by birds, just as they ignore 
full-size aircraft operating in and out major airports, and in 
spite of professional opinions that any impact on migratory or 
migrating birds would extremely unlikely, the ban continues in 
effect since model aviation is not a wildlife-dependent 
activity.
    We urge that priority activities on any public land--be it 
a national park, a national recreation area, a national 
wildlife refuge--continue to be undertaken by the local staff 
people. Further, as a means of creating a significant increase 
in recreational opportunities on public lands, we urge that 
activities such as model aviation, with minimal attendant cost 
and minimal or zero impact on the local environment, be 
permitted uses in addition to the stated priority activities.
    A grassland created and maintained by a group of dedicated 
modelers is a win. A model aviation venue where we can strike 
the spark that fires the imagination of a youngster is a win. 
Model aviation's loss of the Galeville facility is a shame.
    In your quest to determine what are the best methods to 
increase the recreational use of public lands, we trust you 
will create opportunities for new law and policy concerning the 
governance process for our vast outdoors.
    The Academy of Model Aeronautics recommends that in doing 
so, you revise current law to allow wildlife-neutral 
activities, such as model aviation, to take place alongside 
wildlife-dependent activities at Galeville and where 
appropriate on others of the more 95 million Fish and Wildlife 
Service acres.
    Mr. Chairman, members of the Committee, on behalf of the 
Academy of Model Aeronautics and associated modeling groups 
present with me today, I offer my thanks for the opportunity to 
talk to you.
    [The prepared statement of Mr. DeCou follows:]

 Statement of Wesley DeCou, Flying Site Coordinator for the Academy of 
                           Model Aeronautics

    Thank You, Mr. Chairman. Mr. Chairman, Ranking Member, and Members 
of the Committee, I am Wesley DeCou, Flying Site Coordinator for the 
Academy of Model Aeronautics, a 165,000-member organization concerned 
with all aspects of the international sport of model aviation. Prior to 
accepting my current assignment I held the elected position of AMA Vice 
President, serving our members in New York and New Jersey, as well as 
our members who are in the U.S. Armed Forces in Europe. With me in the 
gallery today are Academy President David Brown, Syd Krivin, AMA member 
and private pilot, Robert Langelius, President, East Coast Free Flight 
Conference) and Jean Pailet, AMA member and former AMA contest board 
chairman
    I speak on behalf of the Academy today in an effort to provide you 
with background relative to what we consider a very appropriate 
recreational use of public lands, a use that comes with negligible 
impact to the environment, yet which provides educational and 
recreational opportunities for entire families. I'm speaking, or 
course, about model aviation.
    Historically, many of the most prodigious advancements in 
aeronautics in this country have come from the minds of individuals 
whose intellectual fire was first sparked by an interest in model 
aviation. Wherever I travel, when I speak to a group about our sport 
and ask for a show of hands, fully half of those in attendance indicate 
an interest, either past or present, in model aviation.
    The ranks of AMA members have included such aviation and aerospace 
luminaries as Neil Armstrong, Frank Borman, Dr. Paul MacCready, Burt 
Rutan, and many other pioneers in the fields of aviation, aerospace, 
and related disciplines.
    With our population on the increase, and urban sprawl trying to 
keep up, we see fewer and fewer venues at which we can practice our 
sport. As a result, seasoned pilots as well as youngsters who would 
aspire to the many World Championship model aviation teams representing 
the United States are left without adequate space to hone their skills. 
More and more people of all ages, from all walks of life are being 
denied access to the hobby/sport of their preference.
    An example, familiar to some of you as the result of Congressman 
Benjamin Gilman's testimony before your Subcommittee on Fisheries 
Conservation, Wildlife and Oceans in June of last year, is that of the 
East Coast Free-Flight Conference flying site at Galeville, New York.
    This flying site, by far the best location on the east coast for 
Free-Flight modeling activity, had been used by aeromodelers for nearly 
30 years, and was administered by the Military Academy at West Point. 
In the early 1990's the site was cleared of underbrush by the modeling 
community and the AMA at no expense to West Point, but with 
encouragement from a West Point biologist. The specific objective, 
which was indeed realized, was to create a savannah-like grasslands 
environment for grass-nesting birds, co-located with a launch site for 
the Free-Flight modelers. A win for the birds, and a win for the 
modelers.
    Shortly after the grasslands environment was created, the Galeville 
site was declared ``excess'' by West Point, and, after a short period 
of time, was given to the U.S. Fish and Wildlife Service.
    Because of a USFWS interpretation of the National Wildlife System 
Improvement Act of 1997 (P.L. 105-57), the East Coast Free-Flight 
Conference fliers were summarily banned from further activity at the 
airfield. That interpretation was essentially that only activities that 
were dependent on wildlife could be conducted at Galeville. Hunters 
could now be permitted on the site, but the modelers would have to go.
    In spite of documented evidence to the effect that model aviation 
activity is ignored by birds just as they ignore full-size aircraft 
operating in and out of major airports, and in spite of professional 
opinions that any impact on migratory or migrating birds would be 
extremely unlikely, the ban continues in effect, since model aviation 
is not a ``wildlife dependent'' activity.
    We urge that priority activities on any public land (National Park, 
National Recreation Area, National Wildlife Refuge, etc.) continue to 
be undertaken by local staff people with vigor. Further, as a means of 
creating a significant increase in recreational activity opportunities 
on public lands, we urge that activities such as model aviation, with 
minimal attendant costs and minimal or zero impact on the local 
environment, be permitted uses in addition to the stated ``priority'' 
activities.
    A grassland created and maintained by a group of dedicated modelers 
is a win.
    A model aviation venue where we can strike the spark that fires the 
imagination of a youngster is a win.
    Model aviation's loss of the Galeville facility is a shame.
    In your quest to determine what are the best methods to increase 
the recreational use of public lands, we trust you will create 
opportunities for new law and policy concerning the governance process 
for our vast outdoors. The Academy of Model Aeronautics recommends that 
in doing so you revise current law to allow ``wildlife neutral'' 
activities, such as model aviation, to take place alongside ``wildlife 
dependent'' activities at Galeville and, where appropriate, on others 
of those 95 million USFWS acres.
    Mr. Chairman, members of the committee, on behalf of the Academy of 
Model Aeronautics and the associated modeling groups present with me 
today, I offer my thanks for the opportunity to present our thoughts on 
this important issue.
                                 ______
                                 
    The Chairman. Thank you, sir.
    Mr. Kiernan?

   STATEMENT OF THOMAS C. KIERNAN, PRESIDENT, NATIONAL PARKS 
                    CONSERVATION ASSOCIATION

    Mr. Kiernan. Thank you very much, Mr. Chairman and members 
of the Committee.
    My name is Tom Kiernan. I am the president of the National 
Parks Conservation Association. We have been working now for 
over 80 years to protect and enhance America's national park 
system for present and for future generations. And we are 
America's only group dedicated to that mission.
    I am also testifying today on behalf of the National Trails 
and Waters Coalition, a group of over 70 conservation, 
recreation, hunter, and other groups that work to protect and 
restore public lands from the impact of off-road vehicles.
    Having the opportunity to recreate in our public lands is 
very important to our organization and to me personally. I grew 
up here in Washington, D.C., and grew up kayaking in Great 
Falls, grew up biking on the C&O Canal, hiking out in the 
Shenandoahs. And that form of recreation in our public lands is 
very important to me as an individual and to our organization.
    It is one of the reasons that I am working with NPCA and am 
here today testifying, so that our public lands can be 
available to more Americans for this form of activity, and as 
well for my three children, so they can have the privilege of 
recreating on our public lands.
    I occasionally hear criticism that environmental groups 
want to lock out the public from the public lands, and this is 
not true. Groups like NPCA depend on our members and all 
Americans having access to the public lands, to enjoy them, to 
be educated by them, to be inspired by them, to be rejuvenated 
by them. We want Americans in our national parks, in our 
national forests, and on BLM land.
    I also hear people say that they have been denied access to 
public lands. This lack of access to public lands is a myth. 
The national park system, the national wildlife refuge system, 
the national forests, and BLM are open to everyone. It is that 
simple.
    Anyone can visit these lands just about whenever they want. 
And the United States has always been a world leader in 
providing this kind of maximum access to our remarkable 
landscapes.
    But is not myth that some forms of access and some types of 
activities are very hard on the land and the water in our 
public lands.
    For example, swamp buggies and off-road vehicles have dug 
tens of thousands of miles of rutted trail down in the Big 
Cypress National Preserve.
    Tens of thousands of snowmobiles in the winter in 
Yellowstone pollute the air quality in Yellowstone. We have 
documented evidence that they have harassed wildlife. They are 
very noisy and reduce the ability for other visitors to enjoy 
Yellowstone.
    At Grand Canyon, the awe-inspiring stillness and the sound 
of the wind is interrupted by over 650 flights daily, given 
that there is no now appropriate regulation of those flights.
    Jet Skis dump very large quantities of unburned fuel into 
our national seashores and lake shores.
    Now, our different agencies do have different purposes. The 
Park Service has a clear mandate to protect the resources above 
all else. And let me just very quickly quote the Organic Act 
that created the National Park Service, saying its mission is 
to conserve the scenery and natural and historic objects and 
the wildlife therein, and to provide for the enjoyment of the 
same in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations.
    That is the National Park Service's mission. Now, the 
national forests and the BLM land accommodate extraction 
activities and multiple recreational uses. The refuge system is 
charged with preserved wildlife and their habitat.
    But no matter which agency has the management 
responsibility, I believe that all recreation public lands must 
have as their primary goal, overall goal, protecting ecological 
integrity of those lands.
    Like visitors to a great university, we have access to all 
the wonderful information, knowledge in those universities, in 
those libraries, but only if we treat them respectfully and 
behave responsibly.
    When we go into a library, we cannot tear out the pages of 
the books. We cannot climb on the bookshelves. We don't play 
basketball in the Lincoln Memorial.
    Basketball is a great sport. The Lincoln Memorial is a 
wonderful, inspirational place. We don't play basketball in the 
Lincoln Memorial because it may damage the memorial, and it 
reduces the ability for other visitors to enjoy and be inspired 
and learn from what the Lincoln Memorial has to tell us.
    Let me close by reiterating three main points.
    There is no shortage of access to public lands; there is 
shortage of public lands. I encourage this Committee to focus 
on creating new national parks, national monuments, and other 
public lands.
    Second point, recreation is very important to me personally 
and to our organization. But the primary function of the public 
land management agencies should be to protect the overall 
ecological integrity of those lands.
    And lastly, recreation on public lands and waters should 
not be allowed to damage those areas or the ability of others 
to enjoy them.
    Thank you very much, Mr. Chairman and members of the 
Committee.
    [The prepared statement of Mr. Kiernan follows:]

Statement of Thomas C. Kiernan, President, National Parks Conservation 
                              Association

    Mr. Chairman, members of the committee, my name is Tom Kiernan and 
I am a President of the National Parks Conservation Association. NPCA 
is America's only private, nonprofit advocacy organization dedicated to 
protecting and enhancing America's National Park System for present and 
future generations. NPCA was founded in 1919 and today has more than 
450,000 members.
    I am also testifying on behalf of the National Trails and Waters 
Coalition, which includes over 70 conservation, recreation, hunting, 
and other groups working to protect and restore all public lands and 
waters from the severe damage caused by dirt bikes, jet skis, and all 
other off-road vehicles.
Overview
    Let me begin by making clear that as a private citizen I am an avid 
recreational user of our national parks and other public lands. All of 
my life I have enjoyed white water kayaking at Great Falls, part of the 
C&Of Canal National Historical park. I have hiked and rock climbed 
throughout the West, and I take my kids camping in our national forests 
and national seashores.
    As President of the National Parks Conservation Association, I am 
also committed to preserving access to our national park lands. One 
important function of national parks is to offer the opportunity for 
visitors to enjoy and learn about our country's magnificent natural 
resources. NPCA's membership, the lifeblood of our organization, is 
made up of people who enjoy visiting the national parks.
    So it is as a recreational user and professional conservationist, 
that I say unequivocally that there is no shortage of access to public 
lands. However, recreation use of public lands is expanding 
dramatically. This Committee should focus on creating new national 
parks, monuments, and other public lands to meet growing demand.
    Recreation is important to me as an individual and to my 
organization, however, I also believe that the primary function of our 
public land management agencies should be to protect the natural 
resources in their charge. Providing recreation is an important, but 
secondary function.
    I am most familiar with the National Park System and most of my 
comments will be directed there. The national parks have a clear 
mandate to protect resources above all else. Other areas, such as 
national forests and BLM land, accommodate extractive activities and 
multiple recreational uses. However, I believe that all public land and 
water recreation should be consistent with maintaining overall 
ecological integrity.
The Restricted Access Myth
    The National Park System, the National Wildlife Refuge System, the 
national forests, and BLM lands are open to everyone. It's that simple. 
Anyone, not just American citizens, can visit these lands just about 
whenever they want. The United States has always been the world's 
leader in providing maximum public access to remarkable natural 
landscapes.
    But that access must not come at the expense of the health of the 
resources. Like visitors to a great university library, we have access 
to all the wonderful resources inside, but only if we treat them with 
respect and behave responsibly. We can't tear pages out of the books or 
practice our climbing skills on the stacks. We don't play basketball in 
the Jefferson Memorial.
    The National Park System is perhaps the most popular American 
public institution. There were 286 million recreation visits to the 
national parks in 2000. Only 115 million people voted in last year's 
presidential election. If the Park System were a country, it would be 
the third most populated in the world.
    In the face of these extraordinary visitation numbers, and with too 
few rangers and not enough money, the National Park Service does a 
masterful job of making sure that most visitors have a safe, enjoyable, 
educational, and often unforgettable experience in the parks. The Park 
Service does its best to accommodate the desires of as many visitors as 
possible.
    Occasionally, however, the desires of some visitors threaten to 
destroy the substance of the parks themselves or are in direct conflict 
with the requirement to offer other visitors a high quality experience. 
In those cases, the Park Service steps in and restricts or prohibits 
certain activities. We should all be grateful that the Park Service is 
there to protect America's national parks so that what we enjoy today 
will be around for our children to enjoy tomorrow.
    When you add together the hundreds of millions of people who visit 
our public lands, it is clear that individual visitors have a 
responsibility to minimize the impact they have on resources. 
Fortunately, most Americans are extremely conscientious when it comes 
to protecting public lands and particularly national parks.
    The public is even willing to accept limits on park visitation if 
necessary. In 1998, NPCA asked a random sample of Americans: ``Should 
the National Park Service limit the number of visitors if a park is too 
crowded?'' Eighty-nine percent said yes.
    We also asked: ``Should the National Park Service limit the number 
of visitors if the number is harming the park's cultural or natural 
resources?'' Ninety-five percent said yes.
    Further, 92 percent said they would personally ride a shuttle or 
make a reservation to reduce overcrowding.And finally, a wide majority 
of Americans agreed that certain activities need to be limited or 
banned altogether in order to protect parks: 87 percent said 
overflights should be limited or banned; snowmobiles, 89 percent and; 
jet skis 92 percent.

Motorized Recreation
    By its very nature, motorized recreation on public lands can be 
extraordinarily damaging and disruptive to other visitors. 
Nevertheless, access for motorized recreation is widespread. For 
example: off road vehicles are allowed on 93 percent of BLM lands 
outside of Alaska and there are 380,000 miles of Forest Service roads 
and routes open to motorized access. The National Park System is less 
heavily used by motorized recreation vehicles, but even in parks there 
are many examples of severe damage.
    Jet skis pollute national seashores and lakes. Snowmobiles clog the 
road to Old Faithful and stress wildlife that is struggling to survive 
Yellowstone's harsh winter. Swamp buggies scar the wetlands of Big 
Cypress National Preserve. Helicopters shatter the stillness at Grand 
Canyon. And all of these activities conflict with visitors who have 
come to learn about and appreciate the special resources of the parks. 
For example, as a kayaker and park visitor, I am particularly disturbed 
by the appalling safety record of jet skis and other personal 
watercraft. According to the U.S. Coast Guard's 1998 accident 
statistics, of 3,607 reported jet skis accidents, 2,528 involved 
collisions with other boats. This is a much higher rate than other 
types of watercraft.
    The Natural Trails and Waters Coalition believes a few basic 
management philosophies should be followed for motorized recreation on 
public lands:
    1. Public land recreation decisions are predicated on maintaining 
the ecological integrity of our public lands and waterways.
    2. Motorized recreational vehicles are prohibited where they come 
into conflict with natural resources, wildlife, wildlife habitat, air, 
water, vegetation, landscape, solitude, natural quiet, and 
archaeological and historical sites.
    3. Motorized recreational vehicle use is prohibited on all 
roadless, wilderness and wilderness-quality lands and waters.
    4. All vehicular travel, including off-road vehicles, occurs only 
on designated roads and routes. Cross-country motorized recreation is 
prohibited on public land.
    5. Motorized personal watercraft are allowed on public waterways 
only in areas where these vehicles cause no measurable ecological 
impacts or human conflicts.
    The use of automobiles as transportation to and around national 
parks is very different from motorized recreation in the parks. 
Automobiles are used to tour the parks and to view scenery and 
wildlife. On the other hand, too many automobiles is already a major 
problem in many national parks. NPCA believes that the quality of a 
visit to a national park can be enhanced through the use of 
transportation systems that accommodate the greatest number of people 
with the least impact on the park's resources. This model has been 
successfully adopted by the National Park Service in Acadia National 
Park, Denali National Park, Zion National Park and others. Extreme 
vehicular congestion, whether in the summer or winter, should not be a 
regular part of a visit to any national park.
Access for People with Disabilities
    Two years ago, the Secretary of Agriculture and the Secretary of 
the Interior were required to conduct a study on improving access for 
persons with disabilities to outdoor recreational opportunities made 
available to the public.
    Several Members of Congress urged the Secretaries of Interior and 
Agriculture to hire an external agency to conduct the study. In 
response to this request, Wilderness Inquiry, a non-profit organization 
with more than 22-years experience providing outdoor recreation 
opportunities for persons with disabilities on Federal lands, was hired 
to conduct the study. The study was published earlier this year.
    Wilderness Inquiry found that:
          Federal land management agencies do have a fundamental 
        mandate to protect the natural resources in their charge. 
        Persons with disabilities must recognize that natural, 
        cultural, and historical resource protection is primary. 
        Research suggests that the majority of persons with 
        disabilities do recognize and accept these mandates. They do 
        not support compromising these mandates solely in the name of 
        providing access.
          Unfortunately, increased use of motors as a means to provide 
        access to outdoor recreation for persons with disabilities has 
        frequently been misrepresented by some who have other goals as 
        a priority--increased motorized vehicle use on public lands for 
        profit, convenience, or as a means to establish patterns of use 
        that would make it difficult for land management agencies to 
        designate lands as closed to motorized vehicles due to 
        management needs or to become part of the National Wilderness 
        Preservation System at some future date. These proponents of 
        increased motorized use are simply using the claim of ``access 
        for the disabled'' to advance other goals and priorities.
    Not surprisingly, the Wilderness Inquiry report mirrors broader 
sentiments of the American public. Most Americans know that the real 
concern is not about losing widespread ``access'' to public lands; it's 
about controlling the damaging excesses of a few. That's why the 
regulations proposed by the Park Service to end snowmobile damage in 
Yellowstone, and the Forest Service to protect roadless areas have 
received such widespread public support.

What Kind of Activities Are Appropriate on Public Lands?
    The National Parks Conservation Association believes strongly that 
some types of recreation are inappropriate in national parks. Decisions 
about whether to allow certain activities in national parks should be 
based on whether the activity preserves the ecological integrity, 
natural and historical context, interpretive values, and unique 
experiences contained within the National Park System. The heart of the 
issue is: Do we want a visit to Yellowstone National Park to be a 
unique experience, different from a trip to anywhere else? Again, most 
Americans would say ``yes.'' It is reasonable, therefore, to expect 
national parks to be managed differently than national forests, BLM 
lands, state parks, etc.
    At the same time, none of our public lands should be considered 
recreational sacrifice zones. In no case should recreation be allowed 
to damage or degrade resources. Our public lands are not amusement 
parks. Their purpose is not to provide thrill rides or to make money 
through industrialized recreation. Having access to parks and public 
lands means having access to all of the elements that make those 
natural areas so special. That includes clean air, natural sounds, 
undisturbed wildlife, and the scent of woods and flowers. Thank you, I 
would be happy to answer any questions.
                                 ______
                                 
    The Chairman. Thank you, Mr. Kiernan.
    The gentleman from North Carolina is recognized for 
questions for this panel.
    Mr. Jones. Mr. Chairman, thank you.
    I apologize for getting here so late, but we had the 
Secretary of Defense for a classified briefing with members of 
Armed Services, and certainly you would have been there, but 
you were here at this important hearing.
    The Chairman. Well, that took half of our Committee right 
there.
    Mr. Jones. So I apologize that I missed the presentations 
from the panel.
    This is a very important issue in my district. For those of 
you on the panel who don't know me, I represent the Third 
Congressional District of North Carolina. And with the 
exception of Wilmington, North Carolina, which is not in my 
district, everything above Wilmington, the outer banks of North 
Carolina, Emerald Isle, these areas, there is tremendous 
presence of the Park Service in the Third District of North 
Carolina.
    I came here in 1995, being one of many Members of Congress 
on both sides of the political aisle that constantly we try to 
find the balance between the environment and the people. And 
for me, there are many times, particularly with Park Service--
and I apologize, Mr. Kiernan, I heard some of your remarks; I 
was in the outer room. And then I look at Mr. Laine, I believe, 
your comments, which I read.
    And this year, I hope--I had great respect for Secretary 
Babbitt, but I think he was always interested more in the 
environment and could care less about the feelings of the 
people. And that troubled me a great deal because that attitude 
was carried on by the Park Service. And I still see that 
attitude.
    And I hope that Secretary Norton, in her tenure as 
Secretary of Interior, will help us we can--and we can't always 
find the balance--but many times we can.
    I had a situation, Mr. Chairman and panel, down in my 
district about 2 months ago. The Park Service superintendent 
just made a decision that 2 years from date forth they would 
prohibit personal watercrafts being used down in that area. And 
I was just taken aback because that again is a prime example of 
eliminating the taxpayer, eliminating the people.
    And we wouldn't have all these great parks if we didn't 
have the taxpayers. If the taxpayers did not pay the taxes, we 
could not afford to have these wonderful parks and the people 
that protect and work in those parks.
    So I guess my point is, we actually did get, with the help 
of the staff, Mr. Chairman--I want to thank you and the staff--
able to get the superintendent who had made that proclamation 
to back off because she actually had violated the provision 
that would give input from the people.
    I don't own any property at the beach; I respect those that 
do. But we have a lot people that have personal watercrafts 
that would never have any fun in these parks because they 
couldn't afford any other way if they did not have these 
personal watercrafts.
    So I want to ask Mr. Laine, because, again, I missed yours.
    And everyone else I missed; I am sorry. Your testimony, I 
haven't had a chance to read it.
    But just tell me, how much trouble are these personal 
watercrafts, as you see it.
    I am going to give Mr. Kiernan a chance to respond also.
    Mr. Laine. During my testimony to you, Mr. Chairman, I 
spoke of the watercraft not being the issue, more or less the 
operator being the issue.
    The watercraft only does what the operator makes it do. It 
is no different than any other boat that is on your seashore. 
You can make a boat go faster than a personal watercraft; you 
have a boat that is louder than a personal watercraft. It is 
all in the operator's view of what they are.
    Like I said before, I feel it has been painted as a bad 
picture. It is classified by the Coast Guard as Class A inboard 
power boat. It is a boat, no different than any other boat that 
is on the water, just a different size, different shape.
    You can make any boat a bad boat. Or the operator can make 
any boat a bad boat.
    I hope I answered you on that.
    Mr. Jones. Yes, sir.
    Mr. Kiernan, I guess you heard my position, and I would 
like for you to respond to my statement, so to speak. And also, 
since I did not hear your presentation--I heard some of it in 
the outer room, but I didn't hear it as carefully as I would 
like to have--the position of the National Park Conservation 
Association as it relates to people coming into that park who 
behave themselves having fun, whether that be with a personal 
watercraft or maybe some other equipment.
    Mr. Kiernan. Thank you for an opportunity to respond.
    Let me make clear, NPCA strongly wants people to be coming 
to our parks. We want access. We want people coming into the 
parks, enjoying the parks, learning from the parks, having a 
great time with their families, et cetera. We want that kind of 
access, and we want more of that kind of access.
    The question is, what are the appropriate activities that 
allow the resources to be protected for future generations?
    I have been on a personal watercraft vehicle. They can be a 
lot of fun. And I had a good time. It was a two-person one. I 
have had one of my children on it with me. That is great.
    The very strong concern is, for example, that one-third of 
the oil and gas, I believe, from a personal watercraft vehicle 
is emitted into the water unburned. So we have a very highly 
polluting vehicle that is very noisy, that is designed to go 
very fast.
    I believe that that is an inappropriate activity in our 
park. We want people, Mr. Laine, in the park, but there are 
places where it is more appreciate for this kind of activity, 
given that the parks are set aside to be protected unimpaired 
for the enjoyment of future generations.
    Clearly, the personal watercraft vehicles are impairing the 
water quality. They are harassing the wildlife. And they are 
quite noisy, impairing other current visitors there to enjoy 
the park.
    Mr. Jones. Mr. Chairman, may I have just a couple more--
    The Chairman. By all means. There aren't too many folks 
here right now.
    [Laughter.]
    Mr. Jones. That, I guess, is the advantage of being the 
last one here.
    Last year, I have never forgotten this, we had a professor 
from Arizona State University, I believe, that testified. I was 
just really enthralled with what he said, and I believe that he 
was talking about the Grand Canyon, but I think his concern was 
that 1 day that no one would have access into the park except 
there would probably be, in the front, a booth. And you get on 
a bus or maybe have some rail system that you could ride 
around. But you would not yourself as an individual be able to 
go into that park setting.
    And I appreciate what you said, Mr. Kiernan, about the 
discharge of oil or gas into the waters. And there probably 
should be some balance as to where; we can have certain areas 
where maybe they should be prohibited.
    But, again, my concern as a conservative Member of Congress 
is, again, going back to that man or woman that is paying the 
taxes. And when they begin to feel that they are not welcome, 
then I think we as a country have a serious problem.
    And I guess what I would like to ask you, again, or Mr. 
Laine--Mr. Laine, you might want to comment. I am not trying to 
get you all going.
    And I am sorry, to the other two gentlemen, I was not here 
to hear your testimonies. But if anybody would like to respond 
to my rambling, they are more than welcome. Just raise your 
hand, and I assume the Chairman would call on you.
    But you see what I am trying to say? Recreation is a 
primary for a lot of working people, and a lot of working 
people particularly in my district, where it is a very per 
capita low-income area. This is all they have. This is their 
primary way of having recreation.
    And, again, I hope that we will find the balance as to 
where we are not trying to exclude these people from having a 
little bit of fun.
    Mr. Laine, you go.
    Mr. Laine. If I may, sir.
    I think that you will find in the figures that the personal 
watercraft emits less unburned fuel and oil than the 
conventional two-stroke outboard motor. These parks are being 
opened to the conventional outboard motors with propellers that 
emit and burn the same fuels, exact same fuels, and emit even 
more unburned fuels into the water than a personal watercraft 
engine does.
    The industry has worked very hard. They have been very 
diligent at cutting down the noise, at cutting down the 
unburned fuel. Personal watercraft today are one of the most 
user-friendly and economic boats out there today, as far as the 
environment goes.
    Mr. Jones. Well, I appreciate you sharing that with 
Committee staff and the Chairman and myself, and any other 
member would care to would certainly be able to read the 
comments from this hearing.
    With that, again, Mr. Kiernan, I am not trying to pit you 
against Mr. Laine, and certainly the other two gentlemen--but 
this, again, is where the public gets concerned and maybe many 
of those taxpayers that maybe should better understand the 
position of your association.
    It is just like some the environmental groups in California 
that are trying to dictate policy in their county as it relates 
beach access, driving on the beaches, these people that want to 
go out there and fish.
    So, again, I hope that we will, as a Committee and this 
administration--and a Committee of Democrats and Republicans--
ensure that the balance is there. That is what the key is, is 
the balance.
    Mr. Kiernan. Let me share a couple of examples, if I may.
    We have the Reflecting Pool on the Mall. We do not allow 
Jet Skiing in that pool, because that is not the purpose of the 
pool. It is there to reflect the monuments and for people to 
learn from that.
    Similarly in our national parks, they are there to protect 
the natural and cultural resources inside the parks.
    We want people there. People should be welcome. To the 
extent the Park Service is not effectively communicating that, 
they need to change. They need to be welcoming all Americans 
into the parks.
    However, certain activities are inappropriate.
    I have not done the game paintball. I guess you run around 
in the woods and shoot paint at each other. That is not allowed 
in the national parks. Why? Because it damages the resources, 
and it hurts other people's ability to enjoy the park.
    Similarly for Jet Skis. I have no problem with Jet Skis. 
The concern is, is it an appreciate activity in the parks, 
given the purpose of the parks that I read earlier, to protect 
the parks unimpaired for the enjoyment of future generations?
    I think it is clear that they are not appropriate in the 
parks. There are places where they can be very appropriate. And 
as I said earlier, I have enjoyed being on a Jet Ski, but not 
appropriate in the parks.
    Mr. Jones. Yes, sir, let me ask you--I apologize. I can't 
see the name.
    Mr. Woodside. I am David Woodside from the National Park 
Hospitality Association, and I wanted to comment on your 
discussion of the Grand Canyon National Park issues and some 
other related issues.
    It is true that there is a plan to eliminate private motor 
vehicles during the peak season. I believe there also is at 
least discussion of removing some lodging facilities there in 
the Grand Canyon. There also are plans to remove lodgings in 
Denali National Park and Yosemite and various other parks 
across the country.
    This is a concern to us because, while we appreciate trying 
to protect the resource, there is something magic about waking 
up in a national park that cannot be replicated waking up in a 
gateway community.
    Twenty years ago, when I first began visiting parks, I had 
the opportunity to visit Shenandoah, very close by. Arrived 
after dark and the next morning, waking up and looking out at 
that national parks spread before you is just something that 
cannot be replicated.
    And I believe it is an important thing and it is 
illustrative of providing that access to national parks where 
it can be done responsibly.
    Thank you.
    Mr. Jones. Mr. Chairman, I want thank you.
    Again, I close by saying that I believe initially the 
intent of the national parks was to give the people an 
opportunity to enjoy those parks. And that means recreation as 
well as other activities.
    So thank you for giving me a chance to be here today.
    The Chairman. I thank the gentleman from North Carolina.
    And, of course, as you read the 1916 Organic Act, that is 
what it says. Now, we have had different organizations and 
different political persuasions try and put their own 
interpretation on it, but they are for the enjoyment of people.
    What a lot of people don't realize is of the 379 units of 
the Park Service, 19 of them are recreation areas. And you get 
to what is a recreation area. You have a little reflection on 
that; that is a little different.
    The Glen Canyons recreation area is different than Zion 
park, for example. So people have to keep that in mind. That is 
what they are for.
    And I think the superintendent--well, now he is out of 
there--but Joe Alston did a super job in taking care of those 
things.
    Mr. Kiernan, your organization, some people are trying to 
turn you into a wilderness organization, that you want all 379 
units of the Park Service to become wilderness. And I know, 
from talking to you in the past and testimony and what you said 
today, that is not correct.
    And I guess a lot of this stuff is interpretation, but I 
received a letter from you folks, signed by Mr. Chandler, on 
March 8 of this year, that has given me and members of the 
Committee some real cause for concern.
    It says: As you know, we do have significant disagreements 
over certain park areas. For example, I believe that the 
majority of the public shares NPCA's views that motorized 
access to national parks should be strictly regulated or even 
banned.
    That causes a great concern to me.
    Mr. Kiernan. We commissioned Colorado State University in 
1998, I believe, to do a poll of the America public that we 
would be happy to share with Committee. It was a statistically 
validated poll, and we can give you all the details and the 
analysis.
    It is my recollection that roughly 89 percent of the 
American public said that Jet Skis should be either highly 
regulated or banned from the national parks. And I believe 
snowmobiles, 89 or 87 percent of the American public said the 
same.
    So that is where that is coming from.
    The Chairman. You have a poll that 89 percent of Americans 
want to ban motorized access to the parks?
    Mr. Kiernan. The question related to snowmobiles or Jet 
Skis, and the answer was, as I said, 89 percent wanted them 
either banned or highly regulated. We would be happy to share 
that with the Committee.
    [The information referred to above was not received by the 
Committee at the time of printing]
    The Chairman. Will you share that with the Committee, 
because I find that stunning, frankly.
    I have been on this Committee for 21 years, I have been 
Chairman of the park Committee for 6 of those years, and I have 
seen poll after poll after poll, and I have never seen anything 
like that. But I am not in any way questioning you; I would 
like to see it, if you would give me that opportunity.
    What do you think of overflights of Grand Canyon, Mr. 
Kiernan?
    Mr. Kiernan. We do believe that overflights can be an 
appropriate--
    The Chairman. For tourists, excuse me.
    Mr. Kiernan. Yes.
    They can be an appropriate means of understanding a park, 
or seeing a park, of experiencing a park. So we agree that 
overflights can be appropriate means in a park.
    However, there need to be adequate regulations so there can 
be either times of day when you don't have to listen to the 
overflights or portions of the park where you don't have to 
listen to overflights. Right now, when you are in the Grand 
Canyon, it feels as though constantly you are hearing the noise 
of aircraft overflights when you are down in the canyon.
    I have spent lots of time in the canyon, have boated the 
river twice. When you are listening to this noise, it seriously 
detracts from the experience in the Grand Canyon.
    However, since we do think it can be an appropriate means 
of seeing the park, we feel strongly there need to be 
appropriate regulations so, as I said, either all morning there 
are not tours, or this portion of the park there are no tours, 
so that people can go out and have that wilderness experience.
    And we have come to understand that listening to the sounds 
of nature, listening to moving water, listening to wind, is an 
important part of the experience in our national parks, just as 
seeing the night skies. That is an important part. We don't 
want those things lost.
    The Chairman. Do you feel the current regulations of 
overflights in the Grand Canyon are adequate?
    Mr. Kiernan. No.
    The Chairman. How would you strengthen them?
    Mr. Kiernan. I would need to respond to the Committee in 
more detail to give you some specific ideas.
    The Chairman. Let me ask you about Glen Canyon recreation 
area. Personal watercraft are allowed there. It is probably the 
biggest reservoir in America; 186 miles long. Do you feel they 
should be restricted or banned?
    Mr. Kiernan. We feel, because of their impact on the water 
quality and on wildlife, that they should be banned.
    Once again, the question is the form of recreation. Those 
are recreation areas. Absolutely agree with you, Mr. Chairman, 
that we want to be recreating in those lands. The question is 
what form of recreation is appropriate given the purpose of the 
national park system.
    Given the emissions from the Jet Skis, and the noise, and 
the impact on wildlife, we do not think they are appropriate.
    The Chairman. In your statement, you talked about 
snowmobiles, and I think you alluded to Yellowstone. I guess 
Voyageurs and Yellowstone would be the two biggest; there are 
42 parks that allow snowmobiles.
    In the event that the industry--by that, the manufacturers 
of these--come up with a four-stroke engine. And so far, the 
technology that it is as quiet and as pollution-free as any 
motorized vehicles.
    For example, they used, in front of this Committee, they 
said Honda Accord. I don't drive a Honda Accord, but a lot of 
people seem to like that car.
    If they could do that, do you still have your feelings 
toward banning snowmobiles, say, in Yellowstone?
    Mr. Kiernan. Yes, we do, Mr. Chairman.
    I have had the opportunity to ride a four-stroke 
snowmobile. They are still very loud. They still have the 
potential, obviously, of harassing the wildlife.
    We have video footage of snowmobilers stampeding the bison 
in the winter in Yellowstone. That is not the vision that 
people have of Yellowstone.
    As well, there is a viable alternative, and this is in the 
form of snow coaches.
    The Chairman. Well, let me frame my question again and say, 
if they can demonstrate scientifically that their four-stroke 
engine is as quiet as a car that goes through there in the 
summer months, do you still an objection?
    Mr. Kiernan. Yes, and my concern is the following. We did a 
study last winter--actually, it was 14 months ago--
    The Chairman. Then I can only draw the conclusion that you 
object to the amount of cars that go through there in the 
summer.
    Mr. Kiernan. No. The question is, we want people in the 
parks, what is the best means of access into the park, causing 
the least damage?
    There is a wonderful alternative in the snow coaches. 
Getting people into the parks, in Yellowstone, in particular, 
right now, the car is the only means of getting people in the 
parks, hence why we support having cars in the park.
    However, in the wintertime, there is an alternative to 
snowmobiles. And the problem with the snowmobiles is 100 
percent of the time on a weekend in Yellowstone in the 
wintertime when you are sitting at Old Faithful, you are 
listening to the sounds, to the whine, to the scream of 
snowmobiles.
    While you are sitting there, trying to see one of the 
wonders of the world, and in the winter, with the bisons this 
is a wonderful place, and you are listening to snowmobiles. 
That is a lost experience for the visitors.
    If we replace the snowmobiles with snow coaches, we can 
regain the solitude and the quiet.
    The Chairman. Well, in effect, the only people that can see 
the bison in the winter are snowmobilers. There isn't anybody 
else in there.
    Mr. Kiernan. There are cross-country skiers and there is 
the snow coach technology--
    The Chairman. You realize how far a backcountry skier has 
to go from the west side of Yellowstone to get to the Old 
Faithful lodge? Boy, I would like to meet that guy. We are 
going to take him to the 2002 Olympics games, I can tell you 
that.
    [Laughter.]
    Mr. Kiernan. But the snow coaches would do that function 
right now. They bring people into the park.
    They essentially are vans with cleat tracks underneath 
them, and they bring people in and can actually improve the 
educational experience by having a driver that can teach and 
share and interpret the park, as opposed to being on a 
snowmobile where you have a helmet and you hear and see nothing 
but the scream and the noise of your own snowmobile.
    The Chairman. Mr. Kiernan, you have a very interesting 
organization. As you know, this Committee has from time to time 
wondered about the wilderness in our parks. The 1964 bill 
called for Park Service to do the work, trying to determine 
what should be wilderness in a park.
    We often felt that would be a pretty easy thing to do 
because parks would be the easiest of all to do, but we never 
really get around to doing that.
    Tell me, what would be your reaction to mountain bikes in 
wilderness in parks? Would you oppose it?
    Mr. Kiernan. I would want to consider it, but I believe we 
would be concerned because of the impact on the trails of 
mountain bikes. But I would want to study it and get back to 
you.
    The Chairman. Mr. Kiernan, you have objected to 
overflights, snowmobiles, personal watercraft, and you want to 
consider mountain bikes.
    Could we infringe upon you a little bit to tell us what the 
position--not right now--but would you, if I may ask you, 
respectfully, would you please send us your written analysis of 
those four issues that I have just brought up, to where the 
NPCA would be coming from on them?
    I mean, I have gotten mixed signals from your folks, from 
the letter I read to you, from another letter addressed to Mr. 
Hefley on May 14. I am kind of trying to figure out where you 
folks are coming from.
    I do not accept the premise you are against everything, 
like I would on some organization.
    Mr. Kiernan. Thank you.
    The Chairman. And I know that your organization does some 
very fine things for the parks, and I don't argue with that. I 
compliment you for it.
    On the other side of the coin, we do have some 
organizations that constantly lobby Congress who are against 
everything. I mean, I have asked some on wilderness, well, if I 
gave you this much, what would you do? And they just keep 
moving the goal posts on us.
    So many of us have come to the conclusion that it is more 
an industry to raise money and litigate than it is to really 
take care of the public lands.
    I haven't found your organization that way, but I would 
really appreciate if you would supply us with your written 
answer to some of these questions that we have.
    Mr. Jones, did you have one?
    Mr. Jones. Mr. Chairman, thank you.
    Like you, I am sure, I have another meeting shortly. But I 
wanted just to ask a couple questions. I have kind of gone 
through Mr. Kiernan's statement, and a couple of questions come 
to my mind after reading this.
    You advocate no motorized recreational vehicle use on all 
roadless wilderness and wilderness-quality lands and water. 
Will you define for me what wilderness-quality is?
    Mr. Kiernan. Areas that have been identified by the Park 
Service as potential wilderness areas and that are in the 
process of being brought forward to Congress for consideration.
    Mr. Jones. Okay. Let me ask you to give me your definition 
of motorized recreational vehicles.
    Mr. Kiernan. To be fair to the Committee, if I can respond 
in writing; I want to be sure to be clear and concise and 
consistent.
    Mr. Jones. I think that would be fine, but would you give 
me just one example before I have to leave?
    Mr. Kiernan. Snowmobiles, Jet Skis, anything with a motor 
that is propelling the individual. I need to give some more 
thought to that.
    Mr. Jones. Does this mean like an RV going through the 
park? Would that obviously be--
    Mr. Kiernan. Correct, yes.
    Mr. Jones. Okay. And you are against bicycles, I think you 
said to the Chairman?
    Mr. Kiernan. In wilderness areas.
    Mr. Jones. Dirt bikes or whatever they are.
    Mr. Kiernan. In wilderness areas. Have some concerns; want 
to get back to you.
    But, clearly, I would enjoy putting in that letter all the 
things that we are for in the national parks, all of the 
activities that we believe are appropriate, that millions of 
Americans love to do in our national parks.
    Strolling in the national parks. Walking. Picnicking in our 
national parks. Listening to the streams in our national parks.
    There are a lot of activities that we clearly support and 
would love to include in information to the Committee.
    Mr. Jones. Mr. Chairman, thank you.
    The Chairman. Mr. Kiernan, some time ago, Chairman Hefley 
and I put a bill in to form a commission that would try to 
determine the criteria of a park, what it should be and what it 
shouldn't be.
    As we probably all know, some parks were created that 
really didn't have much quality. Most of them, of course, are 
very great and are jewels.
    Do you feel that that would be reasonable to do that? Or do 
you think it still should be to the eye of the beholder and the 
congressman who has the most clout gets to create the park, 
even if it is a past landfill?
    Mr. Kiernan. I believe the Park Service currently has some 
standards already established that help guide it in designating 
parks and monuments and wild and scenic rivers. I would take a 
look and see how effective those are and whether additional 
guidance needs to come from Congress.
    The Chairman. Actually, the Park Service criteria is pretty 
loose, and it kind of ends up with what congressman can get his 
bill through, is what it amounts to.
    We were a little concerned that conservation areas, 
heritage areas, primitive areas, wilderness areas, park areas, 
have some criteria. We had to cave on that because Secretary 
Babbitt had a great deal of fun calling that a park closing 
law.
    And we kind of enjoyed the humor for a little while. 
Finally, it got to us when he got President Clinton and one of 
the prime ministers of the new federation of Russia involved. 
And we saw that it had gone a little far.
    So I asked Roger Kennedy, the director of the Park Service, 
to come up here, and put him under oath, and asked one 
question: Does this bill constitute a park closing?
    His response was, no, absolutely not.
    Out of that, he was no longer a park director. But anyway, 
he was right and admirable in what he said, because there was 
nothing in that law that did it.
    But we are always curious about, should someone establish a 
commission. But we have too many Members of Congress--and I 
guess I have been very close to it for many years--who want a 
park for no reason, really, at all.
    I do think there should be a criteria. I mean, look at the 
parks. We have natural parks, archaeological parks, we have one 
named after a band, historic areas.
    And I am really not going to do one for a landfill, 
regardless of what one of my friends keeps asking.
    [Laughter.]
    Mr. Kiernan. I think, Mr. Chairman, we could work together 
on that one.
    [Laughter.]
    The Chairman. I look forward to working with you.
    And I thank this panel and all the other panels for 
excellent testimony. It has been very informative.
    And believe me, this information you have given us, both 
orally and written, will be put to good use.
    And thank you so much.
    The Chairman. We stand adjourned.
    [Whereupon, at 1:03 p.m., the Committee was adjourned.]


</pre></body></html>
